<html>
<title> - TRANSPORTATION INNOVATION: AUTOMATED TRUCKS AND OUR NATION'S HIGHWAYS</title>
<body><pre>[Senate Hearing 115-434]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-434
 
 TRANSPORTATION INNOVATION: AUTOMATED TRUCKS AND OUR NATION'S HIGHWAYS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Available online: http://www.govinfo.gov
                
                
                              _________

                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-306 PDF                 WASHINGTON : 2019                      


                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2017...............................     1
Statement of Senator Thune.......................................     1
Statement of Senator Peters......................................     3
    Prepared statement...........................................     5
Statement of Senator Wicker......................................    38
Statement of Senator Young.......................................    40
Statement of Senator Blumenthal..................................    42
Statement of Senator Lee.........................................    44
Statement of Senator Markey......................................    45
Statement of Senator Gardner.....................................    47
Statement of Senator Cortez Masto................................    49
Statement of Senator Inhofe......................................    51
Statement of Senator Hassan......................................    53
Statement of Senator Capito......................................    55
Statement of Senator Duckworth...................................    57
Statement of Senator Cantwell....................................    59

                               Witnesses

Scott G. Hernandez, Colonel, Colorado State Patrol...............     6
    Prepared statement...........................................     8
Troy Clarke, Chairman, President, and Chief Executive Officer, 
  Navistar, Inc..................................................    11
    Prepared statement...........................................    12
Deborah A.P. Hersman, President and Chief Executive Officer, 
  National Safety Council........................................    13
    Prepared statement...........................................    15
Chris Spear, President and Chief Executive Officer, American 
  Trucking Associations, Inc. (ATA)..............................    25
    Prepared statement...........................................    26
Ken Hall, General Secretary Treasurer, International Brotherhood 
  of Teamsters...................................................    31
    Prepared statement...........................................    33

                                Appendix

Article dated September 12, 2017 entitled, ``Self-Driving Truck 
  Technology Is the Answer to Safer Roads'' from Gary Shapiro, 
  President and CEO, Consumer Technology Association.............    65
Letter dated September 12, 2017 from Jacqueline Gillan, 
  President, Affairs, Advocates for Highway and Auto Safety; and 
  Catherine Chase, Vice President of Governmental, Advocates for 
  Highway and Auto Safety........................................    66
Letter dated September 12, 2017 from Beth Osborne, Interim 
  Director, Transportation for America...........................    68
Letter dated September 12, 2017 from Timothy Blubaugh, Executive 
  Vice President, Truck and Engine Manufacturers Association.....    70
Property Casualty Insurers Association of America, prepared 
  statement......................................................    71
Hon. David L. Strickland, Esq., Counsel, Self-Driving Coalition 
  for Safer Streets and Partner, Venable LLP, prepared statement.    72
Eric Meyhofer, Head of Advanced Technologies Group (ATG), Uber 
  Technologies, Inc., prepared statement.........................    75
Letter dated September 21, 2017 from Alex Rodrigues, CEO and Co-
  founder, Embark and Jonathan Morris, Head of Public Policy, 
  Embark.........................................................    78
Truck Safety Coalition, prepared statement.......................    81
Response to written question submitted by Hon. Maggie Hassan to:
    Colonel Scott G. Hernandez...................................    84
    Troy Clarke..................................................    84
Response to written question submitted to Deborah A.P. Hersman 
  by:
    Hon. Amy Klobuchar...........................................    84
    Hon. Maggie Hassan...........................................    85
Response to written question submitted to Chris Spear by:
    Hon. Bill Nelson.............................................    85
    Hon. Amy Klobuchar...........................................    86
    Hon. Maggie Hassan...........................................    87
Response to written question submitted to Ken Hall by:
    Hon. Bill Nelson.............................................    87
    Hon. Maggie Hassan...........................................    88


 TRANSPORTATION INNOVATION: AUTOMATED TRUCKS AND OUR NATION'S HIGHWAYS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Peters, Wicker, Moran, 
Inhofe, Capito, Lee, Gardner, Young, Cantwell, Duckworth, 
Blumenthal, Markey, Booker, Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Before we begin, I certainly 
want to express our support for and thoughts and prayers for 
all the victims of the recent hurricanes, and most recently, of 
course, in the State of Florida. And our colleague and the 
ranking member on this Committee, Senator Nelson, he and 
Senator Rubio are there today, as they should be, and looking 
out for the needs of their constituents. And so, again, we 
certainly want to express our support and prayers for them and 
for the people of Florida as they deal with a horrific storm 
and its aftermath.
    This Committee has been working for some time in a 
bipartisan fashion to address the advancement of autonomous 
vehicles. And I especially want to thank Senator Peters for 
partnering with me in this effort. I also appreciate the 
contributions of Ranking Member Nelson, who, as I said, is 
unfortunately unable to join us today.
    We've put a lot of work into this effort to date, and I 
look forward to continuing to work with my colleagues to 
introduce and pass bipartisan legislation.
    Given this Committee's broad jurisdiction over 
transportation, interstate commerce, and vehicle safety, we are 
well-positioned to oversee and address the emergence of this 
transformative technology. Beginning last Congress, we've held 
two hearings and hosted a demonstration of this technology for 
Committee members. With today's hearing, we'll take a closer 
look at the promise and implications of the technology for 
trucks and larger vehicles.
    Automated vehicle technology holds great promise to 
transform transportation in this country: expanding mobility, 
reducing traffic congestion and related emissions, and 
increasing productivity, among other benefits. But the most 
exciting aspect of this transformative advancement is the 
potential to save thousands of lives every year on our Nation's 
highways.
    In 2015, more than 35,000 people died in major vehicle 
crashes in the United States. With more than 90 percent of 
those deaths attributable to human error, automated vehicles 
have the potential to reduce these tragic numbers dramatically.
    Too many lives are lost on our roads, and I look forward to 
hearing from Ms. Hersman about how automated vehicles, 
including trucks, can help to reduce this number.
    Trucks share our roads, deliver our goods, and keep our 
economy moving. Including trucks in the conversation about 
automated vehicles is important as we week to improve safety. 
It also puts our economy on a level playing field as other 
countries around the world deploy automated freight trucks.
    In 2015, trucks traveled over 280 billion miles to carry 
over 70 percent of the goods by tonnage on our roadways. A 2017 
Energy Information Administration study projected that 
automated trucks could yield fuel savings between 6.7 and 18.6 
percent, improving our economic competitiveness, lowering 
consumer prices, and supporting job growth. I am glad that Mr. 
Spear has joined us today to speak to the impacts of trucking 
on our economy and the role of automated trucks in the future 
of transportation innovation.
    Testing and development is already ongoing as companies in 
the U.S. have increasingly explored the potential benefits of 
automated trucks. Companies like Uber, Tesla, Google, Embark, 
Starsky, and others have invested in automated truck 
technology.
    Truck manufacturers like Navistar are actively pursuing 
automated technologies in trucks. Colonel Scott Hernandez, 
Chief of the Colorado State Patrol, who joins us today, has 
seen this technology firsthand. Last year, he participated in a 
test of Otto, now Uber's truck startup, which drove 120 miles 
on Interstate 25 in Colorado.
    As other countries devote significant attention and effort 
to stimulating innovation in this area, strong Federal 
leadership will be necessary to maintain our position as global 
leader and ensure that these vehicles are tested and deployed 
safely.
    Just yesterday, Secretary Chao announced the Department of 
Transportation has updated its policy guidance on automated 
vehicles. I am pleased to see action from the administration on 
this transformative technology. DOT's new guidance improves 
upon similar efforts by the prior administration and takes the 
same position regarding the inclusion of all motor vehicles, 
both cars and trucks, from light to heavy duty, under the same 
regulatory framework. And though their approaches differ, 
states that have passed automated vehicle legislation similarly 
cover all motor vehicles, cars and trucks. In doing so, they 
have recognized the need to address automated motor vehicles 
cohesively, without leaving out certain vehicle classes.
    Of course, it's important to consider all impacts of this 
new technology. It is crucial that we hear about the potential 
impact on jobs, and engage in a clear-eyed discussion about how 
to best prepare for the future. So I am glad that Mr. Hall is 
able to join us today.
    There are over 3 million commercial vehicle drivers in the 
U.S., and they are the backbone of the economy. Technological 
advancements have the potential to affect them in very 
different ways, including in positive ways. Technology should 
make a driver's life easier and safer, which, in turn, will 
improve the rest of our transportation system and those who use 
it every day.
    Automation will bring many benefits and many challenges, 
but they are not entirely new challenges. As former President 
Johnson said in response to the challenges of automation during 
his term, and I quote, ``Automation is not our enemy. 
Automation can be the ally of our prosperity if we will just 
look ahead, if we will understand what is to come, and if we 
will set our course wisely after proper planning for the 
future,'' end quote. I'm glad we are continuing that discussion 
today. I look forward to hearing from all of our witnesses as 
we move forward with legislation to address automated vehicles.
    And I now want to turn to Senator Peters for his opening 
statement.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Mr. Chairman, and thank 
you for calling this very important hearing.
    As the Chairman mentioned, I'm in this seat today because 
Senator Nelson is back home in his great State of Florida 
helping to begin the very long recovery effort after the 
devastating Hurricane Irma, and certainly our thoughts and 
prayers are with Senator Nelson as well as with all of the 
people of the State of Florida.
    As the Chairman mentioned last Friday, he and I released a 
discussion draft of our self-driving car legislation, which is 
the result of months of collaborative effort, countless 
meetings with stakeholders across the spectrum of interests, 
and further bipartisan work from Senator Nelson. I want to 
thank Chairman Thune and his staff for the many long hours and 
effort that have gone into this bipartisan draft.
    This legislation will provide the first-ever changes in 
Federal law targeted at ushering in a new era of mobility and 
transportation innovation. The bill will facilitate the safe 
development and adoption of self-driving cars, reduce existing 
regulatory barriers, and establish a new regulatory framework 
to support this innovation going forward.
    Importantly, it will also ensure that the United States 
leads the international race to deploy these new technologies. 
We must develop and build them here in our country, creating 
new 21st century manufacturing jobs as well.
    For the remainder of this month, we will work diligently to 
resolve and finalize the outstanding issues in this draft 
legislation, including the topic of today's hearing, whether 
highly automated trucks and buses should be part of this 
particular legislation, or addressed in some future piece of 
legislation.
    I will note that while gathering feedback on Chairman 
Thune's and my draft legislation, many stakeholders were clear 
that the prospect of self-driving trucks raises a very 
different set of issues from self-driving cars, and ultimately, 
those same stakeholders expressed serious concerns with 
including self-driving trucks in this bill without a much more 
robust discussion and evaluation of their impact by industry, 
academia, and government.
    I will also note that our draft legislation was informed by 
two Commerce Committee hearings, in March of 2016 and June of 
2017, and two iterations of NHTSA's Federal automated vehicle 
policy, all of which were focused on highly automated, 
lightweight passenger cars, not trucks.
    And, finally, I will note that the House recently passed 
its self-driving vehicle legislation unanimously without the 
inclusion of self-driving trucks weighing over 10,001 pounds.
    It is indisputable that the trucking industry is critically 
important to our economy and to the day-to-day consumer needs, 
delivering more than 10 billion tons of freight per year and 
employing more than 3 million Americans as truck drivers. The 
same can be said of the bus industry, which provides important 
transportation options for many Americans, and creates 
thousands of jobs.
    Major changes to these industries, brought on by high 
levels of automation, will have a major impact on jobs, 
transportation, and the economy, not to mention roadway safety. 
And we need to make sure that when we do establish a regulatory 
framework for self-driving trucks, we get it right, after 
having considered all of the implications.
    For example, we need to be able to answer some fundamental 
questions. For example, What is the trucking industry's 
timeline for deployment of highly automated trucks? Will the 
industry deploy Levels 4 or 5 automated trucks, or will it 
stick to lower levels of automation? What specific Federal 
motor vehicle safety standards will highly automated trucks 
need exemptions from? Do the unique characteristics of the 
trucking industry require additional safeguards for highly 
automated trucks, particularly for safety and cybersecurity 
issues? How will changes to the vehicle safety standards impact 
operations and enforcement? And should we be considering those 
impacts now? What are the job impacts of highly automated 
trucks? And what are the industry's plans for retraining or 
reassigning the drivers who are in danger of losing their jobs?
    But in our discussions to date, we have not gotten as clear 
of an understanding on issues related to self-driving trucks as 
we have during our countless discussions on self-driving cars. 
As a result, I'm of the mind that highly automated trucks are 
not ripe for inclusion in this bill.
    Before I close, I want to be clear that improving safety on 
our highways is critically important to me. It is one of the 
reasons why advancing self-driving car legislation is so 
important to me as well. But I also recognize that in the long 
term, self-driving trucks and buses are also intended to 
improve safety on our highways. This is certainly clear. But I 
question assertions that excluding self-driving cars--or 
trucks, excuse me--I question assertions that excluding self-
driving trucks from this particular bill will result in less 
safe roads, and that they don't merit special considerations 
going forward. We cannot allow such premature conclusions to 
stand in this Committee's way of talking specifics and getting 
the answers we need to have a more complete understanding of 
the safety, workforce, and policy implications of highly 
automated trucks.
    Again, I want to thank all of our witnesses for being here 
today and for helping start this very important conversation, 
and I look forward to the testimony.
    [The prepared statement of Senator Peters follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    Thank you to the Chairman for calling this important hearing.
    I'm in this seat today because Sen. Nelson is back home in his 
great state of Florida, helping to begin the long recovery effort after 
the devastating Hurricane Irma, and our thoughts are certainly with him 
and his constituents this morning.
    As the Chairman mentioned, last Friday he and I released a 
discussion draft of our self-driving car legislation, which is a result 
of months of collaborative effort, countless meetings with stakeholders 
across the spectrum of interests, and further bipartisan work with 
Senator Nelson.
    I want to thank Chairman Thune and his staff for the long hours and 
effort that have gone into our bipartisan draft.
    This legislation will provide the first-ever changes in Federal law 
targeted at ushering in a new era in mobility and transportation 
innovation.
    The bill will facilitate the safe development and adoption of self-
driving cars, reduce existing regulatory barriers, and establish a new 
regulatory framework to support this innovation going forward.
    Importantly, it will also ensure that the United States leads the 
international race to deploy these new technologies. We must develop 
and build them here, creating new 21st century manufacturing jobs in 
the United States.
    For the remainder of this month, we will work diligently to resolve 
and finalize the outstanding issues in this draft legislation--
including the topic of today's hearing--whether highly-automated trucks 
and buses should be part of this particular legislation, or addressed 
in a separate bill.
    I will note that while gathering feedback on Chairman Thune's and 
my draft legislation, many stakeholders were clear that the prospect of 
self-driving trucks raises a very different set of issues from self-
driving cars. And--ultimately--those same stakeholders expressed 
serious concerns with including self-driving trucks in this bill 
without a much more robust discussion and evaluation of their impact by 
industry, academia, and government.
    I will also note that our draft legislation was informed by two 
Commerce Committee hearings--in March 2016 and June 2017--and two 
iterations of NHTSA's Federal Automated Vehicle Policy. All of which 
were focused on highly-automated light-weight, passenger cars--not 
trucks.
    And finally, I will note that the House recently passed its self-
driving vehicle legislation unanimously, without the inclusion of self-
driving trucks weighing over 10,001 pounds.
    It is indisputable that the trucking industry is critically 
important to our economy and to our day-to-day consumer needs, 
delivering more than 10 billion tons of freight-per-year and employing 
more than 3 million Americans as truck drivers.
    The same can be said of the bus industry, which provides important 
transportation options for many Americans and creates thousands of 
jobs.
    Major changes to these industries brought on by high levels of 
automation will have major impacts on jobs, transportation and the 
economy--not to mention roadway safety.
    And we need to make sure that when we do establish a regulatory 
framework for self-driving trucks--we get it right after having 
considered all of the implications.
    For example, we need to be able to answer fundamental questions 
like, what is the trucking industry's timeline for deployment of 
highly-automated trucks?

  <bullet> Will the industry deploy levels 4 or 5 automated trucks, or 
        will it stick to lower levels of automation?

  <bullet> What specific Federal motor vehicle safety standards will 
        highly-automated trucks need exemptions from?

  <bullet> Do the unique characteristics of the trucking industry 
        require additional safeguards for highly-automated trucks, 
        particularly for safety and cybersecurity issues?

  <bullet> How will changes to the vehicle safety standards impact 
        operations and enforcement? And should we be considering those 
        impacts now?

  <bullet> What are the job impacts of highly-automated trucks and what 
        are the industry's plans for retraining or reassigning the 
        drivers who are in danger of being out of work?

    But in our discussions to date, we have not gotten as clear of an 
understanding on issues related to self-driving trucks as we have 
during our countless discussions on self-driving cars. As a result, I 
am of the mind that highly-automated trucks are not ripe for inclusion 
in this bill.
    Before I close, I want to be clear that improving safety on our 
highways is critically important to me. It is one of the reasons why 
advancing this self-driving car legislation is so important to me. And 
I recognize that in the long-term, self-driving trucks and buses are 
also intended to improve safety on our highways. That is certainly 
clear. But I question assertions that excluding self-driving trucks 
from this particular bill will result in less safe roads and that they 
don't merit special considerations going forward. We cannot allow such 
premature conclusions to stand in this Committee's way of talking 
specifics--and getting the answers we need to have a more complete 
understanding of the safety, workforce, and policy implications of 
highly-automated trucks.
    I want to thank all of the witnesses for being here today and for 
helping to start the conversation on this very important topic. I look 
forward to your testimony.

    The Chairman. Thank you, Senator Peters.
    And we'll move now to our panel. We want to thank you all 
for being here and welcome you, and look forward, obviously, to 
hearing from you. We would ask, if you can, to confine your 
oral remarks as close to 5 minutes as possible. Your entire 
statement will be included as part of the record, but it will 
maximize the opportunity for members of the Committee to ask 
questions.
    We'll start on my left, and your right, with Colonel Scott 
Hernandez, who is Chief of Colorado State Patrol, from 
Lakewood, Colorado. We'll move then to Mr. Troy Clarke, who is 
Chief Executive Officer of Navistar; Ms. Deborah Hersman, who 
is the President and Chief Executive Officer of the National 
Safety Council; Mr. Chris Spear, who is President and Chief 
Executive Officer of the American Trucking Associations; and 
Mr. Ken Hall, who is the General Secretary-Treasurer of the 
International Brotherhood of Teamsters.
    So, Colonel Hernandez, if you would proceed.

           STATEMENT OF SCOTT G. HERNANDEZ, COLONEL, 
                     COLORADO STATE PATROL

    Colonel Hernandez. Absolutely. Good morning. Good morning, 
Chairman Thune, Senator Peters, and members of the Committee. 
Thank you for holding this important hearing and for inviting 
me here today to discuss the role automated vehicles will play 
in the future and how they may improve safety on our Nation's 
highways.
    My name is Scott Hernandez, and I'm the Colonel of the 
Colorado State Patrol, and I am honored to lead 1,200 members 
whose primary goal is to save lives on our highways.
    This year, 410 people have been killed on Colorado 
roadways, a staggering number. We are committed to reducing the 
number of people killed eventually to zero. The enforcement 
community is excited about the potential improvements to 
roadway safety that are possible with the deployment of 
autonomous vehicles. Our commitment is to reduce crashes, 
injuries, and fatalities on our nation's highways, and we know 
automated technology has already saved lives through the 
elimination of human error, such as distracted driving and many 
other unsafe driving habits.
    I am also a member of the Commercial Vehicle Safety 
Alliance. CVSA, which every state is a member, works to improve 
commercial motor vehicle safety and uniformity by bringing 
truck and bus regulatory, safety, and enforcement agencies 
together with industry representatives to solve highway 
transportation safety problems. Recognizing the tremendous 
potential benefits, CVSA has long been a supporter of 
legislation, regulation, and policies that encourage the 
deployment of safety technologies, proven through the 
independent research to improve CMV safety.
    Even through preventing crashes or mitigating the severity 
of crashes, autonomous vehicles are the natural next 
progression in vehicle safety technology, and the enforcement 
community stands ready to assist in making sure that these 
technologies are deployed as seamlessly and as effectively as 
possible.
    In the late summer of 2016, Otto approached the State of 
Colorado expressing interest in conducting an intrastate 
delivery in an autonomous commercial vehicle. With 
consideration of the fact that there are no laws or regulations 
prohibiting the operation of autonomous vehicles to include 
this scenario in Colorado, we chose to partner with Otto to 
ensure safety remains paramount. We also understood the 
potential for government and enforcement to learn from the 
process in order to participate in reasonable regulations in 
the future.
    During the early morning hours of October 20, 2016, an 
autonomous commercial vehicle delivered a product traveling 120 
miles from Ft. Collins, Colorado, to Colorado Springs in a 
Level 4 autonomous demonstration. Soon after entering 
southbound I-25 from the Ft. Collins Port of Entry, the driver 
placed the vehicle in autonomous mode and retreated to the 
space behind and between the driver passenger seat. The 
commercial vehicle traveled southbound on I-25 again for over 
120 miles until the driver took over the controls and exited 
the interstate toward the terminal. The demonstration 
highlighted the future possibilities and use of autonomous 
commercial vehicles.
    The Colorado State Patrol and Colorado Department of 
Transportation took extensive measures to reduce the risk 
associated with this demonstration. We used NHTSA's ``Federal 
Autonomous Vehicle Policy'' and California's autonomous vehicle 
laws and rules as guidance. Pre-event testing was monitored for 
consistency and achievement through specific safety performance 
gates, ranging from off-road testing to extensive on-road 
testing. The truck was inspected and deemed to be without a 
violation by CVSA-certified safety inspectors, and the company 
underwent a safety audit to ensure that it had appropriate 
level of safety management practices in place to safely operate 
in commerce.
    The State Patrol and Department of Transportation received 
detailed weekly briefings on performance through required 
safety and testing protocols, including testing of scenario 
plans for risk and fallback.
    In an effort to ensure the demonstration was completed in a 
safe manner for all involved, the State Patrol escorted the 
autonomous vehicle in a similar fashion as a motorcade or 
rolling special event, consistently monitoring safety protocols 
and situational assessment. While we will still need to work 
toward total solutions, the Colorado State Patrol made progress 
toward understanding the perspective of other governmental 
agencies, understanding autonomous vehicle crash 
investigations, understanding why cybersecurity will be 
essential as this technology progresses, understanding how the 
vehicle systems work, and how to begin advancing the process of 
standardized inspection procedures, understanding the 
development of a unique regulatory framework, and how to better 
partner with all stakeholders.
    This demonstration illustrated the probability that 
autonomous commercial motor vehicles, when operated during the 
right location, time, and situation, could reduce crash risk 
and traffic congestion. Additionally, the demonstration has 
provided important information and experience to the Colorado 
State Patrol and our partners responsible for establishing the 
necessary legal and regulatory framework for the testing and 
implementation of autonomous vehicle technologies.
    Clearly, technological advances in the past have saved 
lives, and clearly technology will continue to save lives in 
the future. Our experience in Colorado makes it clear that it 
is time to begin planning in earnest for the deployment of semi 
and fully automated CMVs. As this Committee moves forward with 
legislation setting the national framework to guide the 
deployment of autonomous vehicles, we believe that 
consideration must be given to CMV industry. We all have many 
questions that need to be addressed as we work toward 
deployment of these technologies.
    Many questions need to be answered before autonomous 
vehicles can be allowed to enter the driving population. I want 
to stress that is the purpose of these questions, is not--that 
the purpose of these questions is not to slow innovation or 
create roadblocks to the technology. The enforcement community 
recognizes the safety benefits and welcome the change--any 
changes that improves roadway safety. However, we must ensure 
that inspectors, investigators, and industry understand the 
role of this technology and how it will impact CMV enforcement 
programs.
    We strongly encourage you to consider all facets of this 
issue, including what to do once the vehicles are on the roads. 
Doing so will help avoid uncertainty for the motor carrier 
industry and the enforcement community.
    I appreciate this opportunity to participate in this timely 
discussion on the future of automated commercial vehicles. 
Thank you very much.
    [The prepared statement of Colonel Hernandez follows:]

          Prepared Statement of Scott G. Hernandez, Colonel, 
                         Colorado State Patrol
Introduction
    Chairman Thune, Ranking Member Nelson and Members of the Committee, 
thank you for holding this important hearing and for inviting me here 
today to discuss the role automated vehicles will play in the future of 
safety on our Nation's highways.
    My name is Scott Hernandez. I am the Colonel of the Colorado State 
Patrol. As the Colonel, I am responsible for leading approximately 
1,200 members whose primary goal is to save lives on our highways. In 
Colorado to date 247 people have been killed, a staggering number of 
people. We are committed to driving that number down, eventually to 
zero.
    I am also a member of the Commercial Vehicle Safety Alliance 
(CVSA), a nonprofit association comprised of local, state, provincial, 
territorial and Federal commercial motor vehicle safety officials and 
industry representatives. We represent the state agencies tasked with 
the responsibility for the administration and enforcement of commercial 
motor carrier safety regulations in the United States (U.S.), Canada 
and Mexico. We work to improve commercial motor vehicle safety and 
uniformity by bringing truck and bus regulatory, safety and enforcement 
agencies together with industry representatives to solve highway 
transportation safety problems. Every U.S. state, territory and 
possession, all Canadian provinces and territories, and the country of 
Mexico are CVSA members.
    First, let me say that the enforcement community is excited about 
the potential improvements to roadway safety that are possible with the 
deployment of autonomous vehicles. Our commitment is to reduce crashes, 
injuries and fatalities on our Nation's roadways, and we see great 
potential in autonomous technology. As we all know, driver behavior is 
the leading cause of motor vehicle crashes. Technology can help 
eliminate or reduce the risk of human error and driver distraction. In 
fact, basic versions of vehicle autonomy are already operating on our 
roads, preventing crashes. Examples of such technologies include 
enhanced anti-lock braking system (ABS) monitoring systems, vehicle 
stability systems, lane departure warning systems and collision warning 
systems. These systems all improve vehicle safety by helping keep 
vehicles in their lanes and operating at a safe distance from one 
another.
    The National Transportation Safety Board (NTSB) has repeatedly 
called for deployment of safety technologies on both commercial and 
personal vehicles to help reduce crashes and save lives. In fact, NTSB 
has called on the National Highway Traffic Safety Administration 
(NHTSA) to establish performance standards and mandate deployment of 
collision avoidance technologies on commercial motor vehicles in its 
annual NTSB Most Wanted List. Recognizing the tremendous potential 
benefits, CVSA has long been a supporter of legislation, regulation and 
policies that encourage the deployment of safety technologies proven, 
through independent research, to improve commercial motor vehicle 
safety, either through preventing crashes or mitigating the severity of 
crashes. Autonomous vehicles are the natural next progression in 
vehicle safety technology and the enforcement community stands ready to 
assist in making sure that the technology is deployed as seamlessly and 
as effectively as possible.
    In the late summer of 2016, OTTO approached the State of Colorado 
expressing interest in conducting an intrastate delivery using an 
autonomous commercial motor vehicle. With consideration to the fact 
that there were no laws or regulations prohibiting the operation of 
autonomous vehicles to include this scenario in Colorado, we chose to 
partner with OTTO to ensure safety remained paramount. Colorado policy 
makers also understood the potential for government and enforcement to 
learn from the process in order to participate in reasonable 
regulations in the future.
    During the early morning hours of Oct. 20, 2016, an autonomous 
commercial motor vehicle, specifically a 3-axle truck-tractor and 2-
axle semi-trailer vehicle combination, delivered a product traveling 
120 miles from Ft. Collins to Colorado Springs, Colorado, in a level 4 
autonomous demonstration. Soon after entering southbound on I-25 from 
the Ft. Collins Port of Entry, the driver placed the commercial motor 
vehicle in autonomous mode and retreated to the space behind and 
between the driver and passenger seat. The vehicle traveled southbound 
on I-25 for over 120 miles until the driver took over the controls and 
exited the interstate towards the terminal. The demonstration 
highlighted the future possibilities and use of autonomous commercial 
motor vehicles.
    The Colorado State Patrol and Department of Transportation took 
extensive measures to reduce the risks associated with this 
demonstration. We used NTHSA's ``Federal Autonomous Vehicle Policy'' 
and California's autonomous vehicle laws and rules as guidance. Pre-
event testing was monitored for consistency and achievement through 
specific safety performance gates, ranging from off-road testing to 
extensive on-road testing. The truck was inspected and deemed to be 
without a violation by CVSA-certified roadside safety inspectors and 
the company underwent a safety audit to ensure it had the appropriate 
level of safety management practices in place to safely operate in 
commerce. Two separate rides covering over 200 miles were conducted by 
a Colorado State Patrol commander to visually confirm the technology. 
The Colorado State Patrol and the Colorado Department of Transportation 
received detailed weekly briefings on performance through required 
safety and testing protocols, including testing of scenario plans for 
risks and fallback.
    OTTO provided certification of safety assessments, vehicle, driver 
and insurance. The safety assessments certification included system 
safety, validation and data sharing. Driver certification included 
lists of all drivers, driver training and overall experience. Vehicle 
certification included the Federal Motor Vehicle Safety Standards 
(FMVSS).
    In an effort to ensure the demonstration was completed in a safe 
manner for all involved, the Colorado State Patrol escorted the 
autonomous commercial motor vehicle in a similar fashion as a motorcade 
or rolling special event, constantly monitoring safety protocols and 
situational assessment. Constant communication throughout the event 
existed between the driver/passenger, engineers and state troopers.
    The demonstration was beneficial for law enforcement, as we were 
able to learn valuable lessons. While we will still need to work toward 
total solutions, the Colorado State Patrol made progress toward 
understanding the perspective of other governmental agencies, 
autonomous vehicle crash investigations, why cyber security will be 
essential as this technology progresses, the development of a unique 
regulatory framework and how to better partner with all stakeholders.
    The proof of concept in Colorado indicates that self-driving 
vehicles will play a critical role in improving traffic safety and may 
reduce congestion in the future. This demonstration has provided 
important information and experience to the Colorado State Patrol and 
our partners responsible for establishing the necessary legal and 
regulatory framework for the testing and implementation of autonomous 
vehicle technologies. Technological advances in the past have saved 
lives and, clearly, technology will continue to save lives in the 
future as the Colorado State Patrol, the Commercial Vehicle Safety 
Alliance and the law enforcement community moves toward zero deaths on 
our roadways.
    Our experience in Colorado makes it clear that it's time to begin 
planning in earnest for the deployment of semi-and fully-automated 
commercial motor vehicles. As this Committee moves forward with 
legislation setting a national framework to guide the deployment of 
autonomous vehicles, we believe that consideration must be given to the 
commercial motor vehicle industry. How will autonomous vehicles affect 
enforcement of Federal safety regulations? Which regulations apply to 
autonomous vehicles and which will have to be modified to adapt to the 
new technology? Are there regulations that autonomous vehicles should 
be exempted from entirely? For example, how will Federal hours-of-
service requirements apply? If there is a person in the cab while the 
vehicle is operating autonomously, does that person need to maintain 
their record of duty status? If so, how should that time be recorded? 
On duty, driving? On duty, not driving? Off duty?
    We also have questions regarding the maintenance or mechanical 
fitness of the underlying components of the autonomous vehicle system; 
such as, ABS monitoring systems, vehicle stability systems, lane 
departure warning systems, collision warning systems, etc. If the 
underlying systems are not functioning properly, then the autonomous 
system will not work either. We will need to review current inspection 
procedures and regulatory requirements to ensure that inspectors know 
how to verify that a system is functional and what to do if it is not. 
If an autonomous vehicle is placed out of service for critical safety 
violations, how will the motor carrier be notified?
    Autonomous vehicles will also have an impact on the roadside 
enforcement program. How will an inspector stop an autonomous vehicle 
for inspection? Will these vehicles be able to recognize and yield to 
emergency vehicle signals? Further, currently, the driver plays an 
integral role in the inspection process, working with the inspector to 
verify that critical vehicle mechanical components and systems are 
functioning properly. How will this change once inspectors begin 
encountering driver-less vehicles?
    These are just a few of the many questions that will need to be 
answered before autonomous vehicles can be allowed to enter the driving 
population. I want to stress that the purpose of these questions is not 
to slow innovation or create roadblocks to the technology. The 
enforcement community recognizes the safety benefits and welcome any 
change that improves roadway safety. However, we must ensure that 
inspectors and industry understand the role this technology will play 
and how it will impact commercial motor vehicle enforcement programs. 
We strongly encourage you to consider all facets of the issue, 
including what to do once the vehicles are on the roads. Doing so will 
help avoid uncertainty for the motor carrier industry and the 
enforcement community.
    I appreciate the opportunity to participate in this timely 
discussion on the future of automated commercial motor vehicles.

    The Chairman. Thank you, Colonel Hernandez.
    Mr. Clarke.

        STATEMENT OF TROY CLARKE, CHAIRMAN, PRESIDENT, 
          AND CHIEF EXECUTIVE OFFICER, NAVISTAR, INC.

    Mr. Clarke. Good morning, Chairman Thune, Senator Peters, 
and members of the Committee. I am honored to be here this 
morning to discuss an important topic in our industry, 
autonomous technology applications in commercial trucks.
    I am Troy Clarke, and I currently serve as the Chairman, 
President, and Chief Executive Officer of Navistar, 
Incorporated, the manufacturer of International trucks, IC 
school buses, diesel engines, and military vehicles. Navistar 
is headquartered in Lisle, Illinois, just outside of Chicago, 
and has over 12,000 employees worldwide.
    If I may, I would first like to provide a quick overview of 
our industry. There are four major commercial truck 
manufacturers in our country today. Ours is a small, highly 
competitive industry which expects to produce around 325,000 
vehicles this year--a small fraction compared to the passenger 
car and light-truck market.
    Our customers range from large fleets, like J.B. Hunt and 
Penske with thousands of vehicles, to independent drivers 
operating only one truck. We build trucks and buses via mass 
customization, each one tailored to meet the specific needs of 
a particular customer. Reliability and upfront costs all impact 
purchase decisions. And a new truck ranges in price from 
$60,000 to $150,000. In other words, they represent major 
capital investments. And they only generate revenue for our 
customers when they're up and running.
    Given all this, our customers invest significantly in the 
latest safety technology to protect their valuable capital 
asset as well as their most important human capital, the 
driver. This explains why market penetration rates for 
technologies like electronic stability control, radar-following 
cruise control, cameras for object detection, lane departure 
warning systems, and collision mitigation systems have been 
increasing every year. We call these advanced driver-assistance 
systems, or ADAS, and they offer quantum leaps of safety, 
productivity, and environmental benefits. Many of them also 
serve as the building blocks to greater automation.
    Navistar sees autonomous technology as an extension of the 
safety technology already in place, and we believe that these 
greater levels of self-driving technology will help reduce 
human error, which accounts for approximately 94 percent of all 
motor vehicle accidents.
    Before we arrive at the future, however, our customers tell 
me that they have much more immediate needs. They already have 
driverless trucks, but that's because they have trouble 
recruiting and retaining drivers. As truck makers, we don't 
hire or train drivers; our customers do. But as we continue to 
develop the technologies that could lead to autonomous 
vehicles, we will make much of that available to provide 
today's drivers with greater ease of use, comfort, safety, 
productivity, and efficiency, factors that I believe will 
attract more people to this important and noble profession.
    Personally, I believe drivers will become more like airline 
pilots, even more highly trained and skilled than they are 
today. They will be employed to manage multiple vehicle assets 
for optimized safety and efficiency. For example, an autonomous 
vehicle may be deployed on a highway while the driver sitting 
in his or her seat is managing controls and monitoring several 
platooning trucks, ensuring the safe and secure operation of 
the trucks under their care.
    Autonomous technology is not being created in a vacuum. Our 
industry is developing vehicle-to-vehicle, or V2V, systems to 
allow cars and trucks to talk to one another. As Federal 
regulations are being drafted and implemented, we want to 
ensure that passenger and commercial vehicles are following 
similar safety and design standards for optimal compatibility 
on the highway. Otherwise, passenger cars equipped with V2V 
technology may not be able to communicate effectively with 
large commercial vehicles, and could create blind spots in the 
transportation network that could create inadvertent hazards.
    Ours is an industry of business-to-business transactions. 
Development and validation cycles are long, and penetration and 
adoption rates take more time than in the light-vehicle 
industry. When we test on the road, we have to match the 
conditions our customers face, so we test trucks in many 
different states and climates. Trucks cross multiple state 
lines daily and sometimes traverse the same state multiple 
times in one day. It's important for our industry to 
participate in the creation of advanced driving technologies 
now. Providing clarity on the legislative and regulatory front 
will allow us, truck manufacturers, to design and validate 
systems that meet the future needs of our customers while 
minimally disrupting the industry.
    Advanced driving and autonomous technologies will come to 
our industry. Large-scale displacement of drivers is not likely 
to happen, especially in the short and medium term. We believe 
these technologies will improve safety, improve productivity, 
and lower cost, as well as lead to more efficient use of the 
existing infrastructure.
    In the commercial vehicle industry, we have proven that 
regulations and technology can work together to advance the 
interests of all stakeholders. The time for these discussions 
is now. And I applaud the Committee on holding this hearing so 
that we can begin the dialogue on this issue. I welcome any 
questions at the right time.
    [The prepared statement of Mr. Clarke follows:]

        Prepared statement of Troy Clarke, Chairman, President, 
              and Chief Executive Officer, Navistar, Inc.
    Good morning Chairman Thune, Ranking Member Nelson and members of 
the Committee. I am honored to be here this morning to discuss an 
important topic in our industry . . . autonomous technology 
applications in commercial trucks.
    I am Troy Clarke, and I currently serve as the Chairman, President 
and Chief Executive Officer at Navistar, Inc., the manufacturer of 
International trucks, IC school buses, diesel engines and military 
vehicles. Navistar is headquartered in Lisle, Illinois just outside of 
Chicago and has over 12,000 employees worldwide.
    I would like to first provide a quick overview of our industry.
    There are four major commercial truck manufacturers in the country 
today. Ours is a small, highly competitive industry which expects to 
produce around 325,000 vehicles this year--a small fraction compared to 
the passenger car and light truck market.
    Our customers range from large fleets like JB Hunt and Penske with 
thousands of vehicles to independent drivers operating one truck. We 
build our trucks and buses via mass customization . . . each one 
tailored to meet the specific needs of a particular customer. 
Reliability, upfront costs and the vehicles' residual value all impact 
purchasing decisions. A new truck ranges in price from $60,000 to 
$150,000 . . . in other words, they represent major capital 
investments. And they only generate revenue for our customers when they 
are up and running. Given all of this, our customers invest 
significantly in the latest safety technology to protect this valuable 
capital asset as well as their most important human capital--the 
driver.
    This explains why market penetration rates for technologies like 
electronic stability control, radar and cameras for object detection, 
lane departure warning systems, and collision mitigation systems have 
been increasing every year. We call these advance driver assistance 
systems or ADAS, and they offer quantum leaps of safety, productivity 
and environmental benefits. Many of them also serve as the building 
blocks to greater automation. An example of early automation in our 
industry is adaptive cruise control.
    Navistar sees autonomous technology as an extension of the safety 
technology already in place and we believe that these greater levels of 
self-driving technology will help reduce human error, which accounts 
for approximately 94 percent of all motor vehicle accidents.
    Before we arrive at that future, however, our customers tell me 
that they have much more immediate needs--they already have driverless 
trucks, but that's because they have trouble recruiting and retaining 
drivers.
    As truck makers, we don't hire or train drivers. Our customers do. 
But as we continue to develop technologies that could lead to 
completely autonomous vehicles, we will make many of them available to 
provide today's drivers with greater ease of use, comfort, safety, 
productivity and efficiency--factors that, I believe, will attract more 
people to this important and noble profession.
    Personally, I believe drivers will become more like airline 
pilots--even more highly trained and skilled than they are today. They 
will be employed to manage multiple vehicle assets, for optimized 
safety and efficiency. For example, an autonomous vehicle may be 
deployed on a straight highway with mixed vehicles, while the driver 
sitting in his or her seat is managing the controls and monitoring 
several platooning trucks, and ensuring the safe and secure operation 
of the trucks under their care.
    Autonomous technology is not being created in a vacuum. Our 
industry is developing Vehicle to Vehicle (V to V) systems to allow 
cars and trucks to ``talk'' to one another. As Federal regulations are 
being drafted and implemented, we want to ensure that passenger and 
commercial vehicles are following similar safety and design standards 
for optimal compatibility. Otherwise, passenger cars equipped with V to 
V may not be able to communicate with large commercial vehicles which 
will create enormous blind spots in the transportation network and 
potentially create inadvertent hazards.
    Ours is an industry of business to business transactions. 
Development and validation cycles are long, and penetration and 
adoption rates take more time than in the light vehicle industry. When 
we test on the road we have to match the conditions our customers face 
so we test trucks in many different states and climates. Trucks cross 
multiple state lines daily and sometimes traverse the same state 
multiple times in one day. It's important for industry to participate 
in the creation of advanced driving technologies now. Providing clarity 
on the legislative and regulatory front will allow us, truck 
manufacturers, to design and validate systems that meet the future 
needs of our customers while minimally disrupting the industry.
    Advanced driving and autonomous technologies will come to our 
industry. Large scale displacement of drivers is not likely to happen, 
especially in the short and medium term. We believe these technologies 
will improve safety, improve productivity and lower cost, as well as 
lead to more efficient use of existing infrastructure. The commercial 
vehicle industry has proven that regulations and technology have worked 
together to advance the interests of all stakeholders.
    The time for these discussions is now and I applaud the Committee 
on holding this hearing so that we can begin the dialogue on this 
issue. I welcome any questions that you might have.

    The Chairman. Thank you, Mr. Clarke.
    Ms. Hersman, welcome back to this Committee.

    STATEMENT OF DEBORAH A.P. HERSMAN, PRESIDENT AND CHIEF 
           EXECUTIVE OFFICER, NATIONAL SAFETY COUNCIL

    Ms. Hersman. Thank you. Thank you, Chairman Thune, Ranking 
Member Peters, and members of the Committee. As President and 
CEO of the National Safety Council, I strive every day to 
realize our mission of eliminating preventable deaths, and we 
believe that all vehicle crash fatalities are preventable. Yet 
today, over 100 people die on our roadways every day in our 
vehicles and in crashes involving our vehicles--all vehicles. 
We can help reduce these statistics with technology.
    In 2004, I had the privilege to serve as a Member and then 
Chairman of the National Transportation Safety Board. During my 
10 years there, I saw too many commercial motor vehicle crashes 
that could have been prevented, and they could have been 
prevented by advanced technology.
    The NTSB first called on putting advanced technology in 
commercial vehicles back in 1995, and it is an issue that is on 
their Most Wanted List today. Today, we've certainly gone 
beyond the Level 2 technology that they had hoped for and 
envisioned back in 1995, and are talking about fully automated 
vehicles.
    I know that you all have read all of our testimony. There 
are a lot of facts and figures in my long written testimony, so 
I would like to actually take my time with you this morning to 
share a personal story.
    Last year, I came home from a trip, and my 10-year-old son 
met me at the door and he said, ``Mommy, did you see your 
car?'' That's not a good thing when you walk in the door from a 
trip. And I said, ``What happened to my car?'' And he took me 
out in the garage and he showed me. And this picture up here on 
the screen is my car. And, yes, it's ironic, the license plate 
says ``BESAFER'' on it.
    My husband was coming home to our house on a lower speed 
roadway, and he was rear-ended by another vehicle as he slowed 
to allow an emergency vehicle to turn into the firehouse in 
front of him. And being a former investigator, my first 
questions to my husband were, ``What happened? What was going 
on? What was the situation? What were the circumstances? What 
was the driver doing?'' And unfortunately, he didn't have a lot 
of good answers for me. He told me the gentleman was a little 
bit older and that there was a dog in the car.
    For the next couple of days, I spent, you know, kind of my 
time thinking, ``What happened? How did this happen? Could it 
have been prevented? Did it involve distraction? Did it involve 
fatigue? Could it have been prevented?''
    About 3 weeks later, I came home, and my husband was in a 
pretty somber mood, and he told me he had received a call from 
the insurance adjuster who was managing our claim. And the 
insurance adjuster had just called the gentleman who was the 
driver of the Jeep Liberty who had hit our car. Mr. Norton had 
called his house, and his son answered the phone, and when he 
asked to speak to Mr. Norton, his son said that he had been 
killed in a crash. And the insurance adjuster said, ``I thought 
there were no injuries in the crash.'' And he said, ``My dad 
was killed on Friday.''
    And because we knew the information about the driver, we 
went to Google, like many of us do when we're trying to find 
something out, and we found that Mr. Norton had been in an 
intersection crash in his Jeep Liberty just shortly before. And 
this picture up on the screen is the picture that was in the 
newspaper.
    And again the same questions started to run through my 
head, ``What happened? How did this happen? Who was at fault? 
Could this have been prevented? Did it have something to do 
with what had happened 3 weeks before?''
    And as a safety professional who has spent decades working 
on how to prevent transportation events and incidents, I 
realized that while it's important for us to understand why 
something happened, what's most important is to understand how 
we can prevent these things from occurring again. And we have 
the ability to prevent these fatalities that occur on our roads 
every day.
    A hundred people every day. Mr. Norton was a father, he was 
a member of a community, probably a church community. He had an 
extended network. That happens 100 times every day. And we can 
do more, we can do better, we can address this issue, and we 
can save lives. If we are going to get to zero, we have to do 
it by looking at all of the fatalities and all of the things 
that we can do to prevent them. This conversation here today 
begins that discussion. Thank you.
    [The prepared statement of Ms. Hersman follows:]

         Prepared Statement of Deborah A.P. Hersman, President 
          and Chief Executive Officer, National Safety Council
    Chairman Thune, Ranking Member Nelson and members of the Committee, 
thank you for inviting me to testify today on proposed legislation to 
create a framework to save lives on our roadways. The National Safety 
Council (NSC) believes that in order for our nation to receive the 
biggest benefit from this technology, all motor vehicles--both personal 
and commercial--must be included in this legislative proposal.
    The National Safety Council is a 100-year-old nonprofit committed 
to eliminating preventable deaths in our lifetime by focusing on 
reducing fatalities and injuries in workplaces, on the road and in 
homes and communities. Our more than 13,500 member companies represent 
employees at more than 50,000 U.S. worksites. Not only do we work with 
companies but also with organized labor, who share our dedication to 
keeping workers safe on and off the job. With almost 40 percent of 
workplace fatalities involving motor vehicles, accelerating the 
availability and adoption of crash reduction and mitigation technology 
is crucial to that vision.
    In 2015, there were 4,067 fatalities in large truck crashes and 667 
were occupants of large trucks. Fatalities on our roadways are trending 
in the wrong direction and technology can help reverse the death toll. 
However, to achieve maximum benefit and save the most lives, we must do 
so holistically by applying technological advances to all vehicles. 
After all, roads are built for both cars.
    NSC commends Commerce Committee leaders for offering a framework to 
increase transparency around the technology in advanced driver 
assistance systems (ADAS)-equipped vehicles and prioritizing safety in 
the process. As a nation, there are more vehicles on the road today 
traveling more miles, and yet the most dangerous factors in roadway 
travel continue to be human factors. According to the National Highway 
Traffic Safety Administration (NHTSA), 94 percent of investigated 
crashes can be attributed to driver error. The top four reasons for 
crashes are caused by human behavior or choices: alcohol, speed, 
fatigue and distraction, giving ADAS systems and automated vehicles the 
potential to reduce preventable crashes and deaths in an unprecedented 
way.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    NSC\1\ estimates that 40,200 people lost their lives on our 
Nation's roadways in 2016, a 14 percent increase from where we were 
just two years ago. Over 100 people die each day in motor vehicle 
crashes, and another 4 million people are injured severely enough to 
consult a medical professional every year. Beyond the human toll, these 
deaths and injuries cost society over $385 billion, including 
productivity losses, medical expenses, motor vehicle property damages 
and employer costs.\2\
---------------------------------------------------------------------------
    \1\ Decision errors include driving too fast for conditions, too 
fast for the curve, false assumption of others' actions, illegal 
maneuver and misjudgment of gap or others' speed. Performance errors 
include factors such as overcompensation and poor directional control. 
Non-performance error is most commonly sleeping.
    \2\ National Safety Council Injury Facts 2017
---------------------------------------------------------------------------
    Each of these numbers represent a person who leaves behind loved 
ones. NSC believes advanced vehicle technology, up to and including 
fully automated vehicles, can provide many benefits to society, but the 
most important contribution will be the potential to greatly reduce the 
number of fatal crashes on our roadways.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These trends are not improving. NSC data reveal that the 18,680 
roadway fatalities during the first six months of 2017 are 1 percent 
lower than the same period in 2016, but still 8 percent higher than the 
same period two years ago. Our complacency is killing us. If we are to 
redirect this trend in a positive direction, we must adopt a sense of 
urgency coupled with large, near term gains to save lives on our 
roadways.
    So that we all know where we stand, in 2015:

  <bullet> 10,265 people were killed in alcohol-impaired driving 
        crashes, an increase of almost 300 from 2014,\3\
---------------------------------------------------------------------------
    \3\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812350

  <bullet> 3,477 people were killed in distraction related crashes, an 
        increase of almost 300 from 2014,\4\ and
---------------------------------------------------------------------------
    \4\ https://www.nhtsa.gov/risky-driving/distracted-driving

  <bullet> 9,874 people were killed while unrestrained, an increase of 
        over 400 from 2014.\5\
---------------------------------------------------------------------------
    \5\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812374

    The maps below tell the story of the national trends in roadway 
fatalities.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These statistics are not isolated to passenger vehicles, and in the 
same way, policy options should not be limited to passenger vehicles. 
Commercial motor vehicles (CMVs) represent 4 percent of vehicles on the 
roadways but are involved in 11 percent of fatal crashes. That 
translates to over 4,000 people being killed in crashes with CMVs 
annually. The large mass, increased time and space required for braking 
and incompatibility in structures (front, rear and side design of the 
vehicles) tell part of the story of why these vehicles are involved in 
so many fatal crashes, but human factors, like speeding, fatigue and 
distraction also contribute. Rear-end collisions represent 10 percent 
of fatal commercial vehicle crashes--three times more fatalities than 
rear-end collisions involving passenger cars. By not deploying ADAS 
technologies such as forward collision warning or automatic emergency 
braking, thousands of preventable fatalities and injuries are occurring 
every year.\6\
---------------------------------------------------------------------------
    \6\ Federal Motor Carrier Safety Administration 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Safety Evaluation Report and Data Recorders
    The proposed legislation is intended to set the framework to aid 
the inevitable transition to ADAS technologies and fully automated 
vehicles. Our roadways were not made for passenger and commercial 
vehicles to operate independently of each other, and both types of 
vehicles are being tested at this time. Therefore, the policies 
outlined in this legislation should apply to all vehicles.
    The current draft legislation establishes greater transparency 
around the development of ADAS and automated vehicles by mandating the 
safety evaluation report (SER) that outlines reporting requirements for 
manufacturers. The bill also includes the use of a data recording 
device, something which is already widely used in the automotive 
industry today and yields valuable data in crash reconstruction 
efforts.
    Electronic logging devices (ELDs) and electronic data recorders 
(EDRs) provide a window into the human-machine interface with advanced 
vehicles. The knowledge gained from these devices allows manufacturers 
to be nimbler and make adjustments in near real-time to improve safety 
based on what is actually occurring in operation, rather than making 
changes based on assumptions and estimations that must be accommodated 
in a later model year. To this end, Congress should facilitate data 
sharing as widely as possible by requiring that manufacturers provide 
accessible, standardized data to law enforcement, state highway safety 
offices, investigators, insurers, and/or other relevant stakeholders. 
Collecting and sharing de-identified data about near misses and other 
relevant problems would also help to aggregate vital performance 
information for the motor vehicle industry, allowing it to take 
proactive steps based on leading indicators rather than waiting for a 
crash or a series of crashes to occur. Leading indicators are 
``proactive, preventative and predictive measures that monitor and 
provide current information about the effective performance, activities 
and processes of a . . . system that drive the identification and 
eliminate or control of risks.''\7\ The NSC Campbell Institute, a 
leader in environmental, health and safety, states that tracking 
leading indicators allows world-class safety organizations to make 
further improvements to their safety records.\8\
---------------------------------------------------------------------------
    \7\ http://www.thecampbellinstitute.org/file/
download.php?id=20130925358263a8956de938e7c0
0a2bbbb8413d
    \8\ http://www.thecampbellinstitute.org/file/
download.php?id=2015092336b107f72d10a379134a
f9249d3457ab
---------------------------------------------------------------------------
    Acquiring an understanding of what happens when systems perform as 
intended, fail as expected, or fail in unexpected ways yields is 
valuable information for manufacturers--some of whom have common 
suppliers--and researchers and the safety community in analyzing the 
safety benefits and potential limitations of these technologies as they 
continue to mature. Further, in-service data, as well as near miss and 
post-crash information sharing, can help civil engineers and planners 
design better and safer roadways, as well as help safety and health 
professionals design better interventions to discourage risky driving 
or affect the behaviors of other roadway users.
    De-identified data sharing has existed in the aviation industry for 
many years and proven highly successful. The Aviation Safety 
Information Analysis and Sharing (ASIAS) system allows for sharing of 
de-identified data across the industry, making it possible for 
manufacturers, operators, researchers, regulators and other 
stakeholders to identify trends and act on them. Similarly, analysis of 
de-identified data in the vehicle industry will provide windows into 
leading indicators, increasing the potential to save lives.
    While there are competing priorities regarding protecting personal 
privacy and proprietary systems or designs, NSC believes that safety 
should be the ultimate priority. Requiring the SER and data sharing 
will aid in improving safety.
Education and Training
    Another encouraging component in the draft legislation is the 
creation of the consumer education workgroup focused on new safety 
technologies. With nearly 17.4 million new passenger cars and trucks 
sold in 2015,\9\ understanding the technology on these vehicles is 
necessary, yet a University of Iowa survey found that 40 percent of 
respondents reported they had experienced a situation in which their 
vehicle acted in an unexpected way. When this occurs in a real-life 
driving situation, among multiple drivers and a variety of vehicles, it 
can lead to disastrous outcomes.
---------------------------------------------------------------------------
    \9\ http://www.autoalliance.org/auto-marketplace/sales-data
---------------------------------------------------------------------------
    The National Safety Council and our research partners at the 
University of Iowa are focused on educating consumers about in-vehicle 
safety technology through our MyCarDoesWhat campaign.\10\ This brand 
agnostic education campaign informs drivers about how safety 
technologies work, how to best interact with them, and how to identify 
situations when the technology may not perform optimally and should not 
be relied upon. Because of the need for continued human involvement in 
the operation of many of these features, the campaign tagline is, ``You 
are your car's best safety feature.'' Too often, marketing and media 
reports using terms such as ``autopilot'' and ``autonomous'' only 
confuse consumers about the capabilities of their vehicles and 
contribute to losses of situational awareness around the driving task.
---------------------------------------------------------------------------
    \10\ www.mycardoeswhat.org
---------------------------------------------------------------------------
    Drivers cannot effectively use these life-saving technologies if 
they do not understand both their functions and limitations, and these 
education efforts should be extended to the safe use of automated 
commercial vehicles. The AV policy proposes that this education be 
delivered in multiple ways, including computer based, hands-on and 
virtual reality training, and other innovative approaches. The 
MyCarDoesWhat education campaign follows that approach and has 
developed a virtual reality module. Further, we recommend ongoing 
evaluation to determine the effectiveness of the various messages, 
methods of delivery and media so they can be improved over time. NSC 
appreciates the recognition by the Senate that education is a necessity 
if we are to realize the life-saving effects of these vehicles.
The AV START Act
    As previously mentioned, there are several good provisions in the 
draft bill that the National Safety Council would like to highlight.

  <bullet> Including whether a vehicle in a crash is equipped with some 
        automation on post-crash investigation reports. NSC called this 
        out in our report ``Undercounted is Underinvested: How 
        Incomplete Crash Reports Impact Efforts to Save Lives'' earlier 
        this year. This data can be vital to improve safety systems.

  <bullet> Improving research on the human machine interface to ensure 
        drivers remain engaged in the driving task before full 
        automation. In too many other modes of transportation, users 
        have become confused about what technology is ``saying'' to 
        them and results have been fatal. Standardizing these alerts 
        (visual, aural, haptic) could decrease this confusion.

    I offer some additional provisions for your consideration to 
include in the legislation.

  <bullet> Reporting of certain types of crashes, such as fatal and 
        serious injury crashes, to a Department of Transportation 
        database can help ensure correct information is disseminated 
        about these events. We have already seen the overwhelming media 
        attention on automated vehicle crashes. By creating a database, 
        one place would exist for locating common and accurate 
        information.

  <bullet> Testing on public roads should be reported to the states in 
        which tests occur. Adding this level of transparency can help 
        states be more involved, especially if they must send resources 
        to respond to a testing event.

  <bullet> Encouraging the designation of a common nomenclature and 
        performance standard for each safety feature or system so 
        drivers can better understand and compare performance.

  <bullet> Tying ADAS and automation components to vehicle 
        identification numbers (VIN) so that more complete crash 
        reporting and analysis can be completed.

  <bullet> Requiring rulemaking to mandate safety technology with 
        proven results to require it on all vehicles.
Technology in Transportation
    Improvements in technology and safety in transportation have 
historically gone hand-in-hand. During my decade at the National 
Transportation Safety Board, the NTSB called for many safety 
improvements that would reduce or mitigate fatal transportation 
incidents, some of which were at least partially attributable to 
predictable and preventable human behavior. Technology like auto-pilot 
features in aviation control airspeed and heading, leaving human 
operators free to monitor larger systems and issues to ensure safe 
flight. Similarly, positive train control is still being implemented on 
passenger and freight railroads but will certainly prevent numerous 
collisions. Electronic charts standardize routes and transponders in 
the maritime industry projecting the routes other vessels will travel. 
This Committee oversees all of these industries and these very 
technologies are ones you have debated and mandated. You know that each 
advancement in technology has impacts, some of which are known while 
others may result in unintended outcomes.
    At this point in the deployment of vehicle safety technology, human 
drivers are still ultimately responsible for the safe operation of 
their vehicle and often need to intervene in certain conditions. We can 
expect this intervention will continue to be necessary as technologies 
mature. However, we also fully understand that this may not always be 
the case. At some point drivers, including those who may be impaired, 
may do more harm than good.
    Currently, vehicle manufacturers are making different choices about 
how to develop fully automated vehicles. Some manufacturers believe 
that human drivers will always be required behind the wheel and that 
highly or fully automated features will serve to assist the human or 
take over when the driver fails to take corrective action. Others see 
the role of the traditional driver disappearing entirely, with vehicles 
providing safe transportation and mobility through artificial 
intelligence--all by themselves. NSC believes that both should be seen 
as viable courses of action and thus addressed in any new policies.
    There is real debate today as to whether fully self-driving 
vehicles will actually achieve widespread acceptance in the coming 
decades. Some people believe that American drivers, while willing to 
embrace systems that provide them assistance, will always want the 
option of hands-on driving. Other people believe that it may actually 
be safer for humans to simply be passengers in fully automated 
vehicles.
    Regardless of the level of autonomy, we know that active safety 
system integration into the U.S. fleet will be more robust in years to 
come, and as these features continue to penetrate the driving world, we 
can expect to see changes in the very definition of the word 
``driver.'' In the last few years, NHTSA offered that there may be a 
day when ``driver'' may refer to an automated system rather than a 
human being. Today, some states are contemplating this same idea, 
especially those who run the licensing systems and law enforcement 
charged with enforcing state regulations. These state leaders, along 
with other Federal and state entities, should cooperate and 
collaborate, moving beyond their traditional roles to respond to the 
new questions rather than addressing them on a piecemeal basis.
    Finally, one of the biggest challenges in moving from level 1 to 
level 4/5 vehicles is successfully identifying the challenges and 
improvements needed for the human-machine interface to be successful. 
In other industries, such as aviation, there have been many lessons 
learned regarding mode confusion and overreliance on automation. We 
must recognize that the most dangerous environment will exist when both 
the human and machine are involved in the safe operation of a vehicle. 
The greatest risks are not when one or the other has sole 
responsibility for the vehicle, but when the control is shared. A 
``driver'' whose role is primarily to serve as a safety monitor, always 
on-guard in case of a system malfunction or other emergency, will be 
susceptible to boredom, fatigue, and/or distraction, all of which may 
contribute to a more dangerous situation.
    In order to save lives on our roadways--the most dangerous way to 
travel in this country--all options should be at the disposal of policy 
makers. If necessary, NHTSA must use its authority to address defects 
quickly and effectively, sharing as much information with the public as 
possible.
NTSB-NSC Roundtable on Safety Technologies in Large Trucks
    On July 24, NSC and the National Transportation Safety Board (NTSB) 
co-hosted a roundtable discussion with nearly two-dozen fleet managers, 
vehicle manufacturers, government officials, researchers, software 
experts, safety advocates and more. The panel discussed strategies to 
increase adoption of ADAS in commercial motor vehicles.\11\ NTSB has 
recommended advanced technology on CMVs since 1995 because of the life-
saving potential of this technology, and this issue is currently on its 
Most Wanted List of transportation safety improvements.\12\
---------------------------------------------------------------------------
    \11\ https://www.ntsb.gov/news/events/Pages/2017-adas-rt.aspx
    \12\ https://www.ntsb.gov/safety/mwl/Pages/default.aspx
---------------------------------------------------------------------------
    The NTSB-NSC roundtable discussion provided three key 
takeaways.\13\ First, technologies exist today that can reduce both the 
frequency and severity of crashes involving large trucks, saving lives 
and preventing injuries. Some of the lifesaving technologies available 
for large trucks include automatic emergency braking, forward collision 
warning, lane departure warning and blind spot monitoring. These 
technologies assist--but do not replace--the driver. Roundtable 
participants who had investigated fatal crashes said many of those 
tragedies could have been mitigated or prevented entirely by collision 
avoidance technologies. However, the penetration rate of these 
technologies in large trucks is less than 10 percent.\14\
---------------------------------------------------------------------------
    \13\ https://www.youtube.com/watch?v=vCeGam2RNfE
    \14\ https://www.ntsb.gov/safety/safety-studies/Pages/SIR1501.aspx
---------------------------------------------------------------------------
    A second takeaway from the discussion centered on the importance of 
proper training for drivers. Drivers must use new technologies 
appropriately, and the threat of overreliance on new technologies is 
legitimate and must be addressed in training sessions. For example, a 
truck equipped with electronic stability control does not give a driver 
freedom to go faster around curves. Likewise, a truck that features 
collision avoidance technologies does not clear the way for a driver to 
be drowsy or distracted behind the wheel. Drivers must remain alert and 
attentive at all times even with new ADAS features in place.
    The third and final takeaway was that manufacturers, carriers and 
others who work in the trucking industry can take the lead in this 
life-saving mission. There is power in partnerships. Regulations could 
speed the adoption of ADAS in large trucks, but nothing is preventing 
fleets from equipping new vehicles and retrofitting old vehicles with 
some of these technologies. There is a cost component to this 
investment, but one trucking company at the roundtable reported a 
significant return on investment.\15\ After installing collision 
avoidance technologies, the company recorded a 70 percent reduction in 
frequency and a 95 percent reduction in severity of crashes. Not only 
did this keep both its employees and the public safer, but also cut 
down drastically on the legal, health care, insurance and operational 
costs associated with crashes. Another participant noted that costs 
associated with a single crash can destroy a small fleet or an owner-
operator.\16\
---------------------------------------------------------------------------
    \15\ https://www.youtube.com/watch?v=vCeGam2RNfE
    \16\ Ibid.
---------------------------------------------------------------------------
NTSB Commercial Motor Vehicle Crash Investigations
    As mentioned earlier, NTSB first recommended advanced technology in 
vehicles over 20 years ago in 1995, calling on U.S. Department of 
Transportation to test collision warning systems in commercial 
fleets.\17\ NTSB specifically singled out commercial operations in this 
initial recommendation, and since that time, NTSB has expanded its 
recommendation to include passenger vehicles.
---------------------------------------------------------------------------
    \17\ https://www.ntsb.gov/safety/safety-studies/Documents/
SIR1501.pdf
---------------------------------------------------------------------------
    While at NTSB, I was the unfortunate witness to many crashes that 
could have been prevented by advanced technology that has been 
available for years. The crashes cited below represent just a few 
involving commercial vehicles.
    Bronx, New York: 15 dead and 18 injured. This crash could have been 
prevented or mitigated by lane departure warning, adaptive cruise 
control (ACC), and a speed limiter. The driver was operating at 14 mph 
over speed limit and run off the road due to fatigue.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Osseo, Wisconsin: 4 dead and 36 injured. This crash could have been 
prevented or mitigated by AEB, ACC and lane departure warning (LDW). 
This was a high school band returning from a band competition.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Munfordville, Kentucky: 11 dead and 2 injured. This crash could 
have been prevented or mitigated by AEB and LDW. The truck crashed into 
a church van on the way to a wedding, and the two surviving passengers 
were children restrained in car seats pictured below.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Miami, Oklahoma: 10 dead and 6 injured. This crash could have been 
prevented or mitigated by AEB. The truck did not react to stopped 
vehicles ahead and struck the end of a passenger vehicle, resulting in 
a multiple vehicle collision.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Grey Summit, Missouri: 2 dead and 38 injured. This crash could have 
been prevented or mitigated by AEB.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    If this bill is moving forward, it should do so including all motor 
vehicles.
Road to Zero
    On October 5, 2016, NSC, NHTSA, the Federal Highway Administration 
(FHWA), and the Federal Motor Carrier Safety Administration (FMCSA) 
announced the Road to Zero (RTZ) Coalition. RTZ is an initiative 
focused on identifying new ways to look at the persistent problem of 
roadway fatalities. Today, nearly one year later, there are over 350 
unique organizations that have joined the coalition that I am honored 
to lead with a number of Steering Group members (listed below). Our 
shared vision of a future with no roadway fatalities cannot be realized 
unless we redouble efforts on existing solutions and accelerate 
implementation of new measures like ADAS and automated vehicles.
    In early 2018, the Road to Zero coalition will produce a vision for 
reaching zero fatalities on our roadways by 2050. I look forward to 
sharing this document with you, as I know it will be an important 
addition to the discussion of roadway safety policy development.
    NSC is joined on the Steering Group for the Road to Zero Coalition 
by the following organizations: AAA, Advocates for Highway and Auto 
Safety, American Association of Motor Vehicle Administrators (AAMVA), 
American Association of State Highway and Transportation Officials 
(AASHTO), Association of Global Automakers, Commercial Vehicle Safety 
Alliance (CVSA), Governors Highway Safety Association (GHSA), Institute 
of Transportation Engineers (ITE), Insurance Institute for Highway 
Safety (IIHS), Intelligent Car Coalition, International Association of 
Chiefs of Police (IACP), Mothers Against Drunk Driving (MADD), National 
Association of State Emergency Medical Services Officials (NASEMSO), 
National Association of City Transportation Officials (NACTO), National 
Association of County Engineers (NACE), and the Vision Zero Network.
Conclusion
    We cannot continue to do things the same way and expect different 
results. When it comes to saving lives on our roadways, this means 
implementing a legislative framework for advancing safety technology on 
ALL motor vehicles. By advancing safety technology in trucks and buses, 
as well as passenger cars, the bill before you today represents a step 
in that direction to move us closer to a goal of zero fatalities on the 
roadways.
    The National Safety Council is committed to working with you to 
advance safety, up to and including automated vehicles. Doing this well 
is essential. Lives depend on it.

    The Chairman. Thank you, Ms. Hersman.
    Mr. Spear.

              STATEMENT OF CHRIS SPEAR, PRESIDENT

                  AND CHIEF EXECUTIVE OFFICER,

           AMERICAN TRUCKING ASSOCIATIONS, INC. (ATA)

    Mr. Spear. Thank you, Chairman Thune, Senator Peters, and 
members of the Committee, for the opportunity to testify today. 
I think Debbie's testimony really captures the importance of 
this issue well, and she is a great contribution to the safety 
story.
    The American Trucking Associations' federation has more 
than 30,000 member companies spanning all parts of the trucking 
industry, from every size, type, and class of motor carrier 
operation, to truck makers, tech companies, as well as 
insurers. That diverse membership is important for discussions 
like this one, where the trucking industry's key role in our 
economy meets rapidly developing technology. There are more 
than 7 million people employed in the trucking industry and in 
trucking-related jobs in the U.S., including 3.5 million truck 
drivers. One in 16 jobs in the U.S. are trucking related where 
truck-driving jobs are the top job in 29 states.
    Truck drivers, who ATA is celebrating this week as part of 
National Truck Driver Appreciation Week, move more than 70 
percent of our Nation's freight tonnage. They help deliver 
products to communities in every corner of the country every 
day--stores, factories, schools, hospitals--and as you're 
seeing today, they're on the front lines of disaster response 
delivering supplies to help the people of Texas and Florida 
live and rebuild after two historic storms.
    Those same drivers, we believe, will be a part of our 
industry for the long haul. While some people use the terms 
``autonomous'' and ``driverless'' interchangeably, ATA believes 
the world of automated vehicles will still have an important 
role for the drivers. Just as pilots play a key role in our 
airline industry, truck drivers will do the same on the ground 
by leveraging the benefits of automated technology while 
navigating the cityscapes and handling the customer pickups and 
deliveries. The trucking industry spends over $9 billion 
annually on safety, including technology enhancements, to help 
ensure that drivers and passengers of all vehicles make it 
safely to their destination.
    The technology we're discussing today is the next step in 
the evolution of the types of safety technology the trucking 
industry is already investing in. This technology is becoming 
more robust in both commercial and passenger vehicles. To fully 
maximize the safety of other benefits of automated driving 
technology, it makes sense to provide protections and 
incentives for innovation in commercial vehicles, not just 
passenger vehicles. This includes Federal preemption to ensure 
that State and Federal regulations do not impede interstate 
commerce. It also includes the ability to receive exemptions 
from existing Federal regulations so that new technology can be 
developed and tested both in commercial and non-commercial 
vehicles.
    We are at a critical moment in the development of 
autonomous technology. There are many questions to be answered, 
including those about cybersecurity, about the impact on 
trucking operations, and how vehicles will interact with one 
another, as well as infrastructure. What is clear is that those 
questions should be answered for commercial and passenger 
vehicles at the same time. As you draft legislation intended to 
address many of these questions, I'd respectfully ask that the 
Committee consider the following points.
    First, ensure that the Federal Government has the sole 
authority to regulate automated vehicle technology. As an 
industry that routinely crosses state lines, the rules of the 
road must be the same across the country in order to maintain a 
free flow of goods. Our industry cannot be subject to a 
patchwork of conflicting state rules. We service the entire 
country, and the trucking industry needs uniform rules to 
effectively do that.
    Second, we believe Federal agencies and state governments 
must commit to supporting innovation for both commercial and 
passenger vehicles, using existing regulatory exemptions to 
allow manufacturers and technology companies to test and 
develop new systems.
    Third, Federal agencies must coordinate their own missions 
with respect to automated vehicles. We believe the benefits of 
automated vehicles would be greatly enhanced, for instance, by 
vehicle connectivity, using the 5.9 GHz safety spectrum. The 
use of this communications channel for vehicle-to-vehicle and 
vehicle-to-infrastructure systems will fully unlock the 
potential of automated vehicles to improve safety, reduce 
traffic congestion, and decrease emissions. We encourage the 
Federal Communications Commission to preserve all seven 
channels of 5.9 GHz spectrum for safety and to take no action 
that could harm the initiatives the Department of 
Transportation is pursuing with this spectrum.
    Finally, we urge the Federal Government to consider the 
existing slate of Federal Motor Carrier Safety Regulations and 
how they might be impacted by increased automation as well as 
how regulations can accommodate this new technology and improve 
safety, productivity, and the environment. This should include 
the impact of automated vehicle use on CSA scores, liability, 
and insurance regulations, speed limiters, and hours-of-service 
rules. This isn't to say these regulations should be changed. 
The DOT should first determine how a more automated environment 
will impact the industry it regulates in order to minimize 
disruption and confusion as this technology becomes more robust 
and widely available.
    This concludes my testimony. Chairman Thune, Senator 
Peters, members of the Committee, I thank you again for the 
opportunity to testify on this important subject, and I look 
forward to questions.
    [The prepared statement of Mr. Spear follows:]

   Prepared Statement of Chris Spear, President and Chief Executive 
          Officer, American Trucking Associations, Inc. (ATA)
Introduction
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, thank you for the opportunity to testify in today's 
hearing on Transportation Innovation: Automated Trucks and Our Nation's 
Highways. My name is Chris Spear, and I am the President and CEO of the 
American Trucking Associations (ATA). Founded in 1933, ATA is the 
Nation's preeminent organization representing the interests of the U.S. 
trucking industry. Directly and through its affiliated organizations, 
ATA encompasses more than 30,000 companies and every type and class of 
motor carrier operation.
    The trucking industry is an integral component of our Nation's 
economy, and a significant contributor to the highway trust fund. 
Despite being less than 13 per cent of the vehicles on the road, 
trucking pays nearly half of the money that goes into the highway trust 
fund \1\ each year. That's more than $18 billion that goes toward the 
construction, operation and maintenance of the roads that all vehicles 
share. Trucking transports more than 70 percent of our Nation's freight 
tonnage and employs 7.4 million workers in trucking-related jobs across 
many sectors of the economy, including over 3.5 million commercial 
drivers \2\. These drivers are on the road every single day moving the 
economy. Approximately 80 percent of all U.S. communities depend solely 
on trucks to deliver and supply their essential commodities.\3\
---------------------------------------------------------------------------
    \1\ Highway Statistics 2015, Federal Highway Administration, U.S. 
Department of Transportation, and American Trucking Associations, 
Trucking Trends 2017 (August 2017)
    \2\ American Trucking Associations, American Trucking Trends 2017 
(August 2017)
    \3\ ATA staff, developed the 80 percent figure by using the Rand 
McNally Commercial & Marketing Guide (2001) numbers for rail service to 
communities and calculating the inverse, ultimately deriving the number 
of communities serviced by truck.
---------------------------------------------------------------------------
    Today's hearing coincides with National Truck Driver Appreciation 
Week, when America takes the time to honor all professional truck 
drivers for their hard work and commitment in tackling one of our 
economy's most demanding and important jobs. These 3.5 million 
professional men and women not only deliver our goods safely, securely 
and on time, they also keep our highways safe and serve as role models 
in their communities. During this hurricane season, we should also 
recognize these drivers for overcoming the challenges of roadways and 
communities devastated by natural disasters to bring in critical goods 
to aid in the recovery efforts. We know there are concerns about the 
elimination of drivers or a change in their role from automation. We 
continue to believe that the automated technologies being developed 
today will assist drivers, improving safety and productivity, and that 
the job of truck driver will be with us for the foreseeable future. 
However, we do not dismiss the importance of considering the potential 
impacts on the workforce and the need to develop programs that will 
help prepare workers with the skills needed for the jobs of the future.
    The trucking industry has a substantial stake in the success of 
safe automated and connected vehicle technology. The roads are the 
workplace of the truck driver, and safety is of paramount importance. 
There were 33.8 million commercial trucks of all classes (including 
3.63 million Class 8 trucks) registered in the U.S. in 2015 \4\. That 
same year, medium and heavy duty trucks accounted for 7.9 percent of 
the vehicle miles traveled \5\. Safety gains achievable by removing 
human error, which is a factor in 87 percent of large truck crashes \6\ 
and 94 percent of all vehicle crashes \7\, and the additional economic 
and societal benefits, are very enticing to an industry that already 
spends over $9 billion annually on safety, including technology 
enhancements, to help ensure that drivers and passengers of all 
vehicles make it safely to their destination.\8\ Additionally, the 
preponderance of research studies find that car drivers are principally 
at fault in approximately three-quarters (70-75 percent) of fatal car-
truck crashes \9\. Connectivity and automated technology can work 
together to reduce or eliminate these crashes. With these technologies, 
we can not only improve safety, but lower fuel burn and emissions, and 
help reduce traffic congestion, which costs the trucking industry $63.4 
billion a year--the time lost to traffic is equivalent to having 
362,000 drivers sitting idle for an entire year.\10\
---------------------------------------------------------------------------
    \4\ American Trucking Associations, Trucking Trends 2017 (August 
2017)
    \5\ Federal Highway Administration, Highway Statistics, 2015, Table 
VM-1, accessed online at https://www.fhwa.dot.gov/policyinformation/
statistics/2015/pdf/vm1.pdf.
    \6\ Large Truck Crash Causation Study, Federal Highway 
Administration, July 2007
    \7\ Singh, S. (2015, February). Critical reasons for crashes 
investigated in the National Motor Vehicle Crash Causation Survey. 
(Traffic Safety Facts Crash Stats. Report No. DOT HS 812 115). 
Washington, D.C.: National Highway Traffic Safety Administration
    \8\ American Trucking Associations, (2016, June 26). Trucking 
Industry Spends $9.5 Billion In Safety Annually. Retrieved from: http:/
/www.trucking.org/ATA%20Docs/News%20and%20Infor
mation/Reports%20Trends%20and%20Statistics/06%2028%2016%20-
%20Trucking%20Industry
%20Invests%20$9%205%20Billion%20in%20Safety%20Annually.pdf
    \9\ Relative Contribution/Fault in Car-Truck Crashes, February 
2013, http://www.trucking.org/
    \10\ Cost of Congestion to the Trucking Industry: 2017 Update, 
American Transportation Research Institute, Arlington, VA, May 2017
---------------------------------------------------------------------------
    Automated driving technology is the next step in the evolution of 
the safety technology currently available, and it is critical that 
Federal policies developed for this new technology include all vehicles 
that operate on our nations roadways. While self-driving vehicle 
demonstrations are exciting to watch, automated technology comes in 
many levels that will assist the driver and in some cases, handle the 
driving task. Some may predict the elimination of all driving jobs, 
including both drivers of passenger vehicles and commercial vehicles, 
but that future, if it exists at all, is too far into the future to 
see. Realistically, what we are talking about now is fostering the 
development of all levels of automated technology, so that those levels 
of technology which provide improved safety and productivity can be 
tested, proven, and deployed to benefit all road users. We need to 
think about how this innovation can solve problems like crashes, 
congestion, and emissions, and let that guide policy and drive 
outcomes. In short, this innovation and its benefits, centers on 
solutions in which their remains a role for drivers, rather than a 
driverless approach.
    As you well know, passenger cars and commercial vehicles operate on 
the same roads, making it critically important that both benefit from 
innovation in safety technology. While there are differences between 
passenger and commercial vehicles, it makes sense to provide 
protections and incentives for innovation in commercial vehicles as 
well as passenger vehicles--things like Federal preemption to ensure 
that state and Federal regulations do not conflict or impede interstate 
commerce, and the ability to receive exemptions from existing Federal 
regulations so that new technology can be developed and tested--these 
should apply to both commercial and non-commercial vehicles.
Automated Technology in Trucking
    Automated vehicle technologies have the potential to dramatically 
impact nearly all aspects of the trucking industry. These technologies 
can bring benefits in the areas of safety, environment, productivity, 
efficiency, and driver health and wellness. Although some people use 
the terms ``autonomous'' and ``driverless'' interchangeably, ATA 
believes that the driver will retain an important role in trucking, 
even with automated trucks. In addition to monitoring the automated 
driving systems and manually driving in the cityscape and at loading 
docks, drivers will retain their current responsibilities for securing 
the cargo, particularly hazardous cargo, as well as for customer 
interaction with the shipper and receiver.
    In the trucking industry, you have a business-to-business 
relationship between the fleets purchasing the vehicles and the 
companies offering the technology. How individual carriers choose to 
incorporate automated technologies in their fleets will likely not be a 
``one size fits all'' application, but rather will depend on each 
carrier's operations and anticipated return on investment for the 
technology. Trucking companies will want to see convincing data before 
they invest in changing their operations to incorporate the new 
technology. Trucking is also a highly regulated industry. Regulations 
from the Federal Motor Carrier Safety Administration (FMCSA) and the 
National Highway Traffic Safety Administration (NHTSA), as well as the 
Federal Communications Commission (FCC), Environmental Protection 
Agency (EPA), Department of Homeland Security (DHS) and others affect 
both the vehicle technology and the driver's responsibilities, which 
will also have an impact on a company's decision on whether and how to 
deploy automated technology.
    The bottom line is that the trucking industry is vitally interested 
in automated vehicle technologies and the safety and efficiency promise 
they hold. The safety gains achievable by removing human error, a 
factor in 94 percent of all vehicle crashes,\11\ could be 
transformative in reducing fatalities and injuries on our roadways, as 
well as in preventing even minor crashes, which would reduce traffic 
congestion and pollution, providing additional economic and societal 
benefits.
---------------------------------------------------------------------------
    \11\ Singh, S. (2015, February). Critical reasons for crashes 
investigated in the National Motor Vehicle Crash Causation Survey. 
(Traffic Safety Facts Crash Stats. Report No. DOT HS 812 115). 
Washington, D.C.: National Highway Traffic Safety Administration
---------------------------------------------------------------------------
Automated Driving Technology and Jobs
    The development of automated technology for vehicles does not mean 
that all vehicles will become ``driverless vehicles'' and that every 
kind of driving job will be eliminated. The reality is much more 
complex. While there may be applications where an automated system can 
take over the driving task, this is unlikely to replace commercial 
vehicle drivers altogether, just as in the airline industry pilots are 
still in the cockpit and responsible for the safe operation of their 
vehicle. As with any technology that increases productivity, there is a 
likelihood that there will be a decrease in the number of people needed 
to do the same amount of work. Right now, we are facing a shortage of 
drivers, particularly for long-distance drivers, around 50,000. If 
these trends continue, the shortage could hit over 150,000 in a decade. 
And as the shortage becomes more acute, it will begin to affect the 
ability of goods to be delivered on time, which is becoming more 
important in today's on-demand economy. Projections are that we'll need 
to hire about 890,000 truck drivers over the next 10 years.\12\ The 
American Transportation Research Institute, the not-for-profit research 
arm of the trucking industry, recently released a report on how 
autonomous technologies will impact the trucking industry. That 
assessment found that highly automated trucks will likely draw new, 
younger drivers into the trucking industry by better meeting the job 
expectations of millennial workers.\13\ Making our drivers more 
productive may also be an important element in addressing this shortage 
and avoiding shipping delays. Additionally, as we have seen with other 
new technologies, there are new jobs created as well, which in the case 
of automated trucks could include new categories of maintenance 
technicians and new jobs that will develop along with business models 
that take advantage of the new capabilities this technology brings.
---------------------------------------------------------------------------
    \12\ American Trucking Associations, Truck Driver Shortage Analysis 
(October 2015)
    \13\ Identifying Autonomous Vehicle Technology Impacts on the 
Trucking Industry, American Transportation Research Institute, 
Arlington, VA, November 2016.
---------------------------------------------------------------------------
    As the automated technology is still developing, it is difficult to 
make any projections on how driving jobs will ultimately be affected 
without gathering more data. As I pointed out earlier, there is a 
business-to-business relationship between the fleets purchasing the 
vehicles and the companies offering the technology in the trucking 
industry. Fleet owners will want information on what the new technology 
can do and what it will cost before they can make decisions on how it 
would impact their operations. For example, will it operate only on 
open highway or only in traffic jams? Will it operate under all weather 
conditions? Can the technology operate when it gets off the main roads 
and navigate to a customer's delivery location, which may involve 
driving on private roads? Will the system need frequent calibration or 
have other special maintenance requirements? With this type of 
information, companies can then determine how the role of the driver 
would change. This information may help inform future regulatory policy 
as well. However, in order to answer these and other questions, there 
will need to be more data gathered in real-world testing and 
demonstration projects, which could be stalled if companies have to 
work through a maze of disparate state regulations or are unable to put 
sufficient vehicles on the road to collect the necessary data.
    While no one can predict the distant future--I still haven't seen 
the Jetson's flying car on the road or in the air yet--I can tell you 
this: Trucking companies rely on good, safe drivers. As an industry, we 
are working hard to recruit new drivers and retain the excellent 
drivers we have now. Automated technology has the promise of keeping 
these drivers safer on the roads, and making them more productive. As 
automated technology changes the role of the driver, trucking companies 
will work to retrain drivers as needed to operate with the new 
technology. We need to embrace this innovation and shape policies that 
are sensible for all vehicles that share the road, while reflecting the 
unique aspects of the trucking industry's role in our economy that 
allows businesses and private citizens to confidently ship goods across 
state lines and throughout America. Right now, trucks move more than 10 
billion tons of freight--nearly 71 percent of all U.S. domestic freight 
tonnage--and those figures are only expected to grow as our economy and 
population also grow.\14\ We will continue to need human beings in the 
cabs of our trucks for some time. In addition to the anticipated safety 
benefits, what these technologies may do is make those drivers more 
efficient, make driving a more attractive career choice, and attract 
new people to our industry.
---------------------------------------------------------------------------
    \14\ U.S. Freight Transportation Forecast to . . . 2028, produced 
by IHS Global Insight, Inc. for American Trucking Associations.
---------------------------------------------------------------------------
Cybersecurity
    As with passenger vehicles, cybersecurity is an important 
consideration for commercial vehicles. ATA has taken steps to help 
ensure a robust cybersecurity environment for motor carriers. ATA is 
developing a motor carrier-based program for sharing information about 
emerging cyber threats and attacks. This program will focus on the 
unique threats to truck fleets, and will coordinate with the Auto-ISAC, 
which has recently opened its membership to truck manufacturers and 
equipment suppliers. ATA has also been working with the Federal Bureau 
of Investigation (FBI), DHS, and intelligence sharing and analysis 
groups including the National Motor Freight Traffic Association Heavy 
Vehicle Cybersecurity Working Group, and the U.S. Department of 
Transportation (DOT) Volpe Center Commercial Truck Cyber Working Group. 
ATA also has a seat on the U.S. Chamber of Commerce Cyber Leadership 
Council. ATA's Technical Advisory Group and Technology & Engineering 
Policy Committee have been working with our members to provide industry 
thought leadership and to raise awareness of motor carrier and supply 
chain risk and cybercrime prevention.
    In June, the U.S. Army's Tank Automotive Research, Development & 
Engineering Center (TARDEC) held a CyberTruck Challenge where truck OEM 
engineers and university students attempted to hack into trucks to 
identify potential vulnerabilities. Later this month, ATA's Technology 
& Maintenance Council will host its first CyberTech challenge at our 
National Technician Skills Competition which will help technicians 
diagnose and detect cyber attacks.
    All of these initiatives are working to keep trucking safe as it 
moves toward connected and automated driving.
Policy Recommendations to Support Safety Innovations
    The trucking industry relies on an interstate highway system that 
facilitates the free flow of goods between the states. As automated 
truck technology is developed, tested, and commercialized, it is 
critical that federal, state and local laws do not create disparities 
that limit commerce and obstruct the successful adoption of these 
potentially safety- and productivity-boosting technologies. The 
regulation of performance and technical specifications of automated and 
connected truck technology should be solely the responsibility of the 
Federal Government. States should maintain their existing 
responsibilities that do not interfere with the flow of interstate 
commerce. In the absence of Federal regulation, states should support 
operations of commercial motor vehicle automated and connected 
technologies within their rights of intrastate jurisdiction. However, 
conflicting requirements among Federal and State agencies will create 
roadblocks to deployment of automated technology, delaying the safety 
benefits, fuel savings, emissions reductions, and potential efficiency 
improvements to our country's transportation system. The Federal 
Government must take a clear leadership role and, where necessary, 
exercise Federal preemption to ensure that there is no conflict between 
Federal and state regulations. It is critically important to provide 
certainty to the developers of automated technology for all vehicles 
that there will not be a disparate set of state laws, now or in the 
future, that unnecessarily impede the ability of a company to test and 
operate vehicles with their technology across state lines and in 
interstate commerce. Without this certainty, innovation will be slowed 
as companies divert resources to addressing a patchwork of state 
policies, or find that the vehicles they developed in Nevada cannot be 
operated in California and they need to make changes to their designs.
    As automated vehicle technology is rapidly developing, it is 
important that government policy and regulations support innovation and 
do not inhibit the flexibility of carriers to choose automated 
technologies best suited to their individual needs. Federal agencies 
and state governments should be fully committed to encouraging 
innovation in both commercial and passenger vehicles to bring safety 
and other benefits to all road users. Exemptions from existing Federal 
regulations that will allow new technology to be developed and tested 
is one way to help support innovation while also gathering data that 
could inform future standards and policies. NHTSA already has authority 
in this area, but exemptions are now limited to 2,500 vehicles per 
manufacturer per year, with each exemption lasting for a period of two 
years. Expanding the number and duration of exemptions from standards 
that prevent new safety technology from being put on the road will 
allow more real-world data to be collected more quickly, which will 
lead to improved system design and better information for making both 
regulatory and business decisions. To be clear, the exemption process 
does not automatically provide a manufacturer with the ability to avoid 
any or all safety standards. It is a rigorous process which requires a 
manufacturer to apply for the exemption and provide information that 
will allow NHTSA to make its determination based on, among other 
things, equivalent or better safety levels and the overall public 
interest. Increasing the number and duration of the exemptions would 
not relax safety, but rather provide a faster path to achieving higher 
levels of safety and updated regulations.
    It is important to note, too, that the Federal preemption and 
exemption changes we are recommending support not only innovation of 
fully automated vehicles, but also the levels of partial automation 
that will bring safety benefits as well.
    Coordination among Federal agencies is another way to remove 
barriers and more fully realize benefits that can come from automation. 
ATA sees great potential for vehicle connectivity using the 5.9 GHz 
Safety Spectrum to improve the performance of automated vehicles. 
Vehicle-to-vehicle (V2V) and vehicle-to-infrastructure (V2I) 
communication using the Safety Spectrum can save lives and reduce 
traffic congestion and vehicle emissions. The benefits of V2V/V2I 
technology will grow when coupled with automated vehicle technology, 
and vice versa. As the Federal Communications Commission (FCC) 
considers action that would allow other uses of the 5.9 GHz spectrum 
that was allocated for V2V and V2I communication, we believe it is 
important that any decisions over sharing the Safety Spectrum should be 
driven first and foremost by public safety, preserving all 7 channels 
of spectrum for safety. The FCC should take no action that could 
jeopardize the vehicle safety initiatives that the DOT is pursuing with 
this spectrum.
    Federal agencies should also begin the work of evaluating the 
benefits of connected and automated technology on public safety and the 
economy, considering both passenger and commercial vehicles. A better 
understanding of how these technologies may benefit the public along 
with consideration of how regulations can be changed to take advantage 
of the capabilities that this new technology provides will lead to 
better policy decisions and the development of a regulatory framework 
that help to realize these benefits. For example, in the commercial 
sector, FMCSA should begin to review Federal Motor Carrier Safety 
Regulations and see what might be changed to account for the new 
driving environment with automated technology where the driver may be 
in the seat but not operating the controls. Perhaps there can be 
changes made in hours of service that would improve productivity 
without reducing safety? How should speeds be managed with connected 
and automated technology? What will be the impact of connected and 
automated technology on CSA scores, liability, and insurance? These are 
questions that should be considered by DOT along with an examination of 
the impact on interstate commerce of conflicting state laws and the 
importance of preserving a seamless set of safety standards to minimize 
disruptions to the economy and the national supply chain. A thorough 
examination of these issues will help insure that the future regulatory 
framework is correct, not flawed.
Conclusion
    ATA supports the development of automated vehicle technology for 
all vehicle types. This technology has the potential for improving 
safety, the environment, reducing congestion, and saving fuel. While 
there are concerns about the impact automated technologies will have on 
the future of work, affected stakeholders should embrace this coming 
innovation and work together to prepare the workforce to operate with 
the new technology. Some may see a driverless future, but with the 
complexity and diversity of the trucking industry, we expect the driver 
will retain an important role in trucking for a long time to come, with 
automated truck technology that will improve safety and productivity.
    To prepare for the future, Federal agencies should begin the work 
of evaluating the benefits of connected and automated technology on 
public safety and the economy, and reviewing regulations to see what 
changes could be made to take advantage of the capabilities that this 
new technology provides. Preserving a seamless set of safety standards 
across the country will help to minimize disruptions to the economy and 
the national supply chain, and support the development of new 
technology.
    Trucking plays a critical role in our economy--keeping the shelves 
of our local supermarkets fully stocked; delivering life-saving medical 
supplies to hospitals and clinics; and delivering goods at every stage 
of production from raw materials to the store shelf--and it should not 
be left out of any legislation that supports innovation in automated 
vehicle technology.

    The Chairman. Thank you, Mr. Spear.
    Mr. Hall.

                     STATEMENT OF KEN HALL,

                  GENERAL SECRETARY TREASURER,

             INTERNATIONAL BROTHERHOOD OF TEAMSTERS

    Mr. Hall. Chairman Thune, Senator Peters, members of the 
Committee, thank you for the opportunity to testify before you 
today on an issue that is of vital importance to American 
workers.
    I'm the General Secretary-Treasurer of the Teamsters union, 
the Nation's largest transportation union, representing workers 
in almost every transportation industry. Teamsters members 
could be delivering anything from bakery goods to concrete, 
palletized material, to your latest online package, or getting 
you to work on time and safely transporting your kids to 
school.
    While nearly 600,000 of our 1.4 million members turn a key 
in a truck to start their workday, the issues that we will be 
discussing today don't just impact those who drive vehicles for 
a living. A future that includes partial and fully autonomous 
vehicles could also change the nature of work for those in 
nearly every part of the transportation industry in our 
country.
    Planning for the future and incorporating new technologies 
into our members' daily lives is not new to me or to my union. 
In addition to my duties as General Secretary Treasurer, for 
over 20 years I also served as Director of the Union's Package 
Division, and in this position, I ran the Teamsters daily 
interactions with UPS, under the single largest collective 
bargaining agreement in North America.
    The issues facing the 250,000 Teamsters who work for UPS 
are inextricably tied to the incorporation of new technology. 
The logistics industry as a whole has changed extraordinarily 
over time, and Teamsters have been in the thick of it. We have 
strived to balance the incorporation of countless pieces of new 
technology into the workplace while ensuring that workers are 
guaranteed a right to avoid harassment and to always feel safe 
on the job. My career has shown me that new technologies can 
exist in an environment where workers are still taken care of. 
But it takes strong and aggressive action from those workers to 
make sure that happens.
    Self-driving vehicles have the potential to change the 
transportation industry as we know it. That can be for the 
better or for the worse, depending on the actions of this 
Committee, workers, and others take in guiding their 
implementation onto our roads. It is incumbent upon the members 
of this Committee to help ensure that workers are not left 
behind in this process. It is essential that American workers 
are not treated as guinea pigs for unproven technologies that 
could put their lives at risk.
    The issues facing autonomous commercial trucks are 
fundamentally different and potentially more calamitous than 
those facing passenger cars and warrant their own careful 
consideration. The consequences for getting this wrong could be 
deadly both for workers and other drivers on the roads. The 
public discussion in Congress on autonomous vehicles has tended 
to focus on the impact of small personal cars on our daily 
lives, increasing mobility for the disabled, and alleviating 
congestion in our cities. These are all important topics. But 
taking a cookie-cutter approach in dealing with those issues 
and applying it to heavy vehicles is reckless.
    For instance, I have yet to hear a serious discussion about 
how we will make sure an 80,000-pound automated truck will be 
able to maneuver around a warehouse or drop yard and not injure 
the countless workers also occupying that same space, or how we 
would make sure that the rules governing a driver's training 
requirements would be updated the moment one of those new 
vehicles is put on the road. And we haven't gotten to the 
largest issue of them all, the potential impact on the 
livelihoods and wages of millions of your constituents. These 
issues should be considered carefully and deliberately at the 
outset of this discussion, not after the fact.
    For all the discussion here about the potential benefits 
that may accompany this technology, I urge you to consider 
these possibilities with a healthy dose of realism. When you 
hear manufacturers tell you that a list of strong safety 
metrics will translate into effortless deployment on the roads, 
I urge you to recall some of the other issues that this 
Committee has so furiously worked on this year.
    This Committee has spearheaded investigations into 
Volkswagen knowingly cheating its customers out of emission 
benefits. The airbag manufacturer Takata knowingly sold 
defective airbags that have claimed the lives of American 
citizens. Market forces did not convince these companies not to 
cheat and push the envelope past what was safe, and that same 
mentality is a constant factor in the trucking space where 
margins are consistently tight and competition is fierce. The 
fear of many transportation workers is that, absent strong 
action and guidance from this Committee and others, a new 
generation of autonomous vehicles will provide limitless 
opportunity for this same pattern of reckless behavior.
    There are so many impacts to consider. Unchecked, this new 
technology could open up our citizens to having their privacy 
breached and personal data sold. Issues such as worker 
harassment and tracking would be intertwined with existing 
collective bargaining agreements and workplace policies. A 
truck driver will have to think about having his rig hacked and 
used as the next weapon in a Nice or Barcelona-style attack, 
and millions of Americans could have their paychecks decreased 
because half of their job has now been automated away and their 
employer thinks that it can get away with no longer paying them 
the full wage they once did.
    I applaud you for having this hearing with the Teamsters' 
voice at the table. I look forward to working with the 
Committee to ensure the priorities and concerns of working 
families remain at the center of this debate. In all aspects of 
automation, but especially when we're considering commercial 
motor vehicles, it is more important to get it done correctly 
rather than just get done quickly.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Hall follows:]

     Prepared Statement of Ken Hall, General Secretary Treasurer, 
                 International Brotherhood of Teamsters
    Chairman Thune, Ranking Member Nelson, Senator Peters, members of 
the Committee, thank you for the opportunity to testify before you 
today on an issue that is of vital importance to American workers.
    My name is Ken Hall. I am the General Secretary Treasurer of the 
International Brotherhood of Teamsters. The Teamsters Union is the 
Nation's largest transportation union, representing workers in almost 
every transportation industry. Teamster members could be delivering 
anything from bakery goods to concrete, palletized material to your 
latest online package--or getting you to work on time and safely 
transporting your kids to school.
    While nearly 600,000 of our 1.4 million members turn a key in a 
truck to start their workday, the issues we will be discussing today 
don't just impact those who drive vehicles for a living. A future that 
includes partial and fully autonomous vehicles could also change the 
nature of work for those in nearly every part of the transportation 
industry in our country.
    Planning for the future and incorporating new technologies into our 
members' daily lives is not new to me or to my Union. In addition to my 
duties as General Secretary Treasurer, for over twenty years I also 
served as director of the union's package division. In this position I 
ran the Teamsters daily interactions with UPS, under the single largest 
collective bargaining agreement in North America.
    The issues facing the 250,000 Teamsters who work for UPS are 
inextricably tied to the incorporation of new technology. The logistics 
industry as a whole has changed extraordinarily over time and Teamsters 
have been in the thick of it. We have strived to balance the 
incorporation of countless pieces of new technology into the workplace 
while ensuring that workers are guaranteed a right to avoid harassment 
and to always feel safe on the job. My career has shown me that new 
technologies can exist in an environment where workers are still taken 
care of. But it takes strong and aggressive action from those workers 
to make sure that happens.
    Self-driving vehicles have the potential to change the 
transportation industry as we know it. That can be for the better or 
for the worse depending on the actions that this committee, workers, 
and others take in guiding their implementation onto our roads. It is 
incumbent upon the members of this committee to help ensure that 
workers are not left behind in this process. It is essential that 
American workers are not treated as guinea pigs for unproven 
technologies that could put their lives at risk.
    The issues facing autonomous commercial trucks are fundamentally 
different, and potentially more calamitous than those facing passenger 
cars, and warrant their own careful consideration. The consequences for 
getting this wrong could be deadly both for workers and other drivers 
on the roads. The public discussion in Congress on autonomous vehicles 
has tended to focus on the impact of small personal cars on our daily 
lives--increasing mobility for the disabled, and alleviating congestion 
in our cities. These are all important topics. But taking a cookie 
cutter approach in dealing with those issues and applying it to heavy 
vehicles is reckless.
    For instance, I have yet to hear a serious discussion about how we 
will make sure an 80,000 pound automated truck will be able to maneuver 
around a warehouse or drop yard and not injure the countless workers 
also occupying that same space. Or how we would make sure that the 
rules governing a driver's training requirements would be updated the 
moment one of these new vehicles is put on the road. And we haven't 
gotten to the largest issue of them all, the potential impact on the 
livelihoods and wages of millions of your constituents. These issues 
should be considered carefully and deliberately at the outset of this 
discussion, not after the fact.
    For all of the discussion here about the potential benefits that 
may accompany this technology, I urge you to consider these 
possibilities with a healthy dose of realism. When you hear 
manufacturers tell you that a list of strong safety metrics will 
translate into effortless deployment on the roads, I urge you to recall 
some of the other issues that this committee has so furiously worked on 
this year.
    This committee has spearheaded investigations into VW knowingly 
cheating its customers out of emission benefits. The airbag 
manufacturer Takata knowingly sold defective airbags that have claimed 
the lives of American citizens. Market forces did not convince these 
companies not to cheat and push the envelope past what was safe. And 
that same mentality is a constant factor in the trucking space where 
margins are consistently tight and competition is fierce. The fear of 
many transportation workers is that absent strong action and guidance 
from this committee and others, a new generation of autonomous vehicles 
will provide limitless opportunity for this same pattern of reckless 
behavior.
    There are so many impacts to consider. Unchecked, this new 
technology could open our citizens up to having their privacy breached 
and personal data sold. Issues such as worker harassment and tracking 
would be intertwined with existing collective bargaining agreements and 
workplace policies. A truck driver will have to think about having his 
rig hacked and used as the next weapon in a Nice or Barcelona-style 
attack, and millions of Americans could have their paychecks decreased 
because half of their job has now been automated away and their 
employer thinks that it can get away with no longer paying them the 
full wage they once did.
    I applaud you for having this hearing with the Teamsters' voice at 
the table. I look forward to working with the Committee to ensure that 
the priorities and concerns of working families remain at the center of 
this debate. In all aspects of automation, but especially when we are 
considering commercial motor vehicles, it is more important to get it 
done correctly rather than just done quickly.
    Thank you and I look forward to your questions.

    The Chairman. Thank you, Mr. Hall.
    And thanks again to all of you for your testimony. And 
we'll have an opportunity to have members of the Committee to 
ask some questions. And I'll start with Colonel Hernandez.
    Based on your years of experience, do you think that 
autonomous vehicle technology can advance safety for trucks?
    Colonel Hernandez. Absolutely. I think that, as we've 
heard, it already has in many ways. But witnessing what 
happened on October 20 of last year, it was clear that there 
are some advantages. And a couple of those that I probably 
didn't capture in my initial testimony was the hours, and the 
demonstration was at night when there was reduced traffic. And 
so that was both for safety concerns, and will be for safety 
concerns in the future. So just the timing possibilities. And 
it was, like I said, a Level 4 demonstration. And what that 
meant was that there was still a driver there to get that 
vehicle onto the highway and then into the terminal area. So 
that driver was involved in that process.
    But without a doubt, I believe that there are some 
advantages. I think the key is, is that we're all at the table 
to discuss with them, to discuss this together, through the 
process and make sure that commercial vehicles are not left 
out. I think the fact that they've already demonstrated this 
puts us behind, and I think that it shouldn't be left further 
behind in the process. Thank you.
    The Chairman. Ms. Hersman, the crashes that you highlighted 
in your testimony are horrible, and yet could have been 
prevented or mitigated with crash-avoidance technology. And you 
mentioned that we cannot continue to do things the same way. 
Since trucks are involved in some of the most jarring examples 
that you've cited, would you say that accelerating the 
deployment of automated vehicles or automated trucks should 
provide significant safety benefits?
    Ms. Hersman. Yes. With proper testing and controls, I think 
this is the game changer when it comes to highway fatalities. 
Advanced technology can solve many problems that we've 
struggled with for decades. And I think it's important to have 
the conversations and the issues that you've outlined in your 
bill. Whether it's data sharing, testing protocols, engagement 
of all of the right stakeholders, these are all things we need 
to begin to discuss.
    The Chairman. Thanks.
    Mr. Clarke, is there any reason to think that when it comes 
to automated vehicles, that Federal safety standards governing 
core automated technologies, things like sensors and radar, 
should be fundamentally different for trucks and cars and 
develop at different speeds?
    Mr. Clarke. The fact of the matter is, is that the basic 
sensor technology and some of that type of componentry which 
are put on the truck is very similar to what is in cars. 
However, our heavy vehicles are much different than cars. They 
weigh more, they take longer to stop, they have high centers of 
gravity. In fact, one of the reasons why we need to advance at 
the rate we are is because of the fact that some of the 
solutions that allow the heavy vehicle to perform in a similar 
manner to a light vehicle have yet to be engineered.
    We need the data from real-life, in-hands use by real 
customers to understand what the proper validation processes 
and practices, you know, will be, or what the engineering 
problems are that we need to solve. We see no reason why 
commercial trucks should move forward in this area at a 
different speed or under a different timetable than light 
vehicles.
    The Chairman. Mr. Spear, this appears to be an instance in 
which many trucking companies and manufacturers are actually 
pushing for more Federal regulation of the industry. Could you 
explain the reasons why you think more leadership from the 
Federal Government will accelerate the safety benefits of this 
new technology?
    Mr. Spear. I wouldn't say that it's more regulation, but at 
least one standard, one seamless Federal standard, and that 
comes from Federal leadership. So we would push and advocate 
heavily for that as opposed to 50 different state regulatory 
regimes. We're interstate commerce. We move the economy. 
Seventy percent of the freight was in your opening remarks. 
That's no small figure. And we cross state lines every day. And 
it's a reality that our drivers face every day, and, you know, 
compliance with multiple state regimes would be very disruptive 
to the economy, to these companies, and I think it would be a 
jobs issue over time if we're not able to move freight in a 
productive way, in a safe way, and obviously in a profitable 
way.
    So having one seamless standard at the Federal level is 
what we would advocate, and it's certainly a much better 
approach in our view than a patchwork of state laws, 
conflicting state laws.
    The Chairman. OK. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. And thank you to 
each of our witnesses for outstanding testimony here today as 
we begin this very important discussion about trucks and 
autonomy.
    Mr. Hall, I couldn't agree with you more that we need to 
get this right, that there is a great deal of potential in this 
technology. We have to do it right and we have to be thoughtful 
about it, and that's certainly why we have spent so much time 
on this issue related to automobiles. As I mentioned in my 
opening comments, hours and hours of conversations with all 
stakeholders.
    It has been a very comprehensive program as we've focused 
on automobiles. But as everyone has said, trucks are different 
than automobiles, and one of those differences deals with the 
employment impact, which I think you stated very clearly.
    And I think, Mr. Spear, you mentioned it's the top job in 
over 20 states.
    So folks who we represent in our communities, it could 
potentially have a significant impact, and one that we have to 
think very carefully about, the impact that it's going to have 
on our communities in our state.
    Mr. Spear, in your testimony, you said that the ATA 
believes that the driver will retain an important role in 
trucking even in automated vehicles, or if I may paraphrase, I 
think that's in your written testimony. And I think we all 
could agree that we don't want to see large-scale job losses. 
But I didn't see in your testimony any data, studies, best 
practices, or business plans that address how a company 
operating today is prepared to address driver displacement.
    Now, Mr. Clarke mentioned that drivers would still have a 
role in platooning, as an example of how a driver would be in 
that business model, but even that means a displacement of 
drivers. If you are platooning trucks, that means you have 
several trucks driving together, and normally you have each of 
those trucks with a driver in the front, and now you may just 
have one driver in front of a platoon. So there are 
differences.
    So my question to you, Mr. Spear, and certainly to Mr. 
Clarke as well, What are you doing internally to prepare for 
possible driver displacement as a result of highly automated 
trucks?
    Mr. Spear. Quite frankly, we don't view it as a 
displacement issue because we don't believe Level 5, no 
steering wheel, no pedals, is imminent. What we're really 
focused on is driver-assist technologies, not driverless. And 
if that's acceptable in this Committee, then we're really 
talking about, How do we enable drivers to be safer, more 
productive, equipment more environmentally friendly, less 
congestion? These are all measurable returns that our fleets 
will invest in and are good for drivers as well. We'd like them 
to be less fatigued, better rested. And if technology can play 
a role in that, that's good for the entire motoring public.
    But in terms of driver displacement, we already have a 
$50,000--50,000-driver shortage as it stands, and if that trend 
continues, it will be double in 5 years. We have to hire 
960,000 employees over the next decade into this industry. So 
we're pushing hard to bring more talent into the industry. 
That's what our fleets are preparing for, not for displacement.
    And to the degree that it is driver-assist technology, we 
welcome that. And ways that we can measure better productivity 
and safety, lower emissions, less congestion, those are all 
things that we'd be very interested, and that's why we feel 
trucks need to be part of this legislation.
    Driverless, Level 5, that's decades away, and it's just not 
even in the scope of our fleets' vision at this point, but I 
think Level 2 and 3 are. So with that, I think driver-assist is 
much more reasonable and why we're not concerned about 
displacement at this time.
    Senator Peters. When you say that driverless technology for 
trucks is decades away, and yet for automobiles, it's just a 
few years away, why the difference?
    Mr. Spear. Well, I think I would agree with my colleague 
Mr. Hall. He is struggling to find an argument where you are 
going to have a driverless truck navigate in a scenario where 
it's going to do a dropoff or a pickup. We wouldn't argue with 
that because we think the driver is still going to be in the 
seat. It's really the long haul where you're going to see a lot 
of the value come from driver-assist technology, Levels 2 and 
3.
    So we don't believe that that's going to be a threat. We 
think drivers are going to play an intricate role in the 
cityscapes, the pickups, the deliveries, but in terms of the 
long haul where you can see efficiencies to lowering fuel burn, 
lowering emissions, better safety by having connectivity 
between trucks, cars, infrastructure, those are all good things 
that are going to really improve safety in our opinion. So we 
don't look at it as a threat, certainly not in the near term.
    Senator Peters. Mr. Hall, you obviously have a different 
perspective, and I would like you to have an opportunity to 
hear a little bit more about your perspective after Mr. Spear's 
testimony.
    Mr. Hall. Well, I was certainly happy to hear his 
testimony, but, you know, we look at this as--first of all, let 
me be clear. Our union has always been willing to talk about 
new technology. If you look at the workplaces that we 
represent, they look very unsimilar to warehousing and all 
these other different aspects of industries that we represent. 
They're much different than they were when I began as a 
Teamster. But there is very much of a difference here when 
we're talking about having an 80,000-pound vehicle barreling 
down the road.
    We are not opposed to looking at some of the changes that 
we have heard here, but to have a tractor-trailer going down 
the road without a driver, which is what I believe is coming, 
then I think there are lots of reasons why we should be 
concerned about that, and not the least of which is 
cybersecurity.
    I mean, we--no matter what technology you put into these 
trucks, we've seen already in areas around the world where 
large trucks have been used to essentially attack the citizens 
of those particular areas. And so that's one of the things that 
I think we have a lot of work to do before we can go to this--
before we can advance with the larger trucks.
    Senator Peters. Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Mr. Spear, what do you say to that cyber 
threat argument that Mr. Hall raised?
    Mr. Spear. Well, I think it's a serious issue, and I think 
the auto industry and the trucking industry are very committed 
to ensuring--there is nobody out there that wants their 
equipment to be compromised. So I think putting together very 
strong protocols in concert with Federal policies. We work very 
regularly not only with DOT and NHTSA, but also with DHS. I 
would agree with Mr. Hall, I don't think you want a tank truck 
that's driverless in an ISIS world. That is not something we're 
advocating.
    So going back to the earlier discussion about driver 
displacement, that is not something that we believe is in the 
foreseeable future, but where we can use technology to enhance, 
you know, the safety and the productivity of the fleets and the 
driver, we're all in on that.
    Senator Wicker. So just as we guard against cyber threats 
with airlines and other aspects of our economy, we can answer 
that question with the trucking question. Is that your 
position?
    Mr. Spear. Yes, I think so. We work very closely with DHS, 
FBI, Volpe.
    Senator Wicker. OK.
    Mr. Spear. We've been working with DOD on testing. Trucks 
have been a very integral part of cybersecurity testing 
protocols, and now with the ISAC at the auto industry, the 
Information Sharing Advisory Committee, they are now accepting 
our companies to be a participant in that realm. So now you're 
going to have the auto industry and the trucking industry 
comparing best practice to make certain there's a seamless 
protocol that's----
    Senator Wicker. Well, let me get to another couple of 
topics.
    Mr. Spear and Mr. Hall, do you agree that we do have an 
impending truck driver shortage?
    Is that your position, Mr. Spear?
    And is that your position, Mr. Hall?
    Mr. Hall. It is.
    Mr. Spear. It is.
    Senator Wicker. OK. Well, Mr. Spear, it seems to me, based 
on your testimony, that actually going to a Level 2 or 3, 
really you're saying that's really not going to be an answer to 
the trucker shortage because we're still going to need 
basically the same number of truck drivers. Is that correct?
    Mr. Spear. Well, it's not a clearly defined answer. 
However, I like to use the analogy of generational gaps. I can 
usually fix a lot of things on my phone and laptop, but it's 
easier to hand them to my kids. I can get it done a heck of a 
lot quicker than I can. And what we would like to see in terms 
of the new generation of drivers and technicians is to speak to 
that generation. This technology does that. And to make 
trucking cool, to make trucking attractive, tech-savvy in this 
generation, I think is a good fit.
    And I think we're ushering in a lot of new talent that's 
going to be able to really cope with this technology and make 
it work to the benefit of society. So we believe in that. It 
may be more indirect, but we think that that is an attractive 
element in terms of bringing new talent into our industry----
    Senator Wicker. OK, I see. So we can add to the workforce. 
Let me ask you about your statement on the 5.9 GHz safety 
spectrum. If we don't get that and we don't get the exclusive 
use of that, as your testimony advocates, what would that mean?
    Mr. Spear. I think it would be a huge setback. I'm a bit 
more bullish on this issue than others. We do work closely with 
the National Safety Council on this issue and feel that having 
connectivity between cars, trucks, and infrastructure is, in my 
opinion, the secret sauce because now you don't have cars 
cutting off trucks. And two-thirds of the accidents that 
involve trucks are caused by passenger vehicles, driver 
behavior, speeding, texting.
    So connectivity plays a key role as that becomes more of a 
problem, eliminating congestion. These are huge issues that 
gain from connectivity through that 5.9. If we don't have that, 
you're simply going to be working off of other applications. 
Bluetooth, for instance. We look a lot at platooning in our 
industry, trucks trailing trucks. That's done basically on a 
Bluetooth platform. I'm not saying that's a bad platform to 
work from, but a much more robust and safer platform would 
certainly be a 5.9, and preserving that for safety would be 
something that we would advocate.
    Senator Wicker. Thank you.
    Mr. Clarke, we have information in our Committee brief 
about advances in our competitor countries in this regard. 
Germany, United Kingdom, South Korea, even China, are working 
hard at this. Who's ahead of whom in this area? And what can we 
learn from the experiences of the other countries? And if you 
can, touch on the connectivity issue that Mr. Spear touched on.
    Mr. Clarke. Yes, thank you, Senator. Actually, on the 
connectivity issue, you know, I would endorse comments of Mr. 
Spear. Look, connected vehicles see much further than any 
driver. Connected vehicles can be prepared to avoid 
circumstances, and certainly engage the driver in ways that are 
not possible today, seeing miles ahead to weather, road 
conditions, congestion, other type of circumstances. It is the 
secret sauce, I think, and really is one of the keys to 
unlocking the potential of this technology.
    Senator Wicker. How are our global competitors doing?
    Mr. Clarke. You know, this is--you know, in some of the 
trade journals you may have read, you know, this is the space 
race of our industry basically. There are a number of 
technologies that are coming together, and very interestingly, 
a number of those technology leads come out of the United 
States. And, you know, the sensor technology, the AI and 
machine learning technology that's necessary to take advantage 
of this, the very sophisticated digital 3-dimensional LIDAR 
maps that are running in the background and supporting this 
software, these are all areas where we have the edge.
    Senator Wicker. We're ahead of Germany, United Kingdom, and 
South Korea, and China in the basic regard.
    Mr. Clarke. Yes, sir, in the basics, we are.
    Senator Wicker. And that's a good thing.
    Mr. Clarke. It is. What we need to do is to continue to 
press forward with the integration of these into real 
platforms, putting them into real service so that we can 
collect the data to allow us to do the analytics to bring 
forward the right type of regulations and applications.
    Senator Wicker. Thank you.
    The Chairman. Thank you, Senator Wicker. And I would agree. 
I think in terms of the transformative effects and impacts of 
this technology, the closest thing in recent memory would be 
the Internet. I just think this is going to transform the way 
we do things. And I would concur with the statement that has 
been made about truckers. Just anecdotally, trucking companies 
in my state cannot find enough drivers, and there is a real 
shortage out there.
    So thank you, Senator Wicker.
    Next up is Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Chairman. Well, I've really 
enjoyed this conversation. It's very important to my home State 
of Indiana, where we have a robust logistics industry, and a 
very serious shortage of truck drivers to keep that industry 
going. So I think we might have a big part of the solution 
being presented today.
    So in 2015, there were over 35,000 lives taken for one 
reason or another on our Nation's highways. Over 800 of those 
fatalities were on highways in my home State of Indiana. NHTSA 
estimates that as many as 94 percent of crashes can be 
attributed to human driver error, so you can see the potential 
AVs bring simply in terms of lives saved. So another big 
benefit to Hoosiers.
    That's not the complete story. AVs could change the lives 
of individuals who today rely on friends, family, and others to 
drive themselves around, to drive them around our communities. 
You think of the blind, the disabled, the elderly, and others 
who could have a far greater quality of life when AVs allow 
them to become more independent, but also more integrated into 
the day-to-day lives of our communities.
    The National Council on Disability noted in a previous 
hearing that we held that automated vehicles hold great promise 
to advance social inclusion by offering people with 
disabilities independent mobility to get to schools, jobs, and 
all places that Americans go each day. To get to a point where 
AVs can provide such a societal benefit, Congress will have to 
allow the technology to advance for both vehicles below 10,000 
pounds and most likely for vehicles above 10,000 pounds. I'm 
afraid if we bifurcate the regulatory environments for small 
and large vehicles, we're going to delay these life-saving and 
life-changing benefits that AV technology can bring to all 
Americans.
    Mr. Spear, regarding the threat of AI or automation 
becoming net job losses for our economy, you predicted that 
truckers will be more like airline pilots. That's sort of a 
compelling thought. I think it offers promise to our future 
truck drivers or operators to work in a profession where they 
add more value or earn higher wages, and so forth, at least as 
you've styled it.
    Could you expand on that? Because I think the popular 
perception is that when you get on a commercial airline, the 
pilot is controlling the plane the entire time, and we know 
that's not the case. So what would the role of the trucker be 
as we look into the future?
    Mr. Spear. I think it would be very similar. I know this 
plays a little bit off of Mr. Hall's testimony, too, because we 
share that concern. What many people don't see are the pickups, 
the deliveries, the navigating of the cityscapes. There is some 
really complex maneuvering with this equipment that takes a lot 
of talent behind the wheel to make that happen. And with all 
the variables that they're dealing with, they're not automated, 
they're not Level 5.
    So unless we're going to remove all human error from all 
vehicles on the road, you're going to need drivers in the seat 
handling 80,000-pound vehicles, in our opinion. Very similar 
concept to airline pilots. It's the takeoffs, the taxiways, the 
landings, they're all handled by the pilot in control. It's 
really the long haul, and where that automatic pilot comes on 
where you see some of the values of that technology take over. 
The pilot is always there, can take over if conditions arise 
that warrant that. The same stands true for drivers and trucks.
    Senator Young. And I haven't heard the airline industry 
discuss eliminating pilots and going fully automated.
    Mr. Spear. And they could right now. I don't want to put in 
a plug for my former employer, but working with Honeywell for 8 
years, you all fly, there are pilots in the cockpit----
    Senator Young. Right.
    Mr. Spear.--those cockpits, the automation that's in these 
planes can take off, fly, and land all on their own.
    Senator Young. And over the years, I would say we've had an 
increase in the number of pilots. And so our airline industry 
used to involve more pilot sort of intervention along the way. 
I would also indicate we saw an increase, at least for a period 
of time, in membership in their unions as well. So that's 
notable.
    What is--could you discuss platooning? Because I'm not 
entirely sure what the role of the operator would be in the 
platooning process.
    Mr. Spear. Well, the platooning, it would involve a concept 
where a driver would be in the lead truck, and that pursuant 
trucks would follow possibly without a driver eventually, but 
up to two, three trailer trucks would follow the lead driver 
and they would be connected. Right now that's being tested, as 
I said earlier, through Bluetooth technology. It's why we feel 
the 5.9 would be a much greater platform, better platform, to 
connect vehicles because then you can include connecting cars. 
And so the accident that Ms. Hersman put up on the slide there, 
if you have cars and trucks talking to one another, you really 
start to mitigate risk.
    Senator Young. Well, this strikes me as really meaningful 
work as you think about the future of trucking, and one where 
we might attract more people into the labor market. So thank 
you so much.
    The Chairman. Thank you, Senator Young.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thank you and 
Senator Peters for your work on the legislation that raises 
some of the issues that bring us here today.
    I think we need rules and regulations in this area, rules 
that will guarantee safety. I was deeply disappointed by the 
guidance issued yesterday by NHTSA, which struck me as anemic, 
in effect, a giveaway to the industry, and it could result in 
lives lost unless we have enforceable rules and regulations 
that protect the traveling public, not just the folks who may 
be behind the wheel, but also passengers in vehicles out on the 
roads today. And driving continues to be one of the deadliest 
activities, as you observed, Ms. Hersman, and thank you for all 
your work in this area.
    The reason the framework issued yesterday concerned me so 
greatly is that it depends on voluntary self-assessments by the 
industry as opposed to mandatory rules. It was termed by one 
report ``even less burdensome,'' quote, ``even less 
burdensome,'' than the voluntary one issued under the Obama 
administration. And the net effect would be to leave 
enforcement virtually toothless.
    So I am putting to you the question, to all of the 
witnesses here today, Isn't it necessary to have mandatory 
rules and regulations enforced by the government, by the 
Department of Transportation, or some enforcer to protect the 
traveling public?
    Mr. Hall. Well, I think it's absolutely true. There has to 
be--we've seen too many examples of--and that's one of our 
concerns, is whether or not there is going to be the kind of 
oversight that's necessary to protect the American public. I 
mean, we have seen too many cases, where, for example, in the 
case of Volkswagen, where everyone assumed that they were doing 
the right things. And while it's a different issue with 
emissions, it is still the same issue that if a company is 
allowed to produce vehicles, whether it is automobiles or, in 
particular, when it's 80,000-pound rigs, then there must be 
oversight. And that's why I think it's premature to think that 
these commercial vehicles should be included at this time.
    That is not to say that--and you know I want to--I am 
hopeful that we're all willing to guarantee that we're going to 
protect all those drivers' jobs, but we're certainly open to 
talking about anything that improves safety. But I am concerned 
when I know about the issues that have happened where the 
driver was killed that we just saw a report yesterday about, 
when Uber spent lots of money in the City of Pittsburgh in 
making sure that they measured down to the centimeter every 
street in that city, but yet one of the vehicles went the wrong 
way down a one-way street. That is--you know, on a one-way 
street, maybe there's a way to control that.
    We've got to be--we've got to have more thought, not that 
there's not going to be a time, as I have listened here and 
agreed with some of my colleagues here, I understand that we 
are going to see some changes, but there has to be a lot more 
work done----
    Senator Blumenthal. Does anyone on this panel think that 
the NHTSA guidance offers an adequate basis to go forward?
    Mr. Spear. I wouldn't say, Senator, that it's an end-all, 
you know, issuance of guidance. I think we're heading down the 
path where you're going to have that framework.
    Senator Blumenthal. It's hardly a robust first step. Would 
you agree?
    Mr. Spear. I would say that it is a first step, and that's 
better than nothing.
    Senator Blumenthal. But it ought to be a lot more robust?
    Mr. Spear. It will be a lot more. We are going to have a 
framework. We are moving in that direction. But I think at the 
same time, the only reason we're having this discussion today 
is because innovation is driving this outcome, not regulations. 
So----
    Senator Blumenthal. The rules are as important as the 
technology, would you agree?
    Mr. Spear. I agree. And I think it's getting the Federal 
Government on a good foundation to where it has great 
understanding and visibility where this technology is going to 
take us. You know, in my testimony, we advocate a Federal 
role----
    Senator Blumenthal. And the rules have to be enforceable.
    Mr. Spear. Absolutely.
    Senator Blumenthal. And they should be enforced.
    Mr. Spear. And I think that's the direction we're going, 
and that's why we believe trucks need to be part of it, but 
right----
    Senator Blumenthal. But the rules have to keep pace with 
the technology, correct?
    Mr. Spear. I think eventually they will, but, yes, you're 
correct.
    Senator Blumenthal. Well, the ``eventually'' part is what 
concerns me because in the meantime, there will be a lot more 
deaths and injuries if the rules and enforceability of those 
rules fail to keep pace, correct?
    Mr. Spear. And I also think the same is true if you get the 
rules wrong. I think excluding the commercial industry would be 
a very big detriment to safety. I think inclusivity and getting 
this right from the start--we all share the road, and I think 
having a Federal role, sole authority, overseeing it, not a 
patchwork of state laws, that deals with all motors on the 
road, motors on the road, commercial or passenger, would be the 
best approach.
    Senator Blumenthal. But relying on voluntary self-
assessments and foregoing public oversight and enforcement I 
think is a mistake that would discredit the goal that we share 
of making technology available and accessible to as many people 
as possible and increasing safety through the use of 
technology. I think that revisiting this guidance is something 
that has to be done, and I hope it will be done.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you very much, Mr. Chairman.
    Thanks to all of you who have joined us today as witnesses.
    As we consider the issue of autonomous vehicles this month, 
it's becoming more and more clear that the future of American 
transportation is inextricably intertwined with the advent of 
automated technology, and I think it's therefore really 
important that we think about this issue a lot and we move 
forward with it with an eye toward advancing it and allowing it 
to be developed.
    Automation is inevitable, and I think it would be neither 
wise nor appropriate nor necessary for Congress to stifle the 
advancement of this technology. At issue in this debate is not 
whether Congress should restrict or block or slow down the 
development of this technology, but it's, rather, how Congress 
can best establish a regulatory framework, one that encourages 
and facilitates the development of life-saving technology, 
technology that will make the American people safer and more 
productive.
    The research and development of autonomous commercial motor 
vehicles is, I think, critical to this type of innovation, and 
should, therefore, be included in any legislation that we put 
forward this month.
    Now, according to the U.S. Department of Labor's Bureau of 
Labor Statistics, trucking transportation occupations account 
for more work-related fatalities than perhaps any other 
profession. And it's my understanding that 87 percent of truck-
related collisions are caused by human error, not because 
people who are driving them are bad; they are, to the contrary, 
well trained and everything. But human beings make mistakes, 
and human error can inevitably lead to fatalities.
    So I have a question. I'll start with Ms. Hersman. Given 
that trucks are involved in a disproportionate share of fatal 
vehicle crashes, wouldn't automated trucking technology make 
sense and have the potential to have kind of an outsized 
benefit for American drivers?
    Ms. Hersman. Yes, technology has the potential to be that 
game changer when it comes to reducing fatalities. There is 
technology available today that we see can do this. Rear-end 
collisions are a great example, three times more fatal if 
you're involved in a rear-end collision with a truck, with a 
commercial vehicle, than a passenger car. We can all understand 
the physics of that. Automatic emergency braking, vehicle-to-
vehicle technology can help with that. Automated vehicles are 
an extension of some of those technologies.
    Senator Lee. So in light of that fact, why would it make 
sense for us to put them on two different tracks, one in which 
we facilitate and promote and allow for the development in the 
case of passenger vehicles, but not in the area of commercial 
vehicles?
    Ms. Hersman. We don't think it does make sense because in 
situations where we have put passenger cars on a fast track and 
we haven't addressed commercial vehicles, electronic stability 
control is a good example. After there were some issues with 
rollovers involving Ford Explorers' Bridgestone/Firestone 
tires, this Committee required that electronic stability 
control be mandated on passenger vehicles. That occurred in the 
2012 model year. We're looking at not having that on commercial 
vehicles for many more years. That doesn't make sense. We need 
one level of safety for everyone who's on the roadways.
    Senator Lee. Colonel Hernandez, the House's autonomous 
vehicle legislation is clearly limited to addressing vehicle 
design standards that will be administered by NHTSA, just as 
they've always done for both cars and for CMVs. I realize 
there's a lot of interest and debate over the ultimate 
operations of autonomous CMVs, but the current bills simply 
don't address that, and they're assuring everyone's safety 
during R&D. That being said, Colonel, would there be any reason 
to delay the fundamental safety framework for automated CMV 
design?
    Colonel Hernandez. No, not at all. I think that we already 
saw a live example in Colorado where it's jumped out in front. 
And it would be a lot better for us in the enforcement 
community to be able to be united and ahead of it as it relates 
to commercial motor vehicles.
    You know, we have many questions that are the same in the 
enforcement community, such as how to investigate a crash. And 
that--the advantage for us to understand how these technologies 
work, and work with the industry to learn how to better and 
reasonably regulate and enforce laws will have a much better 
advantage than separating the two, in my opinion.
    Senator Lee. It sounds like a considerable public safety 
gain. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lee.
    And I would point out for those who think that the NHTSA 
guidance isn't strong enough, that would argue to me for why we 
ought to have all these covered by the legislation.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    For all of the witnesses, just please answer yes or no. Do 
you believe that this Committee, as it actively works on 
legislation to promote the deployment of autonomous vehicles, 
that we should also create policies to help those working 
Americans who will lose their jobs because of these emerging 
technologies?
    Colonel Hernandez.
    Colonel Hernandez. Yes, I believe that should be 
considered.
    Mr. Clarke. Yes.
    Ms. Hersman. Yes.
    Mr. Spear. No.
    Senator Markey. Mr. Hall.
    Mr. Hall. Yes, except that hopefully we're going to have a 
situation where we're not going to lose jobs, as I have 
listened to various speakers talk about here today.
    Senator Markey. There is always destruction. You know, when 
they invented the ``talkies,'' all the piano players in the 
silent movie theaters all lost their jobs. OK? So you just 
think time moves on and you have to just make sure that you've 
got a plan in place to ensure that that kind of protection is 
there.
    These vehicles are obviously already computers on wheels, 
and they're going to continue to accelerate in that direction 
as the technology deploys. But obviously there are going to be 
vast opportunities for cyber threats to be launched against 
these vehicles since they'll just be computers for all intents 
and purposes.
    Mr. Hall, do you believe that we should proactively develop 
robust mandatory regulations so that these vehicles are 
protected against cyber attacks as they are moving down the 
streets of our country?
    Mr. Hall. Oh, I absolutely do, and that's one of the 
biggest concerns that I have. As I said earlier, the Teamsters 
union has worked with companies and industries around all over 
this country on innovation and to make companies more 
competitive. But in this case, and particularly the case of the 
cybersecurity, it is terrifying to me to think that we've got 
tractor-trailers rolling down the road that can be hacked, and 
to say that they can't be in today's world--and that's one of 
the things that I think there has to be more--there has to be 
more information, more studies, to ensure that we're not going 
to have that issue because, you know, no one thought we would 
have the credit card issue we've had in the past week where 
millions of people's information has been--has been made--or 
become public. We didn't think----
    Senator Markey. I agree with you 100 percent, but, in fact, 
we were warned about all these things, that they can happen. 
It's not so Equifax didn't know that it could happen. It's not 
as though the auto industry right now doesn't know that these 
vehicles can be hacked. It's all there, and I think the 
warnings are there. And I agree with you, Mr. Hall, we need 
those.
    Do you agree with that, Mr. Spear, that we need mandatory 
robust protections that are built in as rules of the road going 
forward?
    Mr. Spear. I think that's where we're headed. As we just 
got done discussing with Senator Blumenthal, I think the 
guidance, in his opinion, may be deficient, but it's a first 
step toward something much more robust. This legislation that 
you're now considering is a remarkable significant step toward 
formalizing the Federal role. So I think that's exactly where 
we're headed, and we know this is reality, it's not just cars 
and trucks, it's across the board.
    Senator Markey. I appreciate it. And that's why I've 
introduced the legislation the SPY Car Act, that directs NHTSA 
to establish cybersecurity protections for all vehicles. I've 
introduced that with Senator Blumenthal and others on the 
Committee. And I just think that we should be considering that 
at the same time we're talking about this new era unfolding.
    And, finally, on the issue of privacy, obviously, since 
they are computers on wheels, there's going to be a vast amount 
of information about all Americans that's going to be gathered 
as they are moving around this country. Do you think that we 
should be ensuring that this information which is gathered by 
the auto companies or by others about all of our individual 
habits, where we go, what we do, all the information that can 
be gathered as these computers are being used, that they should 
be able to be reused and resold as information without the 
permission of the family?
    Colonel Hernandez.
    Colonel Hernandez. You know, I really don't know that I'm 
qualified to answer that question. I think that perhaps that 
information may be out there with cell phones and others now, 
but I think that that's something that perhaps----
    Senator Markey. OK.
    Colonel Hernandez. Yes. Yes.
    Senator Markey. Do you have a view, Mr. Hall, whether or 
not we should be providing privacy protections for people to 
make sure that information is protected?
    Mr. Hall. Well, I do think that. I mean, I think there's no 
question that we continue to see--I mean, we're talking about 
protecting people's privacy involves a lot of things including 
getting involved in their--when you're talking about getting 
into someone's personal life, you're talking about their 
personal finances, you're talking about a lot of issues that we 
have seen just recently that is major problems that we have to 
protect against.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you to the witnesses today.
    Colonel Hernandez, welcome to the Committee. I know you've 
served Colorado State Patrol over 30 years, and we're grateful 
for your service and leadership, so thank you.
    Colonel Hernandez. Thank you very much.
    Senator Gardner. Thank you. Colonel Hernandez, I don't know 
if you've marked the calendar yet or not, but February 19 is an 
important day in Colorado. It's Presidents' Day. It's a Monday. 
It's also a great ski weekend. Monday night, you know what 
happens, everybody is coming back to the airport, they're 
coming back home, they're going back to the Front Range. How 
many new tunnels through the Eisenhower Tunnel do you think it 
would take for us to adequately provide capacity for the number 
of vehicles that we'd see? You don't have to answer that 
question.
    Colonel Hernandez: Yes, it would take many new tunnels.
    Senator Gardner. Many, many tunnels. And we're just simply 
not going to do it. I mean, do you see autonomous vehicle 
technology, vehicle-to-vehicle technology, as a way to manage 
traffic through those chokepoints like that Presidents' Day ski 
traffic through the Eisenhower Tunnel?
    Colonel Hernandez. I believe that it might be the only way 
to manage that type of traffic.
    Senator Gardner. I agree with you, too. And I also want to 
commend you and your leadership again and talk about some of 
the toughest things that we've seen over the past several 
years. Trooper Cody Donahue was killed on I-25 by a vehicle 
that didn't move over when he was assisting another crash on 
the side of the road. Vehicle-to-vehicle technology, autonomous 
vehicles, could be used to assist in this type of a situation 
perhaps to avoid that type of accident. Could it be used that 
way?
    Colonel Hernandez. Absolutely. The technology is there to 
be able to do that, and I believe that in that case, very 
hard--hard on the agency and hard on me and hard on the family. 
And it could have been avoided. And I think that through this 
technology, it absolutely could have been avoided because there 
was a prior crash. And so often these are secondary crashes. 
And that takes the lives of many people, is that secondary 
crash. And I think that's one of the huge advantages to this 
type of technology both in cars and commercial vehicles.
    Senator Gardner. Yes. And so I think one of the challenges 
we have is not just, you know, whether we get there, if we get 
there, but it's how we do it in a way that manages safety, how 
we do it in a way that answers a very uncertain question for 
people of this country. One out of every 20 jobs in Colorado is 
a truck-driving job.
    And I grew up in a small town in the Eastern Plains of 
Colorado, and we have a lot of truck drivers there. And one of 
them came up to me one day and said, ``Did you see the truck 
delivery from Ft. Collins to Colorado Springs?'' that you 
talked about in your opening comments. And I said, ``Yes. 
Wasn't it great?'' And his response to me, a gentleman I've 
known my entire life said, ``Yes. What's going to happen to 
me?'' He's a truck driver.
    And I think we, as policymakers, we, in industry, we have 
to figure out how we're going to be able to answer that 
question of, What's going to happen to them? Because the answer 
isn't going to be, well, there are going to be fewer jobs and 
fewer opportunities; the answer is always, with the innovations 
that we have been able to achieve in this country, we're going 
to have progress, innovation, and more jobs than we've ever had 
before.
    But we've got to be able to figure out how to say that in a 
way that is helping people see that, understand that, and know 
that they're going to be OK, because until we can answer that 
question, ``You know what? You're going to be OK, and here's 
how,'' there is going to be an uncertainty, and it's going to 
be an unsettling part of people's lives and families.
    So we need help in being able to answer that question 
because the answer isn't, ``There is going to be less,'' the 
answer is, ``There is going to be more, and we're going to 
create more jobs as a result.'' The secondary impacts are going 
to be phenomenal, but how do we make sure that we can 
articulate it to a very uncertain American populace going 
forward? I'm excited about the future that we have here.
    Mr. Spear, one of the questions I have for you, though, is 
yesterday I had a hearing with the National Laboratory system, 
National Renewable Energy Laboratory, it's in Denver, and some 
of the other laboratory systems around the country, and we 
talked about the 11 million miles of high resolution data that 
fleet partners across the country have been able to help work 
with them and provide them.
    How do we get the information we need using some of the 
national assets we have, like the labs and others, to really 
move forward on a system of autonomous vehicles and the 
information, the safety information, we need to make this work?
    Mr. Spear. Well, I alluded to it a bit in my testimony, and 
I used FCC as a primary example. It's not just DOT and NHTSA, 
it's FCC, it's DHS on cyber, it's also EPA on emissions. There 
are a whole host of benefactor agencies at the Federal level 
that really need to be more squarely at the table on this, labs 
included. We work a lot with DoD, not just on cyber, but 
logistics and testing. There are a lot of good things that can 
be done on military bases to advance this technology as they 
can in states and localities where they have proving grounds.
    So we don't discriminate between either one of them, but we 
welcome everybody to the table because I think the more 
inclusivity that you have, the more robust this platform is 
going to be and easier to understand, not only from a 
legislative point of view, but from a regulatory point of view.
    So I think the inclusivity of the labs and the agencies, 
not just DOT, need to be squarely at the table and drive the 
outcome, and if the legislation can speak to that, I think that 
would be a very good thing.
    Senator Gardner. Yes. Well, thank you very much for all of 
your time and testimony today.
    Colonel Hernandez, again thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair, and thank you 
to the panelists. Very engaging important discussion today.
    So, Mr. Spear, let me start with you and make sure I 
understand what I'm hearing today, is that you would be 
comfortable if we passed Federal legislation that only went to 
a Level 2 authority. In other words, what I mean by that is it 
limited any type of future technology for specifically to 
driver-assisted technology Level 2, and we didn't open the door 
to a Level 5, a driverless technology, for commercial trucks. 
Is that correct?
    Mr. Spear. Well, Senator, let me stipulate that I'm not 
suggesting the Committee, you know, earmark at the Level 2 or 
3. That's the reality of where we see things for the 
foreseeable future, driver-assist; not Level 5, driverless. So 
if that's acceptable, that reality, that, to us, is not a 
threat not only to driver displacement, but it's actually a 
catalyst to a lot of beneficial things, to safety, 
productivity.
    But Levels 2 and 3 are really where we see the technology 
for the foreseeable future. If the legislation speaks to that, 
I mean, that's a decision you all make, but we just don't 
believe displacement or Level 5, no steering wheel, no pedals, 
is in the foreseeable future. So that's kind of the world and 
the perspective that we're approaching this.
    Senator Cortez Masto. So if we were to limit it to Level 2 
and Level 3 because you don't see that in the foreseeable 
future as driverless, and we want to make sure that we're 
addressing that worker displacement, but also the cybersecurity 
issues that we all have concerns about and understanding it, as 
well as addressing the safety on the roads, you would be 
comfortable with that Federal legislation.
    Mr. Spear. Absolutely.
    Senator Cortez Masto. And, Mr. Hall, would you be 
comfortable with that Federal legislation if we were to limit 
it, particularly when it comes to commercial trucks, to just 
driver-assisted technology and understanding the evolution of 
that driver-assisted technology for commercial trucks?
    Mr. Hall. Well, I certainly would be. I would be happy to 
see that type of limitation on it. But by the same token, I 
also think that we have to address the many safety concerns 
before we make any of these changes.
    Senator Cortez Masto. And so when you talk about the many 
safety concerns, that is including the worker safety concerns 
as well as the discussion we've had today, correct?
    Mr. Hall. Correct.
    Senator Cortez Masto. OK. So let me just say this is an 
important discussion, and I think for all of us, the challenge 
is going to be how we balance the emergence of this new 
technology that, Mr. Spear, you said is happening, there's a 
demand for it, and it is going to happen whether we are part of 
this discussion or not. And then how we balance that with 
worker protections and worker placement because the last thing 
that--I can't speak for all of my colleagues, but I would 
imagine is that worker displacement. I mean, it would harm our 
economy, it would harm our workers, it would harm our jobs. 
That's not what we're trying to do here. So there has to be a 
balance that we find. And that's what I'm hoping everybody will 
come to the table and help us at a Federal level find that 
balance to work together to have not only the ability to 
embrace this new technology, but address the worker issue and 
worker displacement to make sure that does not happen. So do 
you think there is an ability to work together to do that, Mr. 
Hall and Mr. Spear?
    Mr. Hall. Absolutely. I think there's an ability to do 
that.
    Mr. Spear. Yes, I do.
    Senator Cortez Masto. Thank you. Thank you. And so the 
reason why I am really excited and interested in this space is 
because there is a lot of work that is happening in Nevada 
right now, as you well know, with this new technology both for 
autonomous vehicles as well as for driver-assisted trucks. I 
think it is the future and we need to embrace it, but we need 
to put those guardrails in place for protections that we've all 
talked about today.
    I know just in Nevada, the Regional Transportation 
Commission of Washoe County right now is currently testing and 
taking data on autonomous bus that will move many of my 
constituents back and forth throughout the region. And anyone 
that's followed this issue knows that autonomous vehicles and 
the future of transportation relies on technology and 
connectivity. That's why I am excited to be able to be 
introducing legislation to promote smart cities and 
communities.
    My bill will ensure that the Federal Government provides 
the seed money for public-private partnerships to implement 
integrated transportation systems in cities and rural 
communities throughout the country. My colleague, Senator Burr, 
is lead sponsor on this. I'm very excited to work with him. 
That is our future, the Internet connectivity of things, and I 
want to make sure we're in that space of that innovation.
    I think we can address the security issues, Ms. Hersman, 
that you've talked about, and the safety on our roads, Mr. 
Hernandez, as well, but at the same time, make sure we're 
training that workforce for the future, we're involving them in 
this discussion when we're talking about the new technology.
    So thank you for the conversations today. I really 
appreciate it.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    The reason you're experiencing some redundance in the 
questions that are coming is that we have about 50 percent of 
the members of this Committee are also on the Committee called 
the Environment and Public Works Committee, and so we find 
ourselves having to go back and forth, and it's very difficult.
    The question that was asked--and, Mr. Clarke, let me first 
of all say how much we enjoy you as citizens of my city of 
Tulsa. And I've been in your operation many times, and it's a 
great benefit to us, and I appreciate your presence and all the 
contributions you've made to our local communities very much.
    When you were asked by Senator Wicker some things I think 
are kind of interesting, that is, where are we--now, if it's a 
difficult question to answer, I'll only ask you and not the 
rest of you, but the rest of you, there's an assumption by the 
American people that we're always number one, we're always the 
first there, and I know I served as Ranking Member of the 
Senate Armed Services Committee.
    We know that there are many countries out there that are 
developing missile technology and other things that we're 
really not always number one. But in this, this is something 
that's new, and I'd like to know if it's--I think it's 
appropriate to ask each one of you, where are we right now in 
terms of other countries? We've heard Germany, Japan, China, 
other countries that are advancing. Where are we in the midst 
right now?
    You've already answered that, Mr. Clarke, but some of the 
rest of you.
    Ms. Hersman. When it comes to fatalities, we're trailing. 
The rest of the industrialized countries have made more 
progress in the last 2 decades----
    Senator Inhofe. No, no, I'm talking about this technology, 
the subject of this meeting today, where we are.
    Ms. Hersman. Right. So the other countries have made more 
progress, and some of that is because they have embraced 
technology. So things like automatic emergency braking, not 
required here on trucks. Looking at that in Europe, so they 
have that in Europe. When we look at automated enforcement, 
again, other countries are embracing some of these technologies 
at a more rapid clip than the United States.
    Senator Inhofe. Yes. Anybody else, any thoughts on that? 
That explains the European. And anything else? I'd like to know 
because we get asked these questions. What are the other 
countries doing?
    Mr. Spear. Well, we do benchmarks, Senator, with what our 
colleagues in Europe are doing. We think the proving grounds 
and the development at the local and state level here in the 
United States is a bit more advanced. And I think that's in 
large part to the environment. We're seeing multiple states and 
communities stepping up to really attract innovators to their 
state and cities.
    So I think smart cities were mentioned as well. We're 
creating those environments where technology can be tested in a 
safe way. That's a good thing. And I think those things, those 
investments, are going to accelerate the adoption of the 
technology.
    Senator Inhofe. That's fine. I understand that. Now, when 
Senator Markey asked the question, it was kind of presumed that 
this mass exodus of jobs in America, and so it's a difficult 
question for you just to answer yes or no to. So I guess I 
would like to have a comment from each one of you because I've 
heard from this Committee that there are some arguments that 
we're actually going to be employing more people, we're getting 
into other technology. But how do you see us? And when this 
washes out, are we going to have the massive job declines that 
were kind of assumed in the question that was asked you? Would 
you comment to that?
    Colonel Hernandez. I think I struggled with that 
straightforward question just because I start thinking about 
the number of lives that we've lost on our roadways and our 
highways and how to reduce that. And then just that I'm not the 
subject matter expert on that key point, but primarily driven 
by our goal to get to zero and what that will look like.
    I will tell you from a law enforcement perspective, I've 
been involved for 30 years, like the Senator said, and every 
time we get more technology, it seems--it definitely seems to 
take more people than less to manage those technology systems.
    Senator Inhofe. Yes. Any other comments on that?
    Mr. Spear?
    Mr. Spear. I would say that, you know, the type of job 
description that we're going to see in the next 20 years for 
drivers and technicians is arguably going to make, you know, 
these employees more marketable. They're going to be better 
skilled. They're going to be better trained. Employers are 
going to be investing a lot more in their capabilities to make 
certain that this equipment is up and running and done in a 
safe way. So we're already facing a shortage. The reason I 
answered no to that is because we simply don't believe that 
this is a displacement issue.
    Senator Inhofe. Yes. Yes. Well, from your perspective, the 
last thing I wanted to ask is, do you believe that heavy trucks 
should be included in the drafting of the legislation?
    Mr. Spear. Absolutely, Senator.
    Senator Inhofe. OK. Does anyone not believe that, that want 
to speak out on that issue?
    Mr. Hall. I don't believe that it should be part of this 
current legislation because--and I don't want to oversimplify 
this, but, you know, all the discussion has been about 
passenger vehicles, and I think we have to recognize that there 
is a vast difference between a 4,000-pound car and an 80,000-
pound vehicle.
    Senator Inhofe. Yes, you made that point, and I appreciate 
that very much. Do the other three of you somewhat agree with--
mostly agree with Mr. Spear?
    [No audible response.]
    Senator Inhofe. Yes. All right.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Inhofe.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Well, thank you, Mr. Chairman, and thanks 
to you and Senator Peters for all your work on this issue.
    And thank you to the panelists for being here today.
    There is no doubt that automated vehicles have tremendous 
potential to save lives and reduce the nearly 4,000 deaths 
caused by large truck accidents each year and the over 30,000 
annual vehicle fatalities on our nation's highways. But what's 
less clear to me, and I think what you're hearing some 
questions about, is how we can guard against potential harms of 
this technology from in- and out-of-state actors who are 
looking to harm us. I don't want to trade one set of harms for 
another.
    And I will tell you, I spent some of my homework period 
visiting summer camps in New Hampshire, and I was visiting one 
a couple of weeks ago, and it was for a group of adolescents. 
And they wanted to know what a Senator does. And I talked a 
little bit about the work of this Committee and said that this 
Committee had jurisdiction over automated vehicles, for 
instance, some legislation around it, and described what the 
future technology looks like. And within seconds there were 
kids, 13, 14 years old, raising their hands going, ``Do you 
know how easy it would be to hack those?'' And since they're 
the digital natives among us, I tend to listen to young people 
when they talk to us about technology.
    So I am very concerned that we're all assuming that there 
are going to be levels of cybersecurity built into this 
technology when, to Senator Markey's point, we've seen in all 
various industry sectors that sometimes we think about 
cybersecurity after the harm is done. And given the lives at 
stake and the potential of out-of-state actors who want to use 
vehicles now for a different purpose, I am very concerned that 
we get the cybersecurity right at the frontend and not wait for 
something bad to happen.
    We also know that there are critical thinking components to 
operating a vehicle that I'm not sure translate to automated 
machinery just yet, which I think is why we're seeing the 
different levels of automation described in this legislation.
    But to all of you, if trucks are added to this bill, what 
more could be done beyond the bill to guard against potential 
cybersecurity risks of automation?
    Colonel Hernandez. I'm not a cybersecurity expert, but I 
would just say that it makes a lot more sense to me to make 
sure that it's incorporated so that autonomous vehicles are 
secure, whether it's a car or a commercial vehicle.
    Senator Hassan. Thank you.
    Mr. Clarke.
    Mr. Clarke. Actually, Senator, a great question and great 
topic. It is--this whole issue around cybersecurity is an 
immediate issue and it is an issue now in our industry. Both 
Navistar as well as all of my competitors and the people in the 
industry currently have some number of connected vehicles. 
Probably in the neighborhood of 40 percent of the vehicles that 
are on the road today are connected telematically. And we do 
different things. We offer services. We provide updates to some 
of the control software. So this is an immediate need for us 
today.
    I would say the recognition of these needs has energized 
our industry to work together like few things that I have seen. 
We are committed to get it right, and we will not go to market 
nor test without the proper--without the proper safeguards. We 
welcome the oversight of the regulatory bodies in that 
particular space. We would say it is a rapidly changing area. 
We don't believe that the right thing is to mandate the 
technology, but certainly we stand ready and willing to 
participate in the regulatory process to provide the right 
safeguards.
    Senator Hassan. Well, and because my time is running low, 
I'll ask the rest of the group to address it, but just would it 
make sense to have a set of standards that everybody had to 
meet in place?
    Ms. Hersman?
    Mr. Spear. Senator, I think that's what we're trying to 
work toward even without legislation. The commercial sector as 
well as the automotive ISAC, which is up and running for a 
couple years now, really developing protocols that are seamless 
across both autos and commercial vehicles, and I think it 
really, you know, speaks to why trucks being part of this 
legislation is important, so that you get that seamless 
protocol.
    Senator Hassan. Ms. Hersman?
    Ms. Hersman. I would say there were earlier questions about 
the voluntary nature of what's going on now. This is exactly 
why this body needs to get involved. If we don't like what's 
happening out there, it's because people don't feel like they 
have the authority or the direction. And I think it's really 
important for you all to set at least some of those high bars, 
set that floor and say where you want folks to go. They can 
figure out how to do it. But we don't have anything now. And so 
it is a bit of the Wild West out there, and there needs to be a 
sheriff. And I think the opportunity to do that is through 
having these conversations and this legislation, not putting it 
off.
    Senator Hassan. Thank you. And with the Chair's indulgence, 
Mr. Hall, quickly.
    Mr. Hall. Absolutely I think there needs to be regulations, 
and I think there needs to be strong regulation, because while 
there are certainly reputable companies, including people who 
are represented here in this hearing today, there are bad 
actors out there, and we have repeatedly seen that, where, you 
know, with the Volkswagen scandal. If that happens with 
cybersecurity, we have got a huge problem. And I guess the 
thing that I see is perhaps, as they say in West Virginia, 
we've got to make sure we're not getting the cart before the 
horse.
    Senator Hassan. Yes.
    Mr. Hall. We need to ensure the stability and safety of 
these vehicles before we start rolling them out and approving 
legislation to put them on the road.
    Senator Hassan. Well, thank you.
    And thank you for your indulgence, Mr. Chair. I'll put some 
questions into the record about workforce training. Thanks.
    The Chairman. Thank you, Senator Hassan.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. And thank you for 
the hearing. I haven't been in the entire time, but you've got 
a great panel because you've got two West Virginians on the 
panel, Ms. Hersman and Mr. Hall.
    [Laughter.]
    Senator Capito. So I know we're in good hands.
    I just recently returned from a trip to Israel, and when 
the question was asked, ``What countries are really at the 
cutting edge?'' they talked a lot in Israel about self-driving 
and automated vehicles, and I think they have--they have a very 
small, very flat country as well, but I think they're really 
working on the technologies there. So I wanted to bring that 
up.
    I have a question, and it may be that I'm off kind of on 
how these things really work. So, Mr. Clarke, this is directed 
at you. We live in a state that has spotty connectivity, even 
on our main arteries, through even our wireless on our 
interstates, you know, it cuts in and out. And I have some 
concerns that if we move forward on this or as the technology 
moves forward, how much connectivity in all the different areas 
plays into being able to run this efficiently and safely. Could 
you speak to that, please?
    Mr. Clarke. Yes. Thank you, Senator, for the question. The 
basic autonomous system on a vehicle is intended to, in fact, 
drive in a very autonomous way. It does not have to be a 
connected vehicle to be an autonomous vehicle. It operates with 
a very detailed 3D map. It's looking and comparing using 
cameras and LIDAR detectors and making constant comparisons to 
what's in its memory, looking for things that aren't there, and 
then making decisions, are those objects moving or are those 
objects fixed? And then what decisions should be taken, not the 
least of which is, ``I think I don't understand, I'm just going 
to pull over.''
    And so even in a non-connected environment, the vehicles 
can operate autonomously. Their safety efficacy is 
significantly enhanced when they do operate in a connected 
fashion, either connected to other vehicles or connected to 
portions of the infrastructure, or, in many cases, for our 
testing purposes, connected back to us, so that we can collect 
that data that can be used by regulators and analyzed for 
future purposes.
    Senator Capito. Well, you mentioned in your previous 
question that 40 percent of your trucks were connected 
telematically. What is--when you say ``telematically,'' what 
are we----
    Mr. Clarke. Yes. So I'd like you think about it that the 
truck itself has a cell phone, you know, and like every couple 
of seconds, it's sending us a message on the condition of all 
the mechanical systems on the vehicle.
    Senator Capito. OK. So through the wireless.
    Mr. Clarke. Yes.
    Senator Capito. Yes. OK. Thank you.
    Mr. Hall, on the concerns about the workforce impacts, 
obviously in West Virginia, we have a lot of trucker drivers. 
It's a great occupation. I notice as we're looking at the 
different levels, in the, I don't know, Level 1 to Level 4, 
there is somebody in the car that's being--or in the truck. But 
I started thinking, so why is Mr. Hall worried about if you're 
going to have a Teamster in the truck anyway? Do you envision 
that it's a lower paying, lower type job, it doesn't have maybe 
the same beginning salaries that somebody who's a member of the 
Teamsters might have? I mean, is that your concern? Because it 
looks as though, at least from the very beginning, and except 
in very urban situations, there is somebody in the vehicle.
    Mr. Hall. Well, that's obviously one of my concerns. I 
mean, first, yes, we don't want to see--just, you know, it has 
been mentioned here today that some comparison to we still have 
pilots in airplanes even though they're very much automated.
    Senator Capito. Right.
    Mr. Hall. And so certainly it's a concern of ours because 
people make a good living doing that. But also our concern is 
the safety of the drivers as well as the general public in 
saying that it shouldn't be--we don't believe that you should 
just include 80,000-pound trucks without further study. I mean, 
I don't think you can say because we've been talking about 
automobiles that then it just makes sense.
    I mean, it's no more than--you know, I bought my grandson a 
BB gun, but I don't think that means that I should give him a 
high-powered rifle because he's learned to shoot a BB gun. We 
need to make sure that we're taking the time to look at some of 
the aspects that are so much different about trucks than they 
are automobiles.
    But you are right. I mean, one of my concerns is that there 
be regulations so that we don't have those bad actors who--I 
mean, most of the companies that we deal with are up front and 
do the right thing. We don't want bad actors who are putting 
people on the road at the low end, the lowest cost, at the risk 
of safety for the general public.
    Senator Capito. OK. You know, it's hard to imagine living 
in the terrain that we live in that an autonomous vehicle--
there are certain places I am not getting in an autonomous 
vehicle to go up to my house, I can tell you that. It's a 
pretty windy, windy road. So there are lots of areas where this 
is not going to work.
    But, Ms. Hersman, let's just take I-81. I don't know what 
the percentage of truck traffic is on that piece of highway, 
but it's enormous. How do you see this technology evolving in 
terms of safety on a very crowded highway like that that's 
pretty high speed?
    Ms. Hersman. So I think that's a great example because 
that's exactly the kind of corridor where I think this 
technology could work the best: very predictable, repeatable, 
you've got good coverage, you've mapped it out, it's not 
unknown. And those are the kinds of spaces where I think 
vehicles can talk to each other. It's a very controlled 
environment. You've got widely spaced lanes. You've got 
shoulders where people can pull over. That environment I think 
is probably one of the spaces where we're talking about using 
technology like this first.
    It could control speeds. I'm sure if you drive on 81, there 
are some speed racers on that road. In addition to it being a 
truck alley, there are a lot of people moving really quickly. 
We can look at a lot of safety issues that can be addressed 
through this technology, traffic flow management, but safety is 
the first and most important thing.
    Senator Capito. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Capito.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    I would like to quickly recognize our two Illinois natives. 
So good panel. Ms. Hersman and Mr. Clarke, welcome to the 
panel.
    And just briefly touching on what Mr. Hall just said, I 
think the name ``Captain Sully Sullenberger'' and the ``Miracle 
on the Hudson'' is a great example of the importance of a human 
being decisionmaker at the controls of any type of large 
vehicle.
    With the advent of Level 3, 4, and 5 technologies, I think 
we face a truly game-changing opportunity and associated 
challenges as well. You know, in my own lifetime, there have 
been few technologies with more potential to improve the 
mobility and independence for individuals with disabilities 
than autonomous vehicles. It would be freeing for those with 
visual impairments, for those that are unable to drive, to be 
able to actually leave their homes and gain mobility. Clearly, 
the potential to greatly reduce the 30,000 annual roadway 
fatalities is also truly exciting. I do know that we should 
expect growing pains and unintended consequences.
    What I'd like to focus my discussion on is on how 
autonomous vehicles would challenge our existing transportation 
infrastructure and what that means for our local municipalities 
and states, and also the future of labor.
    So, Mr. Clarke, what existing and future infrastructure 
considerations should manufacturers take into account when 
designing vehicles at Level 3 and above?
    Mr. Clarke. Yes. That's a great question, Senator, and it 
certainly reflects your understanding that commercial vehicles 
actually operate in a system or an environment that includes 
the infrastructure, things such as not just the highways, but 
entrants and exits, you know, toll plazas, even something as 
simple as, where can a vehicle pull over during an application?
    What's exciting about this opportunity is that we can 
concurrently discover, as we're validating the technologies, 
those cost effective or the most cost-effective methods to get 
at what will ultimately be some infrastructure needs. As the 
point has already been made, autonomous vehicles, even the most 
sophisticated, if everything were perfect, are probably just 
not suited to some roads in America or some circumstances, but, 
you know, they are suited to a number of other places as well. 
Things like, you know, we've already talked about vehicle-to-
vehicle communications, but we can talk about vehicle-to-
infrastructure communication where the road itself--OK?--and 
its condition can talk to the vehicle for incidents that maybe 
are miles and miles in advance.
    And last but not least, look, these technologies, you would 
only think of deploying these technologies in the immediate 
term in a place where the vehicle always has available to it 
the ability to pull itself over and stop, which kind of 
dictates it's riding in the right-hand lane. And so now we have 
to reassess the capacity of, you know, that particular 
thoroughfare because all of the trucks will be in the right-
hand lane. They will be traffic and speed controlled, but it 
always needs the ability to pull itself off. Or in the case of 
platooning, which we talked about previously, ``decel'' lanes 
on freeways or limited access highways may need to be extended 
so that entire pelotons of vehicles could pull over and still 
leave room for passenger vehicles to navigate their way off the 
highway as well.
    And then last but not least, another very simple example 
would be the vehicle needs to be driven once it gets off the 
highway, and perhaps at that point in time, there will be the 
need for marshalling areas or cross-docking facilities or the 
ability to pull the vehicle over very close to an entrance or 
an exit to make the right inspections, to create the right 
certifications, so that we know that the vehicle is capable of 
performing the next challenge, so to speak, in its task.
    So the opportunity to bring this technology in a very 
controlled manner for the purpose of developing data that will 
fuel regulations and infrastructure research is the exact 
opportunity we look forward to. I think I speak for our entire 
industry.
    Senator Duckworth. Thank you. And I think it's important to 
talk about the point beyond getting off of the interstate, off 
of the major roadways as well, because in many of our 
municipalities, the roads through cities and towns into the 
industrial areas, into those loading docks, are, you know, 
1960s and 1970s era, very narrow. There is simply--there is 
nothing to replace a human being to negotiate through those.
    And, Ms. Hersman, I think everyone agrees that the safety 
potential of AV technology is enormous. And from a safety 
perspective, could you speak to this infrastructure challenge 
for states and municipalities in terms of accommodating future 
AV technologies?
    Ms. Hersman. I think on this issue it's really important 
for states and municipalities, oversight agencies, licensing 
agencies, all of them need to have a seat at the table. When we 
look at what's happening now, it's happening in controlled 
environments. They need to be notified of testing that's going 
on in their states so they know how to respond. But there may 
also be changes in design that we need to do going forward.
    We talked about V2I, vehicle-to-infrastructure. We have a 
lot of grade crossings in Illinois. That's a great opportunity 
to kind of connect industries. And so how do we keep from 
having grade crossing fatalities? Likewise, we've seen 
pedestrian and cyclist fatalities going up very significantly. 
How do we ensure that we're thinking about all road users and 
not just--we're talking about trucks and cars today, but there 
are a lot of other fatalities that occur on our roadways.
    I think states and municipalities have to be at the table, 
whether we're talking about lane markings and how we have 
systems that interact with each other, or about the rules of 
the road that we set.
    No one has really talked about consumer education. One of 
the biggest challenges that we have is, how do people 
understand how these vehicles are behaving? Whether it's a 
large truck or whether it's a car, really important to bring 
people in the loop, and I think the state and local leaders 
have a role in that.
    Senator Duckworth. Thank you.
    I yield back, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator Duckworth.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thanks for 
this hearing.
    I wanted to ask Mr. Clarke, you know, obviously the 
SuperTruck program, which is both about moving forward, you 
know, more from an efficiency perspective. I know PACCAR, in 
our state, was awarded one of the DOE for developing more fuel-
efficient engines. How do you see these two things working 
together in the challenges we face on competitiveness of moving 
U.S. products and keeping costs down? How is increasing fuel 
efficiency and automation going hand-in-hand?
    Mr. Clarke. Yes, Senator, thank you so much. Boy, I 
couldn't have asked for a better setup. You know, all of the 
major truck manufacturers in America participated in the DOE 
SuperTruck program. And as a program itself, the SuperTruck 
program, how it was managed, it was managed in an outstanding 
way that created the very technologies that we're putting on 
our vehicles today to improve not only their efficiency and 
operation and how clean they are in the environment, OK, but it 
really gave us a test bed to test many of these connected 
technologies and many of the--well, for instance, many of these 
ADAS technologies that, you know, are, in fact, the basis of 
autonomous vehicles going forward.
    So, for instance, in our SuperTruck program, we had such a 
successful experience with collision mitigation and avoidance 
that in the middle of the program, we decided to put it on our 
brand-new tractor, called the LT, and we made it standard. So 
collision mitigation is standard. You can delete the option if 
you so choose, but surprising to us, the take rate on that has 
been 35 percent. And, in fact, those vehicles who are equipped 
with collision mitigation and mitigation style braking, already 
proven that they would suggest 24 percent reduction in those 
type of accidents, the very accidents that it was intended, you 
know, to avoid.
    So it does--it did give us confidence to move forward with 
that technology in a test platform where we could do it outside 
of the commercial venue. And I would highlight that the 
SuperTrucks were all tested on highways. And so we were able to 
test it with--in multiple customer environments all across the 
United States, and, again, it gave us this rapid validation and 
feedback that let us do something really good, not just 
commercially for us, but, you know, we think for the drivers as 
well.
    Senator Cantwell. Well, it's kind of hand-in-glove, right?
    Mr. Clarke. Yes.
    Senator Cantwell. I mean, it's not just, you know, are you 
going to have automated trucks? It's, what are the efficiencies 
you are going to drive into trucks for reducing costs? And when 
we see this from the aerospace industry, huge wins in the 
marketplace because the customer wants a more fuel-efficient 
plane. And I would just assume driving down the cost in these 
fuel areas and efficiency areas also give you a more 
competitive advantage when you're out there marketing cost of 
moving product.
    Mr. Clarke. Yes, Senator. This is a--you know, ours is a 
highly regulated business environment, you know, that is aimed 
at safety, efficiency, and, you know, basically clean products 
in the environment. There are no better safety regulators in 
the world than NHTSA and the Federal Motor Carrier Safety 
Administration. We have historically worked together to not 
only bring products to the market that improve safety, reduce 
operating costs, but create a cleaner environment.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Peters.
    Senator Peters. Well, thank you, Mr. Chairman. Thank you 
for letting me have another round here. I appreciate your 
indulgence.
    And again thank you to our witnesses here today.
    Ms. Hersman, the Advocates for Highway and Auto Safety have 
expressed concerns to my office about including trucks in this 
legislation, and they have recommended several ways that 
Congress, the DOT, NHTSA, FMCSA can ensure safety of highly 
automated trucks. So they have a little different perspective 
or at least are raising a number of I think are important 
issues. And I would certainly welcome your thoughts on some of 
the issues that they have raised.
    The Advocates for Highway and Auto Safety believe that 
automated trucks that do not comply with Federal Motor Vehicle 
Safety Standards should not be subject to exemptions. Would you 
agree with that?
    Ms. Hersman. Are you talking about for testing 
environments? I think that if we have very specific geofenced 
testing environments, we want to think about how we're--what 
we're testing, what equipment we're testing. But I do think if 
they're operating out on the roads with the public, they need 
to be subjected to the same standards as other vehicles out 
there.
    Senator Peters. So I guess that's in agreement with that 
stand.
    Ms. Hersman. Yes. But I would say, you know, certainly when 
we look at test environments, I mean, we talked about a 
situation where we had a unique test, and they created specific 
parameters around it. So I would say we have to sometimes put 
technologies and systems out there if we're testing them to 
understand what it's like in the real world. It's important not 
to say we wouldn't want to allow anything, but I think we have 
to have major controls around those things.
    Senator Peters. Fair enough. Have you considered what would 
be an appropriate number of exemptions for highly automated 
trucks going forward?
    Ms. Hersman. I think that it's possible. I know the 
Committee has a number. And I really think you could think 
about a pro rata share based on the number of vehicles that are 
out there, passenger vehicles versus commercial vehicles. I 
think certainly it's in the purview of the Committee to put 
that out there. But what we're talking about as far as fully 
automated vehicles, we're just not seeing those numbers now.
    Senator Peters. Well, under current law, current law allows 
2,500. Would 2,500 be sufficient for trucks? And I guess my 
understanding is there are about 300,000 produced in the 
country versus 17 million automobiles. Is 2,500 sufficient?
    Ms. Hersman. I'm not sure that 2,500 is the right number. I 
might defer to some of my colleagues who have more real 
experience with respect to putting vehicles out on the roads. 
But I think it's really important for this Committee to engage 
in this issue and set some guidelines and some escalation for 
how that could occur in a thoughtful way because right now 
there are none.
    Senator Peters. Right. We allow the 2,500 under current, 
but if we change that, we obviously need some thoughtful 
consideration of that, and get some data and evidence to 
determine that. I appreciate that answer.
    The Advocates for Highway and Auto Safety also believe that 
automated trucks must have an operator with a valid commercial 
driver's license while in the vehicle at all times, and are 
advocating for the Secretary to issue a standard for driver 
engagement. Does the National Safety Council have 
recommendations for ensuring that an operator is behind the 
wheel?
    Ms. Hersman. So I would say--you're asking me about other 
folks' recommendations? I can absolutely share with you what 
some of our recommendations are.
    Senator Peters. Is that one of your recommendations?
    Ms. Hersman. I think for us, we do feel, depending on the 
level of automation, there absolutely needs to be a qualified 
driver behind the wheel. And one of the things that we haven't 
talked about that this issue goes to, that the Advocates are 
raising, is I know we talked about displacement and training 
programs, but I think what we really need to talk about are 
training programs going forward, making sure that there are 
opportunities for people to be qualified on advanced 
technologies.
    I held a commercial driver's license. There are 
endorsements for those licenses, whether it's air brakes, 
school bus, passenger endorsements. I think it's important for 
us to think through technology as we advance. How do we train 
and qualify people for advanced technology? Because these 
systems are going to be complex and it's going to require a 
different set of skills.
    Senator Peters. Well, that's actually related to I think my 
next question, so I think you're ahead of it, because the 
Advocates raise concerns about driver training, as you just 
expressed, and they believe that drivers operating a highly 
automated truck must have additional endorsement on their CDL 
to ensure that they have been properly trained to monitor and 
understand the operating design domain of the vehicle, and if 
need be, take over the control of that highly automated truck. 
They believe this training should include a minimum number of 
hours behind the wheel, and it sounds as if that's the 
direction that you're going to. That's something we need to 
think through.
    Ms. Hersman. I absolutely think as long as human beings are 
engaged, we have to make sure that we do it safely. I know 
everyone is talking about Levels 2, 3, 4, 5, but I would posit 
that one of the most dangerous environments are when a human 
being and the vehicle are sharing control. And how we handle 
those handoffs and how we structure the notifications, the 
warnings, and the training are very important. This is where 
we've seen in the aviation industry mode confusion, 
overreliance on automation. These are really important 
conversations for us to have, even about Levels 2 and 3, before 
we get to 4 and 5. It's going to be a very messy environment, 
and we need to talk about those things.
    Senator Peters. Yes, absolutely. I agree.
    And just one final point, Mr. Chairman.
    They are also suggesting that motor carriers using highly 
automated trucks should be required to apply for additional 
operating authority. Has the National Safety Council--have you 
considered that issue?
    Ms. Hersman. I think it's important that they apply for 
operating authority as they're required to do so today. I think 
it's really important for the Federal Motor Carrier Safety 
Administration to identify what that means. And they need to be 
part of the conversation with respect to vehicle standards that 
NHTSA is responsible for, but operations are completely within 
their purview. And I think, as we're saying, it's a new world 
out there. Everybody has got to come along and identify what 
that means.
    Senator Peters. Right. Well, I appreciate those answers. 
And it's clear we need to do a whole lot more thinking about 
this. And I appreciate your response. Thank you.
    The Chairman. Thank you, Senator Peters.
    And again thanks to our panel today. It has been great 
conversation and discussion, and I think it has shed a lot of 
light on important issues as we try and shape our bill, and 
we've been working, as I said, Senator Peters and I, and 
Senator Nelson and others on this Committee, for some time and 
trying to craft a bill that really does enable the technology 
to move forward and with maximum emphasis on safety. And so 
we're trying to figure out how to thread that needle.
    I would argue that it makes sense not to have two safety 
standards out there, one for trucks and one for automobiles, 
and that as we think about these things, we want to make sure 
that we're providing the safest environment for all motorists 
on the highways, but that's a point that we continue to talk 
about in terms of the final bill that we end up filing. So 
we've got a draft out there. I know many of you have looked at 
it, and we welcome your thoughts and your input and certainly 
the testimony this morning and the responses to the questions 
have been very, very helpful in that regard.
    And I would simply say for members of the Committee who 
have questions for the record, to submit those. And if we could 
have all of you respond within a two-week time period, it would 
be very appreciated. And we'll make all that part of the 
hearing record. So thank you again for being here.
    With that, this hearing is adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]

                            A P P E N D I X

             Op-Ed Contributor--September 12, 2017/05:00 am

       Self-Driving Truck Technology Is the Answer to Safer Roads

                              Gary Shapiro

    Over a century ago, trains moved freight across our Nation. When 
technology changed and cabooses no longer played a role in train 
safety, railmen fought for laws to require cabooses to be manned with 
unnecessary workers. This blip in our history of fully embracing 
innovation is instructive for our current debates over the shift to 
self-driving vehicles--technology that will save millions of lives and 
empower the elderly and people with disabilities.
    Today, trains and trucks compete to move freight. But trucking is 
one of the most dangerous jobs in America. In 2015, 745 drivers died on 
the road. This is roughly one-quarter of all workplace fatalities--more 
than any other industry. It comes as no surprise, then, that the 
trucking industry has struggled to hire drivers in recent years. The 
American Trucking Association says there were 48,000 fewer drivers than 
available jobs in 2015. And for qualified, active drivers, this means 
longer and more frequent trips to fill the gaps.
    Self-driving trucks will transform American commerce while 
dramatically improving road safety, They will revolutionize 
transportation--and also make it less expensive--letting companies send 
goods over long distances without worrying about whether a driver has 
the stamina for yet another marathon drive.
    This week, the Senate Commerce Committee is hearing arguments on 
including self-driving trucks in self-driving legislation. It's a tough 
question: There's no denying that in the long term, self-driving trucks 
will change the role and responsibilities of truck drivers. However, 
this will be a generational shift, not an abrupt displacement of 
drivers, and in fact, will likely improve conditions for them.
    Simply resisting self-driving trucks to protect existing jobs 
overlooks big problems the trucking industry now faces. And self-
driving trucks will reduce human error, increasing safety both for 
drivers and for the millions of Americans with whom they share the 
Nation's highways.
    Safety issues aside, keeping self-driving trucks off the road in an 
effort to keep drivers employed obscures the deeper problem. Innovation 
will always disrupt the job market. Trying to stop the tide of 
technology never works, and the time and energy spent resisting it is a 
Sisyphean challenge. A wiser effort is to adapt. In nature and in 
business, the winners are not the strongest or fastest, but the 
quickest to adapt to change. Self-driving vehicles will create new 
industries and new kinds of jobs. We'll need auto workers who know how 
to repair these new vehicles. We'll need tech workers to develop and 
update the software that powers these cars. We'll need construction 
workers to help prepare our infrastructure for the changes that self-
driving technology will bring.
    The good news is that we're already ahead of the curve. It will be 
several years--maybe decades--before we have the right legal and 
physical framework for total adoption to occur. We can--and must--use 
this time to prepare.
    This means staying technology-neutral--allowing all forms and 
models of a technology to emerge unhindered. Effective implementation, 
however, will require candid policy discussions. Government needs to 
act to ensure that legacy interests, including the different regulatory 
schemes for commercial and personal vehicles, do not wind up creating a 
patchwork of rules that delay the benefits of self-driving vehicles--
benefits that include a potential
    30,000 American lives saved each year.
    It also means that the public and private sectors must work 
together to create the necessary physical framework--and that means 
helping workers get the right skills to get the job done. We must focus 
on technical skills and develop apprentice programs. We must invest in 
STEM education from an early age to prepare the next generation to take 
the jobs of the future. We must also help those who are already in the 
workforce transition smoothly, teaching them how to navigate new 
technologies as older ones begin to retire.
    Self-driving vehicles are an exciting inevitability. Education--not 
protection--is the most effective way to deal with disruption. And in 
many industries, we should embrace technology to improve working 
conditions and make jobs easier.
    Let's get to work laying down the necessary systems and structures 
so that this technology can emerge without delay. With the right laws 
and the right strategies, our roads will be safer, our transportation 
less expensive and our workforce stronger because of it.

Gary Shapiro is President and CEO of the Consumer Technology 
Association. the U.S. trade association representing more than 2,200 
consumer technology companies, and author of the New York Times best-
selling books, ``Ninja Innovation: The Ten Killer Strategies of the 
World's Most Successful Businesses'' and ``The Comeback' How Innovation 
Will Restore the American Dream.''
                                 ______
                                 
                      Advocates for Highway and Auto Safety
                                                 September 12, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    Thank you for convening tomorrow's important hearing, 
``Transportation Innovation: Automated Trucks and our Nation's 
Highways.'' We are pleased that the Committee is considering the role 
of autonomous commercial motor vehicles (ACMVs) and urge you to adopt a 
strong regulatory framework for their development and deployment. We 
respectfully request that this letter be included in the hearing 
record.
    Advocates for Highway and Auto Safety (Advocates) supports the 
development of automated vehicle technology because it has the 
potential to significantly reduce crashes, including those involving 
large trucks and buses. Advancing proven technological solutions is 
especially critical given that truck crashes have skyrocketed in recent 
years. In 2015, 4,067 people were killed in crashes involving large 
trucks. This is an increase of more than 4 percent from the previous 
year and a 20 percent increase from 2009. Additionally, in 2015, 
116,000 people were injured in crashes involving large trucks. This is 
the highest number of injuries since 2004. Since 2009 there has been a 
57 percent increase in the number of people injured in large truck 
crashes. Moreover, in fatal two-vehicle crashes between a large truck 
and a passenger motor vehicle, 97 percent of the fatalities were 
occupants of the passenger vehicle. It is clear that this is a serious 
and growing public health problem that merits urgent attention.
    While Advocates sees great potential for fully autonomous vehicles, 
including CMVs, to be the catalyst for meaningful and lasting 
reductions in deaths and injuries, in the interim there are many 
effective technologies that could be implemented immediately. In 2015, 
Advocates filed a petition with the National Highway Traffic Safety 
Administration (NHTSA) seeking the issuance of a rule to require 
forward collision avoidance and mitigation braking systems (F-CAM), 
also known as automatic emergency braking (AEB), on trucks and buses 
with a gross vehicle weight rating (GVWR) of 10,000 pounds or more. The 
agency granted the petition in October of that year but, nearly two 
years later, no further regulatory action has been taken despite 
studies showing the potential to significantly reduce crashes, deaths 
and injuries. The agency should be required to expeditiously issue this 
rule.
    Additionally, Advocates has consistently supported the use of speed 
limiting devices for CMVs because high speed crashes involving CMVs are 
far more deadly than those that occur at lower speeds. As such, 
Advocates filed comments with the Federal Motor Carrier Safety 
Administration (FMCSA) and NHTSA urging that the devices, already 
installed on most CMVs, be turned on and set at a safe speed. These 
technologies are readily available and could be saving lives now if 
they were standard on every truck. Again, this is another truck safety 
rule that is needlessly languishing at the DOT. Both AEB and speed 
limiter technologies are already required as mandatory equipment on 
commercial vehicles in Europe. In fact, speed limiting technology has 
been required in the European Union for over two decades and AEB since 
2012. The European Union is far ahead in providing a safer operating 
environment for CMVs, while the U.S. lags behind as deaths in truck-
involved crashes skyrocket.
    The emergence of experimental ACMVs and their interactions for the 
foreseeable future with conventional motor vehicles demand an enhanced 
level of Federal and state oversight to ensure public safety. It is 
imperative that CMVs be regulated. If not, the development and 
deployment of ACMVs will be subject to the ineffective and 
unenforceable voluntary guidelines developed by NHTSA for new vehicles. 
Moreover, the FMCSA has not even issued voluntary guidelines for the 
operating rules to govern the safety of ACMVs once on the road. The 
lack of proper oversight clearly will have a negative impact on public 
safety. Some experts predict that automated technology will be placed 
in commercial vehicles before light passenger vehicles. The potential 
for an 80,000 pound truck using unregulated and inadequately tested 
technology on public roads is a very real and dangerous scenario if 
these vehicles are only subject to voluntary guidelines. In addition, 
automated passenger carrying commercial motor vehicles that have the 
potential to carry as many as 53 passengers will need additional 
comprehensive safeguards that will be unique to this mode of travel.
    In order to minimize major threats to the public and ensure that 
ACMVs are developed and deployed safely, they must be subject to the 
following essential provisions:

  <bullet> Each manufacturer of an ACMV must be required to submit a 
        detailed safety assessment report that details the safety 
        performance of automated driving systems and automated 
        vehicles. Manufacturers should be required to promptly report 
        to NHTSA all fatal, injury and property damage only crashes 
        involving ACMVs.

  <bullet> ACMVs that do not comply with Federal Motor Vehicle Safety 
        Standards (FMVSS) should not be sold and they should not be 
        subject to exemptions. Sales of CMVs in the United States do 
        not nearly equal passenger vehicle sales and therefore 
        exempting large numbers of CMVs from FMVSS is unnecessary for 
        the development of ACMVs and will result in a potentially 
        significant and unnecessary threat to public safety.

  <bullet> NHTSA must require that manufacturers of ACMVs meet a 
        ``functional safety standard'' to guarantee the safety of 
        ACMVs. This is a well-known process by which a product is 
        tested to ensure that, as a whole, it will function safely and 
        will prevent or mitigate defects or misuse which could lead to 
        unsafe conditions.

  <bullet> Any safety defect involving the ACMV must be remedied before 
        the ACMV is permitted to return to operation. The potential for 
        defects to infect an entire fleet is heightened with AV 
        technology. Therefore, manufacturers should be required to 
        promptly determine if a defect affects an entire fleet. Those 
        defects that are fleet-wide should result in an immediate 
        suspension of operation of the entire fleet until the defect is 
        remedied.

  <bullet> ACMVs must be required to meet a minimum cybersecurity 
        standard that should be issued by the Secretary within 3 years 
        of enactment of the legislation.

  <bullet> The Secretary should be required to establish a database for 
        ACMVs that includes such information as the vehicle's 
        identification number; manufacturer, make, model and trim 
        information; the level of automation of each automated driving 
        system with which the vehicle is equipped; the operational 
        design domain of each automated driving system with which the 
        vehicle is equipped; and the Federal motor vehicle safety 
        standard or standards, if any, from which the vehicle has been 
        exempted.

  <bullet> In the near term, rulemakings should be considered for 
        elements of ACMVs that may require performance standards 
        including human machine interface, sensors and actuators and 
        the need for software and cybersecurity standards. Standards 
        for ACMVs should be required to be issued by specific deadlines 
        set by Congress and before there is large scale deployment.

  <bullet> Manufacturers of ACMVs should be required to have in place a 
        privacy plan before an ACMV is sold.

  <bullet> For the foreseeable future, regardless of their level of 
        automation, ACMVs must have an operator with a valid commercial 
        driver's license in the vehicle at all times. Drivers will need 
        to be alert to monitor not only the standard operations of the 
        truck but also the automated system. Therefore, the Secretary 
        must issue a standard for driver engagement. In addition, 
        critical safety regulations administered by FMCSA such as those 
        that apply to driver hours-of-service, licensing requirements, 
        entry level training and medical qualifications must not be 
        weakened.

  <bullet> Motor carriers using ACMVs should be required to apply for 
        additional operating authority.

  <bullet> Drivers operating an ACMV must have an additional 
        endorsement on their CDL to ensure they have been properly 
        trained to monitor and understand the operating design domain 
        of the vehicle and, if need be, to operate an ACMV. This 
        training should include a minimum number of hours of the 
        behind-the-wheel training.

  <bullet> FMCSA must consider the additional measures that will be 
        needed to ensure that ACMVs respond to state and local law 
        enforcement authorities and requirements, and what measures 
        must be taken to properly evaluate an ACMV during roadside 
        inspections. In particular, the safety impacts on passenger 
        vehicle traffic of several large ACMVs platooning on roads and 
        highways should be assessed.

  <bullet> NHTSA should be given imminent hazard authority to protect 
        against potentially widespread catastrophic defects with ACMVs, 
        and criminal penalties to ensure manufacturers do not willfully 
        and knowingly put defective ACMVs into the marketplace.

  <bullet> NHTSA and FMCSA must be given additional resources, funding 
        and personnel, in order to meet demands being placed on the 
        agency due to the advent of AV technology.

    Without these necessary safety protections, truck drivers and those 
with whom they share the road are at risk. Advocates has always been a 
champion for technology and the advent of AV technology is no 
different. However, allowing technology to be deployed without adequate 
testing, oversight, and safety standards is a direct threat to the 
motoring public which is exacerbated by the sheer size and weights of 
large commercial motor vehicles. We look forward to working with the 
Committee to address these important issues and advance legislation 
that provides for the safe development and deployment of lifesaving 
technologies.
            Sincerely,
                                         Jacqueline Gillan,
                                                 President Affairs.
                                           Catherine Chase,
                                    Vice President of Governmental.
                                 ______
                                 
                                 Transportation for America
                                                 September 12, 2017

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    Thank you for holding this important hearing on Transportation 
Innovation: Automated Trucks and our Nation's Highways. As Congress and 
the administration develop Federal automated vehicle (AV) policy, it is 
critically important for this Committee to thoroughly understand how to 
balance the long-term safety benefits with the short-term challenges of 
testing and deployment. Today's hearing focuses particularly on safety 
in the trucking industry, but this issue does not exist in a vacuum and 
it is important to include all commercial and non-commercial automated 
vehicles in any conversation about Federal AV policy.
    Transportation for America (T4A) is an alliance of elected, 
business and civic leaders seeking smart, homegrown and locally driven 
transportation solutions. One of our initiatives, the Smart Cities 
Collaborative, is a learning and support network providing direct 
technical assistance to 16 leading edge cities advancing smart urban 
mobility strategies. We are working with cities as they develop model 
policies and launch pilot projects to test and learn about automated 
vehicles, shared mobility and data analytics.
    We are writing today to express our concerns with the Senate 
discussion draft of the American Vision for Safer Transportation 
Through Advancement of Revolutionary Technologies (AV START) Act.
    Along with the 16 cities of our Smart Cities Collaborative, T4A 
supports the deployment of automated vehicles and is pleased to see 
Congress supporting the effort of automakers to test and improve this 
technology. The best way to do this is to ensure that the testing is 
done with full transparency and in cooperation with the cities and 
states that own and manage the roads on which AVs are operating. 
Unfortunately, the staff discussion draft circulated last Friday fails 
to do that. It leaves cities and states out of the conversation and 
jeopardizes the safety of millions of Americans by allowing the 
vehicles to operate with little accountability or oversight.
    Currently, state and local governments have the authority to manage 
the operation of vehicles on their streets. This allows them to address 
concerns such as noise, congestion or safety. When it comes to 
automated vehicles, cities and states want to be able to manage their 
presence on their roads in the same way they manage all other vehicles, 
commercial and non-commercial, in order to ensure the safety of 
everyone using their system.
    The Senate discussion draft requires a Safety Evaluation Report 
(SER) from manufacturers that have introduced a highly automated 
vehicle into interstate commerce. They are required to submit 
information on vehicle safety, compliance with applicable laws, 
cybersecurity and crashworthiness.
    The SER serves as the framework for pre-empting local and state 
authorities. All states and local governments are prohibited from 
enacting or enforcing any laws related to any of the SER subject areas.
    None of us want to see a patchwork of regulations that stifle 
innovation, but the unified Federal framework in this case is a 
poisoned chalice: it provides almost zero mechanism for state or local 
governments to collaborate with those companies or hold them 
accountable for the safety of their vehicles or technology. The 
discussion draft strips these governments of the authority to manage 
the vehicles on their roadways and leaves them without the tools to 
deal with the problems that will surely arise during the testing and 
deployment of automated vehicles.
    We are also interested in seeing a Federal framework that allows 
the National Highway Traffic Safety Administration (NHTSA) and the 
Federal Government to ensure the vehicles are safe for deployment. On 
its face, the safety report is a step in the right direction for 
managing these vehicles on our roads, but in reality it's just an 
exercise: it prevents the Secretary of Transportation from taking any 
action based on a review of that SER data. If the safety report showed 
that a particular fleet of AVs was frequently blowing through red 
lights, even the Secretary of Transportation would have no recourse to 
require changes or to pull the cars from the road.
    The result of this framework is that no one--federal agents, state 
or local governments--has authority over these vehicles on the road 
other than the manufacturers.
    We have already seen automated vehicles struggle in cities like San 
Francisco, CA and Pittsburgh, PA with serious safety issues. This new 
technology is exciting and poised to have dramatic impacts on the 
safety of our streets in the long-term, but in the short-term, we need 
to give our cities and states--where these vehicles are operating--the 
authority to ensure that they're operating safely and following all 
local traffic laws, and we need to give the Secretary of Transportation 
the authority to determine when a vehicle poses a threat to the 
American public and respond.
    Automated vehicle technology has the potential to provide 
aggregated information about how people and goods move through our 
streets, but without access to these data, city and state governments 
will be blind to the impacts of emerging transportation technologies.
    The SER provides additional data for local governments to view but 
with a few restrictions. The report allows for the redaction of trade 
secrets or confidential business information but the imprecise 
definition makes it unclear how much information will be hidden from 
public view. This provides only an impression of transparency while 
giving manufacturers a free pass to keep their operations a secret. The 
limited information provided to local governments is not adequate to 
inform them fully of what's happening on their roads and make the 
appropriate changes to guarantee the safety and smooth introduction of 
this technology. For example, if a certain type of LIDAR system is 
incapable of reading a stop sign if vandalized with graffiti or 
confused by bike lanes if painted a certain shade of green, there is 
nothing that encourages or requires those testing AVs to share that 
information with those most able to address the problem.
    Understanding vehicle movement at the corridor level provides 
immense value for governments and citizens, and automated vehicles 
provide a new for communities to know what's happening on their roads. 
Data on vehicle collisions and near misses allows cities to proactively 
redesign dangerous intersections and corridors to ensure safety for all 
street users. Real-time data on vehicle speeds, travel times and 
volumes has the potential to inform speed limits, manage congestion, 
uncover patterns of excessive speeds, evaluate the success of street 
redesign projects and ultimately improve productivity and quality of 
life. We need to ensure cities get the data they need to safety bring 
these vehicles onto their streets and eliminate any restrictions on 
what manufacturers can hide from them and the public.
    Cities have long been the source of innovation in transportation 
policy and practice. With active deployments in cities such as 
Pittsburgh, PA, Tempe, AZ, and Boston, MA, cities continue to drive 
automated vehicle innovation and testing. These deployments are 
conducted in close partnership with automakers and private mobility 
providers allowing them leverage their respective knowledge and 
experience to understand the impacts of these technologies. Further, 
state departments of transportation manage the bulk of our 
transportation program. But in spite of the wealth of information 
cities and states have to share in order to assist with deployment, the 
discussion draft fails to require any inclusion of state or local 
representatives on a new Federal Highly Automated Vehicles Technical 
Safety Committee.
    All of these issues are exacerbated by the discussion draft's 
provision to allow up to 50,000 vehicles per manufacturer to be 
deployed overnight, with up to 100,000 over three years. We have 
already heard from Colonel Scott G. Hernandez, Chief of the Colorado 
State Patrol, on the time, expense and labor required to test just one 
truck in Colorado--even with the assets of robust data sharing, and 
communication and collaboration between the public and private sectors. 
We're concerned about the ability to run even a second test of these 
vehicles, let alone hundreds and thousands of them at once.
    Protecting public safety is the fundamental role of government, but 
this discussion draft would set up a system that prevents federal, 
state and local authorities from supporting safe conditions for the 
testing and deployment of automated vehicles. It does not encourage the 
needed cooperation and transparency between the public and private 
sectors. It is hard to imagine how the deployment of AVs could be 
promoted effectively by hiding AV safety performance from the public 
and preventing the managers of our roadways and public safety officers 
from having a role in managing them.
    We encourage the Committee to make changes to address the concerns 
and to hold a hearing with city and state partners to receive their 
input.
    If you have any questions or need more information, you can contact 
our Director of Smart Cities, Russ Brooks at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="11636462623f73637e7e7a62516525707c74637872703f7e6376">[email&#160;protected]</a> 
or (612) 460-8181.
            Sincerely,
                                              Beth Osborne,
                                                  Interim Director,
                                            Transportation for America.
                                 ______
                                 
                   Truck & Engine Manufacturers Association
                                    Chicago, IL, September 12, 2017
VIA EMAIL AND HAND DELIVERY

Chairman John Thune,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.
Ranking Member Bill Nelson,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Re: AV START Act--Staff Discussion Draft

Dear Chairman Thune and Ranking Member Nelson,

    The Truck and Engine Manufacturers Association (EMA) applauds the 
hard work of the Senate Committee on Commerce, Science, and 
Transportation in developing the American Vision for Safer 
Transportation through Advancement of Revolutionary Technologies Act 
(AV START Act). We support the creation of a Federal regulatory 
structure to ensure that the inevitable deployment of highly automated 
vehicles is implemented safely and reliably, and we appreciate your 
willingness to consider the input of the heavy-duty truck and engine 
manufacturers that is reflected in the staff discussion draft of the 
bill. The AV START Act addresses critical aspects of the automated 
vehicle technologies that are emerging in passenger cars and heavy-duty 
commercial vehicles--technologies that show great promise in our common 
goal of improving motor vehicle safety.
    EMA represents the world's leading manufacturers of commercial 
motor vehicles (greater than 10,000 pounds gross vehicle weight rating, 
or GVWR). EMA member companies design and produce medium- and heavy-
duty vehicles that are highly customized to perform a wide variety of 
commercial functions, including line-haul trucking, regional trucking, 
package delivery, refuse hauling, and construction.
    EMA members have a long history of being at the forefront of 
developing and deploying advanced driver assistance systems (ADAS) that 
utilize automation technologies to assist the driver in maintaining 
control of the vehicle and avoiding a crash. The automation 
technologies utilized in ADAS, such as anti-lock braking, electronic 
stability control, automatic emergency braking, and adaptive cruise 
control, serve as the building blocks for the highly automated driving 
systems that are addressed in the AV START Act. Existing and future 
automated vehicle technologies show great promise in minimizing the 
human error that leads to a vast majority of motor vehicle crashes, 
including those involving heavy-duty trucks. Reducing the potential 
error of the driver of an 80,000 pound over-the-road tractor-
semitrailer combination vehicle is why EMA members are developing and 
deploying automated vehicle technologies.
    It is very important to note that the role of the commercial 
vehicle operator is much more expansive than that of a passenger car 
driver. A commercial vehicle operator is the face of their trucking 
business employer; conducts critical pre-trip vehicle inspections; 
ensures that the correct cargo is loaded and secured; manages and 
reports on the logistics of delivering the freight; and guards the 
vehicle and freight against theft. Accordingly, we anticipate that 
heavy duty commercial vehicles will always require an operator, albeit 
one assisted by automation.
    The AV START Act would establish a sound regulatory structure for 
the design and manufacture of highly automated vehicles under the 
purview of the National Highway Traffic Safety Administration (NHTSA). 
Like passenger car manufacturers, EMA members have been certifying 
vehicles to comply with NHTSA's Federal Motor Vehicle Safety Standards 
(FMVSSs) since soon after the National Traffic and Motor Vehicle Safety 
Act was enacted in 1966. That longstanding nationwide framework 
provides heavy-duty manufacturers the regulatory certainty needed to 
efficiently supply compliant vehicles to their interstate fleet 
customers. Accordingly, we urge the Committee to maintain the Federal 
regulatory framework in the AV START Act for the design, construction 
and performance of highly automated vehicles, as exists with NHTSA's 
current FMVSSs. To maintain NHTSA's broad regulatory authority over the 
automation technologies in heavy-duty vehicles, the AV START Act also 
should keep commercial vehicles (over 10,000 pounds GVWR) in the 
definition of Highly Automated Vehicle.
    As proposed, the AV START Act would limit pre-production testing of 
highly automated vehicles to only manufacturers. However, each heavy-
duty truck is highly customized by the manufacturer to meet the needs 
of the commercial customer's particular trucking operation, and the 
process of developing and deploying new technologies in that business-
to-business relationship requires that the manufacturer provide 
prototype vehicles for fleet customers to assess in real-world 
operation. In other words, a commercial fleet customer will not invest 
in a new technology before a thorough evaluation of a prototype vehicle 
to ensure the technology will function as expected--and return a 
profit. Such real-world prototype evaluation is performed by the fleet 
customer in close coordination with the truck manufacturer. 
Accordingly, the AV START Act should allow commercial vehicle fleets to 
test and evaluate highly automated heavy-duty vehicles along with the 
manufacturer.
    Since heavy-duty vehicles are developed, sold and operated in a 
commercial environment, we hope to be able to constructively engage 
with the NHTSA working group envisioned in the AV START Act to be 
responsible for automated driving education efforts. However, we 
believe that education efforts for the commercial vehicle sector are 
best addressed by the Federal Motor Carrier Safety Administration, 
under its existing authority to regulate commercial driver licensing 
and training.
    We look forward to continuing to work with the Commerce Committee 
on the AV START Act--legislation that is crucial to the safe and 
efficient deployment of automated vehicle technologies in commercial 
motor vehicles. If you have any questions, or if there is any 
additional information we could provide, please do not hesitate to 
contact me at (312) 929-1972, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f5b4d435a4d4e5a48476f4a424e424e464301405d4801">[email&#160;protected]</a>
            Very truly yours,
                                          Timothy Blubaugh,
                                          Executive Vice President.

cc: Cherilyn Pascoe (Cherilyn <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f7f4e5c4c404a6f4c4042424a5d4c4a015c4a414e5b4a01484059">[email&#160;protected]</a>)
                                 ______
                                 
     Statement of Property Casualty Insurers Association of America
    The promise of ``self-driving'' vehicles to improve road safety and 
mobility continues to generate debate about what the appropriate 
regulatory frame work for the testing and deployment of such vehicles. 
As automation of driving functions increases, some motor vehicle laws 
and regulations will need to be changed to accommodate the testing and 
deployment of self-driving vehicles. The Property Casualty Insurers 
Association (PCI) is pleased that the Committee continues to work 
diligently to address policy issues related to the testing and 
deployment of automated vehicles.
    PCI is composed of nearly 1,000 member companies, representing the 
broadest cross section of insurers of any national trade association. 
PCI members write $202 billion in annual premium, 35 percent of the 
Nation's property casualty insurance. That figure includes more than 46 
percent of the commercial auto insurance premium written in the United 
States.
    The increasing automation of the driving function is likely to 
bring significant change to the auto insurance industry. To adapt to 
these changes and support innovation in transportation, insurers will 
need to have access to data and information regarding vehicles with 
automated driving systems whether they are used for commercial or 
personal purposes. It is critical for insurers developing historical 
loss data and pricing for new insurance products in an evolving 
marketplace to have the ability to identify not only which vehicles 
have automated driving technology but also the type of technology used 
by each vehicle.
    Additionally, insurers need to have reasonable access to data for 
claims handling purposes. In many auto accidents, apportionment of 
liability is likely to hinge upon whether a human driver or the vehicle 
itself was in control and what actions either the driver or the vehicle 
did or did not take immediately prior to the loss event.
    Neither HR 3388, the SELF DRIVE Act that recently passed the House, 
nor draft legislation currently under development in the Senate address 
these data access issues directly. PCI strongly urges policymakers to 
ensure access to data for insurers in Federal law. Doing so is 
essential for prompt claims handling and could potentially avoid many 
liability disputes that could delay compensation to accident victims. 
While cybersecurity is a critical concern for automated vehicles, it is 
important that cybersecurity requirements do not block access to 
vehicle data by third parties, such as insurers.
    Testing requirements, guidelines and standards for use on public 
roads should set clear expectations for the public and provide clear 
compliance direction for technology developers and manufacturers. 
Modifications to existing auto safety laws and motor vehicle safety 
standards must be rare, and limited to only the highest levels (i.e., 
fully autonomous) of automated driving, and should clearly define the 
levels of automation to which the modification applies. Vehicles with 
automated driving systems will share the road and occasionally collide 
with human driven vehicles for many years to come. As such, PCI 
believes that exemptions to the Federal Motor Vehicle Safety Standards 
(FMVSS) should not be permitted for crash protection standards. Clear 
and effectively enforced auto safety laws and vehicle standards can 
save lives on our roads today and, when applied to automated driving 
systems, foster public confidence that will ultimately determine if the 
technology realizes its potential.
    Insurers have valuable contributions to make to any advisory 
council that will make recommendations on automated vehicle policy, 
when the committees charge will involve cybersecurity, data sharing and 
safety. We recommend that insurer representation be specifically 
provided for in any such advisory committee being created. PCI is eager 
to participate on these advisory groups and work with all stake holders 
to establish a framework for sharing information that protects vehicle 
user privacy and the intellectual property rights of the manufacturers.
    Automated driving technology holds great promise for the future, 
and implementing clear policies that ensure that insurers have access 
to vehicle data on reasonable terms to efficiently handle claims, 
develop products and underwriting methods to support these innovations 
are an essential first step toward that future. PCI and its members 
look forward to working with legislators and regulators at the Federal 
and state level to establish a sound regulatory framework for automated 
driving.
                                 ______
                                 
  Prepared Statement of Hon. David L. Strickland, Esq., Counsel, Self-
     Driving Coalition for Safer Streets; and Partner, Venable LLP
    Chairman Thune, Ranking Member Nelson, on behalf of the Self-
Driving Coalition for Safer Streets, I am honored to submit this 
written statement discussing the future of transportation innovation, 
including fully self-driving commercial vehicles.
    The Coalition, which was founded in April of last year by Ford 
Motor Company, Lyft, Uber, the Volvo Car Group, and Waymo (formerly 
Google's self-driving car project), is focused on enabling the 
development and deployment of Level 4 and Level 5 fully self-driving 
vehicles, including light passenger vehicles and heavy duty trucks.
    This cross-section of companies demonstrates the widespread 
interest in developing self-driving technology across different 
industry sectors--including technology, automotive, ridesharing, and 
commercial trucking. Despite their different backgrounds, the companies 
came together to form the Coalition because of their commitment to 
bring the tremendous potential safety benefits of self-driving vehicles 
to consumers in the safest and swiftest manner possible. As examples of 
their efforts, Waymo completed the world's first fully driverless ride 
on public roads in Austin in October 2015 and has now driven more than 
3 million miles on public roads, mostly on city streets; Lyft has set 
itself a public goal that half the rides on its platform will be in a 
self-driving vehicles by 2021; Ford intends to have a fully self-
driving vehicle ``for commercial application in mobility services in 
2021; and Uber already is providing rides using its self-driving 
vehicles (with an operator behind the wheel) in Tempe, Arizona and 
Pittsburgh, Pennsylvania.
    The Senate Committee on Commerce, Science, and Transportation 
stands at the intersection of the digital economy, the Internet of 
things, and, most importantly, consumer safety. This is a critical 
moment for the Committee as it wrestles with questions that will impact 
the future of transportation safety, mobility, and innovation for 
decades to come. On behalf of the Coalition, I thank the Committee 
Members and their staff for working with a wide array of automated 
vehicle technology stakeholders over the past several months to try to 
develop self-driving vehicle legislation. Over the course of this 
period, you have engaged in a thoughtful discussion over how to safely 
deploy self-driving technology, and we are grateful for the opportunity 
to provide input.
    The Coalition believes fully self-driving vehicles, whether light 
duty passenger or medium-to-heavy duty commercial vehicles, will play a 
key role in making our roads safer,improving mobility and maintaining 
U.S. leadership on innovation. Self-driving vehicles offer an 
opportunity to significantly increase safety, reduce congestion, and 
transform how people, goods, and services get from point A to B. Self-
driving vehicles also hold the promise to enhance mobility for the 
disabled and elderly and improve transportation access and access to 
goods and services for underserved communities.
    Ultimately, safety is the driving force behind deploying self-
driving technology. Although it has been often cited, it still bears 
repeating that 35,092 Americans died in motor vehicle crashes and 2.44 
million were injured in 2015, and tragically, these numbers are 
growing. The National Highway Traffic Safety Administration (``NHTSA'') 
estimates a 10.4 percent increase in roadway fatalities in the first 
half of 2016. Since 94 percent of all crashes are the result of a human 
decision, fully self-driving vehicles are very likely to significantly 
reduce fatal traffic crashes because they remove human error from the 
driving process entirely.
    The same holds true in the trucking space. A staggering 87 percent 
of truck-related crashes are caused by human errors.\1\ Trucks are 
involved in a disproportionate share of crash fatalities, where trucks 
represent only 1 percent of registered vehicles and less than 6 percent 
of all miles traveled but are involved in almost 9 percent of all crash 
fatalities.\2\ This translates to somebody dying in a crash involving a 
freight truck every three hours. Unfortunately, the trend is worsening. 
4,311 large trucks and buses were involved in fatal crashes in 2015, an 
8-percent increase from 2014.\3\ In fact, the number of large trucks 
and buses in fatal crashes has increased by 26 percent from its low in 
2009. 87,000 large trucks were involved in injury crashes in 2015, a 
number similar to 2014, and the number of buses involved in fatal 
crashes increased by 11 percent. According to the Federal Motor Carrier 
Safety Administration (``FMCSA''), in 2015, 33 percent of the fatal 
crashes involving large trucks involved at least one driver-related 
factor for the truck driver--including speeding, distraction/
inattention, and impairment (fatigue, alcohol, illness, etc.), and 57 
percent of fatal crashes involving trucks had at least one driver-
related factor for the passenger vehicle driver.\4\
---------------------------------------------------------------------------
    \1\ See https://www.fmcsa.dot.gov/safety/research-and-analysis/
large-truck-crash-causation-stu
dy-analysis-brief (Table 1).
    \2\ For statistics on the number of vehicles and vehicle 
registrations, see https://www
.rita.dot.gov/bts/sites/rita.dot.gov.bts/files/publications/
national_transportation_statistics/html/table_01_11.html; https://
www.fhwa.dot.gov/policyinformation/statistics/2014/mv9.cfm. For 
information on the breakdown of trucking-related injuries and 
fatalities, see https://crashstats.nhtsa.dot.gov/Api/Public/
ViewPublication/812246.
    \3\ See https://www.fmcsa.dot.gov/safety/data-and-statistics/large-
truck-and-bus-crash-facts-
2015.
    \4\ Id.
---------------------------------------------------------------------------
    It is important that we not simply cite these statistics as mere 
talking points. The context of the Committee's inquiry into trucking at 
this hearing goes beyond exploring the landscape of self-driving 
technology at an introductory level. The Committee is delving deeper 
into specific issues related to the longer-term application of self-
driving technology and automation to trucks and heavy duty vehicles. We 
encourage the Committee to consider the grave toll that these thousands 
of fatalities and millions of injuries are having on American society, 
and how that trend will worsen if higher levels of automated driving 
technology are prohibited from being responsibly deployed across the 
transportation landscape in a timely manner. As NHTSA stated in its 
Federal Automated Vehicle Policy (``FAVP'') last year, ``whether 
through technology that corrects for human mistakes, or through 
technology that takes over the full driving responsibility, automated 
driving innovations could dramatically decrease the number of crashes 
tied to human choices and behavior.'' \5\ In its new policy document, 
NHTSA reiterates this finding, noting that ``NHTSA believes that 
Automated Driving Systems (ADSs), including those contemplating no 
driver at all, have the potential to significantly improve roadway 
safety in the United States.'' \6\ This point is just as true for 
trucks as it is with passenger vehicles.
---------------------------------------------------------------------------
    \5\ U.S. Dep't of Transportation, Federal Automated Vehicles Policy 
(2016), at 5.
    \6\ U.S. Dep't of Transportation, Automated Driving Systems 2.0: A 
Vision for Safety (2017), at 1.
---------------------------------------------------------------------------
    Moreover, we urge the Committee to consider the productivity and 
efficiency improvements that will result from the deployment of self-
driving technology. Approximately 25 percent of today's nonrecurring 
congestion is attributable to incidents ranging from a flat tire to an 
overturned hazardous material truck.\7\ Our already overburdened 
highway infrastructure will be even further strained by freight 
shipments that will grow another 24 percent by 2025 and 45 percent by 
2040.\8\ Yet 15-25 percent of truck miles driven are empty and more 
than a third of the non-empty miles are underutilized.\9\ Automated 
trucks can break the ``vicious cycle'' of worsening congestion, 
restrained productivity, and lives lost in congestion-related crashes 
by driving in off-peak times and increasing the utilization rates.
---------------------------------------------------------------------------
    \7\ See https://ops.fhwa.dot.gov/aboutus/opstory.htm.
    \8\ See https://www.epa.gov/smartway/why-freight-matters-supply-
chain-sustainability.
    \9\ See http://business.edf.org/projects/green-freight-facts-
figures/.
---------------------------------------------------------------------------
    NHTSA's oversight and jurisdiction covers all motor vehicles, 
whether light vehicles or heavier vehicles, including those weighing 
over 10,000 pounds.\10\ As such, the Department of Transportation's 
policy statement and framework for automated vehicles, both the in 
original version released in September 2016 and the recently revised 
document released just yesterday, explicitly make clear that the 
guidance covers all motor vehicles.\11\ We do not feel that the Senate 
or Congress should deviate from that approach and establish a 
distinction. Congress should continue to encourage NHTSA to leverage 
its resources, expertise and learnings across all vehicle and equipment 
types in order to fulfill the Agency's safety mission. Placing medium 
and heavy duty vehicles, such as trucks, on a separate track would 
establish a dangerous precedent that would only create confusion, 
uncertainty, and potentially jeopardize the full safety benefits that 
self-driving vehicles can potentially provide.
---------------------------------------------------------------------------
    \10\ NHTSA's regulatory authority over motor vehicles makes no 
exception for commercial vehicles. 49 U.S.C. Sec. 30111. NHTSA has 
issued standards on such subjects as heavy vehicle brakes and tires, 
bus emergency exits, and motorcoach seat belts. FMCSA's authority over 
commercial vehicle safety does not conflict with, but instead 
complements, NHTSA's authority. 49 U.S.C. Sec. Sec. 30103(a) and 
31136(a).
    \11\ U.S. Dep't of Transportation, Automated Driving Systems 2.0: A 
Vision for Safety (2017), at 2.
---------------------------------------------------------------------------
    Finally, in light of this Committee's consideration of a new 
discussion draft of legislation that would address automated vehicle 
issues, I would like to take this opportunity to provide feedback on 
some of the key elements that the Coalition believes are necessary to 
construct a robust, fair, and efficacious legislative framework for 
automated vehicles.

  1.  Clarifying the appropriate Federal and state roles and 
        responsibilities when it comes to fully self-driving vehicles. 
        The Federal Government should retain the authority to 
        promulgate and enforce nationally uniform motor vehicle safety 
        standards applicable to all vehicle types, regardless of the 
        weight or type of motor vehicle. We do not believe self-driving 
        vehicles present a reason to deviate from that well established 
        precedent. States should be discouraged from creating a 
        patchwork of inconsistent laws and regulations relating to such 
        standards that have the potential to stifle this emerging 
        industry. Any bill should clearly delineate that the states 
        should continue to retain their traditional role in 
        establishing and maintaining the rules of the road, vehicle 
        registration, traffic enforcement, and with respect to 
        insurance, while making clear that it is the Federal 
        Government's exclusive authority to set standards related to 
        the safety, performance, and design of fully self-driving 
        vehicles.

  2.  Expanding NHTSA's current exemption authority to permit new 
        safety features unique to fully self-driving vehicles. Today, 
        Level 4 and Level 5 fully self-driving vehicles are subject to 
        all of the criteria in the Federal safety standards, even 
        though certain decades-old provisions were clearly designed 
        with a human driver in mind. Under today's rules, NHTSA can 
        exempt a maximum of 2,500 vehicles from a manufacturer's fleet 
        for up to 2 years so long as an applicant demonstrates that its 
        vehicles provide a level of safety at least equal to current 
        motor vehicle safety standards. We do not propose any change to 
        the standard of equivalent safety. However, the numerical and 
        temporal limitations on exemptions under current law present a 
        concrete obstacle to achievement of the goal of rapid, safe and 
        robust deployment necessary to attain the safety and mobility 
        benefits we believe fully self-driving vehicles promise. 
        Congress should increase the exempted fleet size and extend the 
        exemption period to advance consumer acceptance and to promote 
        self-driving technology's safety, accessibility, and mobility 
        benefits. Congress also should be mindful to extend such 
        additional flexibility to both traditional OEMs and other 
        developers of self-driving technology. The Coalition sees 
        expanded exemption authority not as a replacement for industry-
        wide standards, but rather as as a necessary short-term measure 
        to deploy safety innovations pending the completion of extended 
        rulemakings.

  3.  Encourage USDOT modes, including NHTSA and FMCSA, to 
        appropriately review and address existing Federal regulations, 
        as needed, to ensure that vehicles without human drivers or 
        human driver controls continue to be permissible, to ensure the 
        safety and mobility benefits described.

  4.  Ensure Consistency Between the Proposed Draft and USDOT's 
        Automated Driving Systems 2.0: A Vision for Safety, 
        particularly on categories of safety processes to be considered 
        by AV companies.

    I want to thank the Committee for its leadership on these important 
issues. The Coalition looks forward to serving as a resource concerning 
both technical and policy questions and working with you to make fully 
self-driving vehicles a reality.
                                 ______
                                 
  Prepared Statement of Eric Meyhofer, Head of Advanced Technologies 
                  Group (ATG), Uber Technologies, Inc.
Hon. John Thune, Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    We appreciate the opportunity to provide written testimony on self-
driving vehicles and, more specifically, the significant safety 
advantages regarding self-driving commercial motor vehicles on our 
highways.
    Self-driving trucks can lead to significant and outsized safety 
gains for all road users. Therefore, the Committee should not delay in 
establishing a safety-oriented regulatory environment for all vehicles 
that will encourage ongoing investments in the research and development 
of these technologies.
    In 2015, Uber launched our Advanced Technologies Group (ATG) which 
focuses on developing both self-driving cars and Class 8 freight 
trucks. In our trucking efforts, we are driven by the vision of self-
driving trucks becoming the safest and most efficient way to move 
freight. We are also motivated by the knowledge that technology has 
long been the driver of transportation safety gains. Forward collision 
warning and crash imminent braking systems in heavy trucks are already 
estimated to reduce fatalities by 24 percent and decrease injuries by 
25 percent.\1\ New technologies such as lane keeping assistance and 
adaptive cruise control features have begun to have significant impacts 
as well. Put simply, full self-driving systems are the logical next 
step in the decades-long evolution of technology driven safety 
improvements in trucking.
---------------------------------------------------------------------------
    \1\ NHTSA, UMTRI
---------------------------------------------------------------------------
    Self-driving trucks will lead to many benefits not just for the 
trucking industry but also for the public at large. First and most 
critically, these trucks will be involved in fewer crashes, especially 
tragic fatal ones. That is good news for everyone because approximately 
3 in 4 fatal truck crashes involve a collision with another vehicle,\2\ 
and over 80 percent of deaths are those of people that were outside the 
truck.\3\ Truck drivers will also benefit enormously, as theirs is the 
single deadliest profession in absolute numbers.\4\
---------------------------------------------------------------------------
    \2\ FMCSA
    \3\ NHTSA
    \4\ BLS
---------------------------------------------------------------------------
    Additionally, self-driving trucks will reduce gridlock due to fewer 
crashes and from the increased ability to use off-peak times, such as 
driving safely in the middle of the night. In turn, this will improve 
the utilization rates of trucks, cut overall shipping times and make 
the national freight network more efficient. As a result, there will 
also be less fuel waste and fewer harmful pollutant emissions. Taken 
together, and in light of the central role that trucking plays in the 
national economy,\5\ self-driving trucks could one day help support 
broader economic growth.
---------------------------------------------------------------------------
    \5\ Over 70 percent of the goods all Americans use every day are 
moved by truck. (ATA)
---------------------------------------------------------------------------
    These ultimate benefits are well-known and understood by experts, 
but before they are realized, we must first build and iterate on the 
technology. The Uber ATG team is hard at work doing just that. Although 
we have engaged in limited trucking pilots, we have not yet developed 
self-driving trucks that are capable of sustained operation without a 
driver behind traditional driving controls. However, we believe that 
achieving such capabilities for ramp-to-ramp driving on interstate 
highways is one of the best near-term opportunities for any self-
driving vehicle, not just trucks.
    The autonomous vehicle industry is still in the early stages, but 
Uber believes this is the right time for Congress to act. We look 
forward to continuing to work with the Committee to shape legislation 
that will establish a smart, safe, and responsible regulatory 
framework. Your work on these issues today will help encourage 
strategic, long-term innovation in this space.
Self-driving trucks on interstates offer outsized safety gains for all 
        of us who share the road and significantly advance the 
        development of the entire autonomous vehicle ecosystem because:

  1.  Automated high-speed highway driving offers great potential 
        safety benefits (especially since trucks are disproportionately 
        represented in fatal crashes) yet presents a more 
        straightforward engineering challenge.

  2.  Trucks on interstates offer unique opportunities for rapid 
        learning and safety gains for all self-driving vehicles. The 
        technical learning from self-driving trucks helps accelerate 
        the development of all vehicles with self-driving technologies 
        because trucks more frequently face the challenging highway 
        scenarios that any self-driving vehicle needs to overcome.

  3.  The trucking industry long ago established best practices in 
        fleet management and complex transportation networks that are 
        crucial for the development of many self-driving efforts.
Automating trucks on interstates provides an excellent near-term safety 
        opportunity.
    Freight trucks are disproportionately involved in serious crashes: 
combination trucks are only 1 percent of registered vehicles and drive 
less than 6 percent of all miles traveled, but are involved in almost 
10 percent of all crash fatalities.\6\ This translates to someone dying 
in a crash involving a freight truck every three hours. And while 87 
percent of truck-related crashes are caused by human errors,\7\ it also 
bears noting that many of these errors are those of other motorists 
engaging in risky behavior around large trucks.
---------------------------------------------------------------------------
    \6\ US DOT, FHWA, FMCSA, NHTSA
    \7\ FMCSA
---------------------------------------------------------------------------
    Self-driving trucks will mitigate and prevent crashes caused not 
only by truck drivers, but also by drivers in other vehicles. That is 
because self-driving technologies do more than just avoid the unsafe 
behaviors, distractions and fatigue of a truck driver. They also enable 
a self-driving truck to ``see'' in all directions at once, react 
faster, and even predict cut-offs and other movements of neighboring 
vehicles. In other words, the same factors that result in trucks being 
disproportionately represented in serious crashes could also result in 
disproportionate safety gains in the automation of trucks relative to 
other vehicles.
    This places trucks on freeways at the forefront of our ability to 
begin realizing the safety potential of all self-driving vehicles. 
Because of the high-speed environment and the difference in the mass of 
trucks versus cars, crashes with heavy trucks tend to be much more 
serious than those involving just cars. Yet the interstate highway 
environment also offers a somewhat easier engineering challenge for our 
team to solve in the near term. On the highway, the flow of traffic is 
predictable, the lanes are wide and there are few or no cross streets. 
Pedestrians, bicycles and other vulnerable road users are a rare 
occurrence, and there are no traffic lights and sharp turns to 
navigate. Moreover, it is relatively straightforward and cost-effective 
to create and maintain maps of the few hundred miles of interstate 
lanes on which the first self-driving trucks will drive.
    Because self-driving trucks can lead to such significant and 
outsized safety gains for all road users sooner rather than later, we 
should not delay in establishing a safety-oriented regulatory 
environment that will encourage ongoing investments in the research and 
development of these technologies.
Research and development of self-driving trucks enables rapid 
        improvement in the safety of all self-driving vehicles, not 
        just trucks.
    At Uber ATG, our self-driving trucks and cars will be different 
products with different customers and business opportunities. However, 
the engineering team developing the core technology is the same. 
Furthermore, the majority of the hardware and software powering our 
self-driving efforts is also used across both vehicle platforms. This 
is no accident--last year, we expanded our self-driving efforts to 
include trucks precisely because we saw a great opportunity for cars 
and trucks to learn from one another and improve in tandem, thereby 
accelerating our ability to capture the safety potential of self-
driving vehicles.
    During these early days of the self-driving industry, vehicles with 
the new technologies will be deployed in an overwhelmingly human-
centric driving environment. The challenging high-speed scenarios 
encountered more frequently by self-driving trucks on interstate 
highways will also need to be mastered by all autonomous vehicles. Our 
engineers will efficiently and quickly leverage the highway safety 
learning of self-driving trucks to realize even greater safety gains 
with our self-driving cars, benefitting all road users.
    Self-driving trucks and self-driving cars are part of the same 
transportation ecosystem, as are all traditional vehicles of all sizes. 
A decision to pass legislation that only provides regulatory certainty 
for some motor vehicles while leaving others in an uncertain status 
would have the practical consequence of delaying the development of the 
technology for the vehicles not covered by the legislation. Businesses, 
especially in the trucking industry, operate on long lead-times and 
require clarity with respect to regulatory matters. In addition, 
because the roads and basic technologies are shared, such a delay in 
establishing basic safety and vehicle design standards for self-driving 
trucks would directly delay and impede the development of all 
autonomous vehicles for highway driving and, ultimately, slow progress 
on road safety for all Americans.
Professional fleet operations and maintenance are the norm in the 
        trucking industry.
    As has been widely noted, including in Uber's June 13, 2017 written 
testimony for this Committee, most technology companies and OEMs are 
investing in a fleet model when it comes to their self-driving efforts. 
That approach holds the key to faster and safer development of these 
technologies. The fleet model makes self-driving technology more cost 
effective, provides for shared learning and improvement of all vehicles 
in the fleet, greatly improves overall efficiencies in the deployment 
and routing of automated vehicles and--most importantly--ensures that 
the vehicles are deployed in the safest manner possible and only in the 
conditions that they are able to safely operate in.
    We are excited that Uber will be at the forefront of this 
transition in passenger vehicle use from the traditional manufacturer-
sold, owner-operated model to the shared fleets that self-driving cars 
will need. But while ride-sharing services like ours are a relatively 
new option for the mass mobility of people in cities, the trucking 
industry has depended on fleets and advanced network management to get 
goods across great distances for many decades. As such, the large cadre 
of professional truck drivers, safety-oriented fleet maintenance and 
management, and advanced supply chain operations mean that long-haul 
trucking is an ideal setting for self-driving technologies.\8\ Given 
that the vast majority of research and development work in all self-
driving vehicles for the foreseeable future will be based on the fleet 
model, we should not delay in implementing a regulatory safety 
framework that would foster great innovation in the one industry with 
the longest-established best practices in fleet based transportation.
---------------------------------------------------------------------------
    \8\ We note, also, that the business-to-business nature in the 
development of self-driving trucks will further promote safety-first 
efforts. Large shippers that need to move valuable goods across the 
country and the motor carriers they rely upon for freight transport 
will demand tangible and measurable safety improvements over 
traditional driving. They will not adopt self-driving technology simply 
because they are ``gadget enthusiasts'' nor will they be subject to the 
same temptations as individual consumers to push the technology to its 
limits and potentially misuse it.
---------------------------------------------------------------------------
Recommendations
    We are encouraged by congressional interest in establishing a clear 
role for the Federal Government in the regulation of self-driving 
vehicles, starting with a framework for vehicle design standards that 
would ensure safety while encouraging further investment in research 
and development. We believe it is critical that all vehicles benefit 
from the regulatory certainty that comes with Federal legislation. It 
is especially important that the trucking industry, which has high 
capital expenditures, long lead times, and is dependent upon the smooth 
flow of interstate commerce, not be left in limbo while legislation 
covering different classes of vehicles moves forward. Such an outcome 
would not only be contrary to current Federal Motor Vehicle Safety 
Standards but also hinder the development of the entire autonomous 
vehicle ecosystem.
    We therefore recommend that any legislation encompass all self-
driving vehicles, so that they can be subject to the same basic vehicle 
design and safety standards. That is the best way for Congress to 
encourage today's ongoing safety-first R&D efforts in the self-driving 
space. Although this is just the first step, we are very bullish about 
the future of trucking, both self-driving and traditional. Earlier this 
year Uber announced the launch of Uber Freight, a significant long-term 
investment in improving traditional freight efficiency through a more 
effective freight brokering approach, with a focus on addressing many 
of the pain points for truck drivers today and well into the future.
    As Uber continues to expand our self-driving ventures in trucking 
and passenger vehicles, we are eager to continue working with Congress 
and all other stakeholders in the drive to deploy self-driving vehicles 
safely and rapidly. We are committed to building and rolling out the 
technology in the safest way, as demonstrated in our close cooperation 
with the State of Colorado, including the Colorado State Patrol, before 
successfully delivering the world's first shipment by a self-driving 
truck in October 2016.
    Uber thanks Chairman Thune, Ranking Member Nelson, Senator Peters 
and all members of the Committee for their continued leadership and 
foresight on these issues. We greatly appreciate the opportunity to 
share our vision for the future of the entire self-driving ecosystem, 
and look forward to working with you all to ensure that we are 
maximizing the benefits of this technology for all road users.
                                 ______
                                 
                                                     Embark
                                                 September 21, 2017

    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, thank you for opportunity to submit written testimony 
for the hearing ``Transportation Innovation: Automated Trucks and our 
Nation's Highways.'' Embark Trucks, Inc. (Embark) is a San Francisco-
based developer of software that powers automated driving systems for 
trucks. Embark's aim is to develop a self-driving system that can pilot 
a truck, without a human occupant, from exit to exit on long haul 
highway routes.
    We appreciate the opportunity to provide the perspective of our 
company from the front lines of the nascent automated vehicle industry 
given the vast amount of speculation, hype, and misconception that has 
permeated this topic in recent years, especially with respect to 
commercial vehicles. From concerns at the dawn of the industrial 
revolution to President Johnson's National Commission on Technology, 
Automation, and Economic Progress in the 1960s, the debate on 
automation and fears of the disruption it may cause is not a new topic.
    This is not to minimize such concerns, rather to point out that 
innovation, progress, and growth often come at the cost of disrupting 
business as usual. How we as a country support and empower the 
individuals and businesses affected by such disruption is a worthy 
topic of discussion, but we sincerely hope that the path of simple 
obstruction is not an option.
    This testimony will cover these four topics for the Committee:

  (1)  Why trucking is now seen as a leading application for 
        automation, attracting interest from major companies, startups, 
        and foreign governments.

  (2)  How self-driving technology will be introduced to the trucking 
        industry

  (3)  What the impacts of truck automation will be for the industry 
        and American economy

  (4)  Why automated vehicle legislation should include all vehicles
Why Trucks
    Within the automated vehicle industry, heavy duty commercial 
vehicles have recently emerged as a likely early use case for high 
automation. Sessions on automated trucks at annual conferences have 
grown from nearly empty to standing room only. Startups have been 
joined by large companies like Waymo and Tesla in exploring how 
automated driving technology can be applied to commercial vehicles. 
Governments from the United Kingdom and Netherlands to China are 
investing in automated truck research. While self-driving passenger 
vehicles might best capture our imagination given America's love affair 
with the car, the potential benefits to commercial trucking actually 
create a clearer case for on-highway truck automation.
    On a technical level, the many hours a long-haul truck spends on 
multi-lane, limited access highways and interstates is an ideal first 
environment for automation. A driverless truck restricted to highway 
environments would not have to contend with pedestrians, cyclists, 
intersections, or traffic lights. For automated systems that require 
detailed 3D maps, maintaining maps of 48,000 miles of interstate is 
more attainable and lower cost than mapping all 2.6 million miles of 
paved roads in the U.S.\1\ From the business case perspective, the 
trucking industry has a clear financial incentive to adopt new methods 
of improving productivity and safety while reducing costs. While 
passenger vehicle decisions can be made for a variety of reasons--
convenience, comfort, brand loyalty--the pragmatism of the trucking 
industry means if something new can be proven to improve efficiency or 
reduce crashes, fleets will pay attention.
---------------------------------------------------------------------------
    \1\ While there are over 2.6 million miles of paved roads in the 
United States, only about 228,000 miles are part of the National 
Highway System, and less than 48,000 miles--or about 1.8 percent--are 
interstate per Federal Highway Administration--Highway Statistics 2013 
Table HM-12 and Table HM-15
---------------------------------------------------------------------------
How Automation Will Be Deployed
    As many stated during the Commerce Committee's September 13th 
hearing on the topic, truck automation will not happen overnight. Today 
we are seeing the maturing of commercially available level 1 automation 
technology in trucking with adaptive cruise control systems. 
Capabilities of these types of driver-assistive systems will continue 
to increase in the future. At Embark, our goal lies beyond driver 
assistive, to design a system that is capable of operating from exit to 
exit without a human in the cab. However, this does not mean 
``professional driver'' will cease to be a viable profession in a 
matter of years, despite much of the sensationalism around this issue.
    Early driverless systems will aim to tackle the ``low hanging 
fruit'' of freight trucking: long, simple stretches of interstate 
outside of dangerous weather conditions and with non-hazardous cargo. 
Even on relatively simple routes, there are many complex logistical and 
operational issues that will need to be overcome in cooperation with 
regulators, law enforcement, and other stakeholders. Each fleet or 
shipper will have to evaluate the technology and decide if it is the 
right fit for their needs, and if so, what portion. It is likely that 
some portions of long, predictable truck runs become automated while 
other portions are kept manual to deal with last minute changes in 
dispatching, capacity, or complex weather. Experienced drivers may 
prefer local or regional routes that use their technical driving skills 
in urban environments and allow them to sleep in their own bed every 
night. The bottom line is that automation will not be everywhere, all 
at once. But automated trucks are coming, and over time will 
significantly improve the freight trucking landscape.
Impacts of Freight Trucking Automation
    So what will the impacts be, and what's at stake? Freight trucking 
is a $726 billion industry that moves over 70 percent of the Nation's 
freight.\2\ The industry is the circulatory system of the American 
economy, and its health and efficiency touch virtually every other 
industry and consumer. Every product we buy or export includes some 
cost of moving it. Thousands of fleets and owner-operators operate 
under tight timelines and tighter margins, bringing us the things we 
need each day to run our businesses, care for the sick, and live our 
lives.
---------------------------------------------------------------------------
    \2\ American Trucking Associations (http://www.trucking.org/
News_and_Information_Reports
_Industry_Data.aspx)
---------------------------------------------------------------------------
    First and foremost, automation holds the key for turning the tide 
in the struggle for safer roads. Embark is a proud member of the Road 
to Zero Coalition, and we firmly believe that deploying highly 
automated driving systems for both cars and trucks is the only way to 
truly get to a future of zero road fatalities when 87 percent of large 
truck crashes \3\ and 94 percent of all vehicle crashes \4\ are due to 
human error. NHTSA has estimated the total value of societal harm from 
motor vehicle crashes in 2010 was $836 billion, including $242 billion 
in pure economic costs--$784 for every person living in the United 
States and 1.6 percent of GDP.\5\ Highly automated trucks can eliminate 
the dangers of driver distraction and fatigue that are the constant 
subject of an ever-evolving regulatory regime. There are certainly many 
miles to travel, both literally and figuratively, to bring self-driving 
trucks to market. However, simply put, when 11 people per day die in 
truck related accidents in the United States, the safety potential from 
truck automation is too dramatic and important to delay.
---------------------------------------------------------------------------
    \3\ Large Truck Crash Causation Study, Federal Highway 
Administration, July 2007
    \4\ Singh, S. Traffic Safety Facts Crash Stats. Report No. DOT HS 
812 115. Washington, D.C.: National Highway Traffic Safety 
Administration
    \5\ NHTSA ``The Economic and Societal Impact of Motor Vehicle 
Crashes 2010 (revised 2015)'' available at https://
crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/812013
---------------------------------------------------------------------------
    The economic impacts of truck automation are significant and 
positive. Much attention has been focused on the first order benefit of 
reducing operating costs to move freight. However, while this effect 
will alone have the broad impact on the cost of both raw and finished 
goods, automation can dramatically reshape what is possible for the 
freight trucking industry to accomplish in service of a multitude of 
other industries. Imagine the benefits of reducing by several days the 
time it takes to move goods across the country because a self-driving 
truck can run the majority of a long-haul route free from hours of 
service regulations meant to manage human fatigue. Wastage of 
perishable goods would be reduced, medical equipment would be delivered 
to hospitals faster and cheaper, and business inventory decisions could 
be made later with better information. American manufacturing would 
have an advantage of a freight system that is safer, cheaper, and more 
efficient than other parts of the world.
    Furthermore, it is estimated that the relative skill of a driver 
can account for a 35 percent difference in fuel efficiency.\6\ Self-
driving trucks can learn to drive a route in a maximally efficient 
manner, and do so reliably every time, contributing significantly to 
freight trucking efficiency.
---------------------------------------------------------------------------
    \6\ American Trucking Associations Technology and Maintenance 
Council Recommended Practice 1114A: Driver's Effect on Fuel Economy
---------------------------------------------------------------------------
    On a broad economic level, the U.S. is facing slowing growth in 
both labor force productivity and size, which will create headwinds for 
GDP growth. The McKinsey Global Institute estimated that automation 
technologies, including heavy truck automation, could improve global 
productivity growth by as much as 1.4 percent annually.\7\
---------------------------------------------------------------------------
    \7\ McKinsey Global Institute, ``A Future That Works: Automation, 
Employment, and Productivity,'' Jan. 2017. Available at http://
www.mckinsey.com/global-themes/digital-disruption/harnessing-
automation-for-a-future-that-works
---------------------------------------------------------------------------
    Labor interests have voiced understandable concern regarding how 
automation may affect current and future drivers. The industry is 
currently facing a driver shortage as well as a demographic cliff of 
older drivers retiring--all at a time when freight tonnage is 
forecasted to increase by over 36 percent in the next decade driven by 
online retailing and other trends.\8\ Automation can help fill this 
gap. In the medium term, as automated long-haul routes are established, 
some drivers will be attracted to an expected increased volume of local 
and regional routes that include moving freight to staging areas for 
automated routes. Such routes would rely more heavily on the skillsets 
of experienced drivers to navigate complicated non-highway roads while 
providing a higher quality of life by allowing them to stay close to 
home. It is important to note that automation will not be everywhere, 
all at once. Development of self--driving systems will take years, 
while deployment will occur in specific use cases, on specific routes. 
A deliberate pace of deployment will allow working collaboratively with 
the driver community to address any job displacement from long-haul 
routes and augment training to allow drivers to take advantage of new 
types of jobs created by truck automation--while still ensuring the 
broad economic benefits of truck automation. We firmly believe, based 
on our in-depth understanding of self-driving truck technology, that 
everyone employed in the trucking industry today will be able to retire 
in the trucking industry.
---------------------------------------------------------------------------
    \8\ ATA Freight Transportation Forecast 2017 (http://
www.trucking.org/article/ATA-Forecasts-Continued-Growth-for-Trucking-
and-Freight-Economy)
---------------------------------------------------------------------------
Why Include Commercial Vehicles in Legislation
    At this early but critical stage in the development of a regulatory 
regime, we believe it is in the best interest of the Federal 
Government, technology developers, and the road-faring public that 
Congress includes heavy vehicles in any national framework. From our 
perspective, it is important that Congress's work builds on NHTSA's 
inclusive approach and avoids creating a bifurcated regulatory 
environment for automated vehicle equipment that excludes heavy 
vehicles.
    We are not alone in believing the first applications of vehicle 
automation are best suited for long haul freight trucking, from both a 
technical and economic perspective. By excluding heavy vehicles, 
Congress risks ignoring the growing industry consensus that early 
applications of vehicle automation, including self-driving systems, 
will likely include long-haul trucking.
    Excluding heavy vehicles from the Senate bill will not prevent the 
development of this technology, which will continue under various 
state-level regulatory regimes. However, the practical effect will be 
to leave the development of this important technology outside of the 
emerging Federal regulatory regime intended to promote certain safety, 
transparency, and cybersecurity practices while increasing uncertainty 
and complexity for technology developers. Meanwhile, international 
efforts to develop similar technology w ill continue with full-throated 
support from foreign governments. China has recently announced that it 
intends to become the world leader in artificial intelligence--the key 
to unlocking level 4 and 5 automation--by 2025. This is no idle threat. 
Chinese automated truck companies are testing on road today, and the 
Chinese government roadmap foresees their core AI industry being worth 
$59 billion by 2025, with associated industries including self-driving 
being worth a combined $740 billion.\9\ Legislation that only supports 
lower levels of automation or certain vehicle types will not allow 
America to maintain its current but threatened position as leader on 
technologies that will power the global economy in the coming decades.
---------------------------------------------------------------------------
    \9\ Kania, Elsa. ``China's Artificial Intelligence Revolution.'' 
The Diplomat. July 27, 2017. Available at http://thediplomat.com/2017/
07/chinas-artificial-intelligence-revolution/
---------------------------------------------------------------------------
    There are certainly additional regulatory and operational issues 
specific to commercial vehicles that FMCSA and other relevant agencies 
will need to address in consultation with industry as highly automated 
trucks are developed. Nothing in the current draft as contemplated by 
the Committee would circumvent this important work from proceeding 
thoughtfully and with deliberate speed if trucks are included. But from 
an equipment perspective, the sensors,processors, and software that 
will power automated trucks are not dissimilar from those that will 
power automated passenger vehicles. The testing, validation, and 
cybersecurity requirements to prove the safety and reliability of 
automated driving systems will still need to be of the highest rigor 
regardless of vehicle type. Fundamentally, we believe the most sensible 
way forward for this and future bills is to continue to build framework 
for establishing if an automated vehicle is safe for public roads, 
regardless of the size of the vehicle.
Conclusion
    Embark thanks Chairman Thune, Ranking Member Nelson, and the rest 
of the Committee on their thoughtful leadership on this issue, and the 
opportunity to share our perspective as a leader in commercial vehicle 
automation. We are eager to continue to contribute to a clear-eyed 
conversation on how best to deploy this technology safely and 
efficiently for the benefit of the American public and American 
economy.
            Respectfully,
                                            Alex Rodrigues,
                                                CEO and Co-founder,
                                                                Embark.
                                           Jonathan Morris,
                                             Head of Public Policy,
                                                                Embark.
                                 ______
                                 
              Prepared Statement of Truck Safety Coalition
    The Truck Safety Coalition (TSC) thanks Members of the U.S. Senate 
Committee on Commerce, Science, and Transportation for holding this 
important hearing, ``Transportation Innovation: Automated Trucks and 
our Nation's Highways.'' We look forward to working with members of the 
Committee as well as safety advocates, technology companies, and 
leaders in the trucking industry to continue discussing the role of 
autonomous technologies in commercial motor vehicles and to develop an 
oversight framework that prioritizes safety first.
    TSC recognizes the potential safety benefits of autonomous 
technologies in trucking, especially at a time when truck crashes 
continue to climb. Since 2009, truck crashes have gone up by 45 
percent, resulting in a 20 percent increase in truck crash fatalities 
and a 57 percent increase in truck crash injuries. To make matters 
worse, truck vehicle miles decreased by three percent in that same 
time, meaning that the truck crash involvement, truck crash injury, and 
truck crash fatality rates have all increased over the past six years.
Current technology
    While TSC is excited that autonomous technologies have the 
potential to prevent and mitigate thousands of crashes resulting from 
human error, we also want to ensure that the process for testing and 
developing AV technology in trucks does not jeopardize public safety. 
As we continue to figure out the details of the regulatory framework 
associated with AV technology, we urge lawmakers to work towards 
mandating automatic emergency braking (AEB) and heavy vehicle speed 
limiters on all trucks.
    Mandating speed limiters be set on all trucks is a commonsense step 
to improving truck safety that will produce more net benefits than 
costs. Since the 1990s, speed limiter technology has been built into 
all truck engine control modules, which eliminates the cost of 
installing this life saving technology. Additionally, motor carriers 
will see a return on investment by reducing their speed-related, at-
fault crashes--some of the deadliest and costliest types of truck 
crashes. In fact, the Ontario Ministry of Transportation found that 
speed-related, at-fault truck crashes dropped by 73 percent after 
Ontario's truck speed limiter mandate took effect.
    Automatic emergency braking is not a new technology either. The 
European Union mandated AEB on large trucks back in 2012, requiring all 
new trucks to be equipped with it by 2015. Here in the U.S., motor 
carriers have been using AEB long enough to establish its effectiveness 
and reliability. In fact, one trucking company saw their number of 
rear-end collisions decrease by nearly 80 percent from 2003 to 2015 
after equipping their fleet with an active system of collision 
avoidance and mitigation.
    Another large trucking company, performed an internal study over a 
30-month period on approximately 12,600 of its trucks to determine the 
extent to which a suite of safety technologies (AEB, electronic 
stability control (ESC), and lane departure warning) installed on the 
trucks in its fleet reduced the frequency of various types of 
collisions. The results were clear and compelling: trucks equipped with 
the suite of safety systems had a lower crash rate and frequency of 
engagement in risky driving behavior compared to vehicles without such 
systems; these trucks exhibited a 71 percent reduction in rear-end 
collisions and a 63 percent decrease in unsafe following behaviors.
    We urge members of the Committee to look at the drastic reductions 
in truck crash fatalities in the European Union, which requires both 
speed limiters and automatic emergency braking. Listen to the CEOs of 
successful companies who will attest to the safety and cost benefits of 
equipping their trucks with these technologies. Meet with the survivors 
and families of victims of truck crashes that could have been prevented 
had these technologies been mandated.
    Speed limiters and automatic emergency braking serve as building 
blocks to achieving a fully autonomous truck, and, more importantly, 
can improve safety today, rather than several years from now.
AV Technology
    The deployment of autonomous technology in trucking is both 
inevitable and fast approaching. Yet, the rapidity of the technological 
advancements in trucking does not absolve the Department of 
Transportation of its responsibility to promote safety across an 
industry that engages in Interstate commerce on publicly funded roads. 
The DOT must go beyond a weak voluntary agreement and develop a 
regulatory framework that protects public safety without stymying 
innovation.
    As we approach a future where driver-assisted and autonomous 
commercial motor vehicles will be operating alongside driver-operated 
vehicles, it will become increasingly important for the Federal 
Government to ensure that the test to determine the efficacy of AV 
technology as well as the technology itself are standardized. Failure 
to create agreed upon methods and metrics to determine success could 
result in trucks operating with unreliable and unsafe technologies and 
testing that does not accurately assess whether a technology will 
perform as it is intended. This creates two potential problems: (1) a 
technology intended to make our roads safer will instead diminish road 
safety, and (2) the public's confidence in this technology will erode, 
making it more difficult to roll out on a large scale.
No exemptions for trucks
    The Truck Safety Coalition supports several recommendations that we 
believe will make sure that the rollout of AV technology in trucks is 
both safe and smooth:

    There should be no exemption for commercial motor vehicles from 
Federal legislation regarding the development and deployment of 
autonomous vehicle technology. Although trucks and cars should face 
different performance and testing standards, Federal oversight for 
trucks is critical.
Manufacturers of AV Technology Requirements

  <bullet> AV systems must comply with Federal Motor Vehicle Safety 
        Standards without any exemptions

  <bullet> AV systems must meet or exceed a ``functional safety 
        standard'' as to be determined by the National Highway Traffic 
        Safety Administration (NHSTA)

  <bullet> AV systems must meet or exceed a minimum cybersecurity 
        standard as to be issued by the Secretary within 3 years of 
        enactment of this legislation

  <bullet> Submit a detailed report that analyzes the safety 
        performance of automated driving systems and automated vehicles

  <bullet> Remove from operation any autonomous commercial motor 
        vehicle with a defect

  <bullet> Determine whether a defect affects one vehicle or if the 
        defect is fleet-wide

  <bullet> Report all fatal, injury and property damage only crashes 
        involving driver-assisted and autonomous trucks to NHTSA

  <bullet> Establish a privacy plan
Motor Carrier Requirements

  <bullet> Apply for additional operation authority

  <bullet> An operator with a valid commercial driver's license must be 
        in the autonomous commercial motor vehicle at all times

    <ctr-circle> The operator shall have an additional endorsement on 
            his CDL denoting that he has been adequately trained to 
            manage the AV technologies in the truck
Secretary of Transportation Requirements

  <bullet> Establish a database for autonomous commercial vehicles. 
        Information should include:

    <ctr-circle> Vehicle's identification number

    <ctr-circle> Manufacturer, make, model and trim information

    <ctr-circle> Level of automation and operational design domain of 
            each of the vehicle's automated driving systems

    <ctr-circle> Any exemptions from Federal motor vehicle safety 
            standards granted to the vehicle

  <bullet> Promulgate a regulation on driver engagement

  <bullet> Determine any additional enforcement measures pertaining to 
        AV technology that state and local law enforcement should 
        consider during road side inspections

  <bullet> Request and direct additional resources to NHTSA and the 
        Federal Motor Carrier Safety Administration (FMCSA) to develop 
        regulations and execute enforcement efforts relating to AV 
        technology.

    We strongly believe that AV technology has the potential to 
eliminate many preventable injuries and needless deaths, but policy-
makers must proceed prudently. Policy-makers should look to ensure that 
we are proceeding safely in our pursuit of achieving safe and reliable 
AV technology in trucks. We hope to work with members of the Committee 
as well as other interests to determine the benchmarks of adequate 
testing, the extent of Federal oversight, and the details of safety 
standards as we work towards realizing driver assisted and autonomous 
trucks that reduce crashes, prevent injuries, and save lives.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                       Colonel Scott G. Hernandez
    Question. Mr. Clarke noted in his testimony, that he sees drivers 
becoming ``more like airline pilots'', and keeping an eye on the fleet 
and managing various aspects of the trucking experience. While I'm 
pleased to see that he and other truck manufacturing companies see 
truck drivers staying in their jobs in a slightly different role, I do 
want to address the larger issue of employment in this workforce. New 
Hampshire is home to over 27,000 people who work in the trucking 
industry. What kinds of job training and re-training should be 
available to these workers? What is the role of industry in helping us 
alleviate these challenges?
    Answer. While I appreciate the question, the issue is outside my 
area of expertise and I would defer to the other expert witnesses on 
the panel.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                              Troy Clarke
    Question. Mr. Clarke, thank you for your testimony. You note in 
your testimony, that you see drivers becoming ``more like airline 
pilots'', and keeping an eye on the fleet and managing various aspects 
of the trucking experience. While I'm pleased to see that you and other 
truck manufacturing companies see truck drivers staying in their jobs 
in a slightly different role, I do want to address the larger issue of 
employment in this workforce. New Hampshire is home to over 27,000 
people who work in the trucking industry. What kinds of job training 
and re-training should be available to these workers? What is the role 
of industry in helping us alleviate these challenges?
    Answer. The industry is already experiencing a driver shortage and 
as the American Trucking Association pointed out in their testimony, we 
are expecting that shortage to grow to 1 million drivers over the next 
decade. Our industry is focused on driver assisted technology that will 
help attract new, younger drivers to this noble profession. My 
customers continue to express their views that they still see a driver 
in the seat of a truck, not the elimination. Regarding training 
programs, manufacturers are focused on how do we train drivers to use 
this technology and receive the benefits. I believe that we need 
training classes, whether through the established CDL process or other 
formal training, that ensures that drivers are well equipped to handle 
this technology in the safest way possible.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Deborah A.P. Hersman
    Distracted Driving. While I was at the hearing there was 
significant discussion about the ongoing need to reduce crashes caused 
by distracted drivers. National Highway Traffic Safety Administration 
data show that almost 3,500 people were killed in distraction-related 
crashes in 2015--an increase of almost 300 from 2014. I included a 
provision in the FAST Act to help more states qualify for Federal 
grants to fight distracted driving, but there is still more to be done. 
Technology like emergency braking and lane departure warnings can help 
reduce distraction-related crashes, but the technology is only deployed 
in about ten percent of trucks.
    Question. Ms. Hersman, what can be done to increase the deployment 
of these technologies in large trucks?
    Answer. If we want to see greater penetration of life-saving 
technology, we can pursue regulations to require a standard for new 
manufacture and/or retrofit, we can encourage or incentivize all 
commercial motor vehicle manufacturers to offer AEB as a voluntary 
standard, and we can educate operators on the benefits and the return 
on investment for the technology so they will elect to purchase only 
vehicles with this technology.
    NSC recognizes that mandating or regulating safety standards in the 
U.S. has not been as prevalent as it once was due to industry 
opposition and the lengthy process for finalizing rules, but we are 
falling behind the rest of the world when it comes to embracing 
technology and adopting standards. The European Union required all new 
trucks and buses sold after November 1, 2015 to be equipped with 
advanced emergency braking systems and lane departure warning systems. 
While these technologies are often available as options--safety should 
not be dependent on the operator upgrading their option package--these 
lifesaving technologies protect not just the commercial driver, but the 
travelling public since 90 percent of fatalities involving large 
commercial vehicles are the occupants of passenger cars.
    We applaud the voluntary commitment made in March of 2016 by 20 
automakers to include automatic emergency braking (AEB) on all personal 
vehicles sold in the U.S. by 2022. Toyota has already committed to beat 
this date and install the technology by 2018. This model can be 
replicated in the commercial motor vehicle industry. As we learned at 
the hearing, my fellow witness from Navistar stated that they already 
offer AEB as standard on their truck tractors, but not everyone keeps 
it as an option. This model can be replicated for other technologies as 
well, like lane departure warning and blind spot monitoring.
    We appreciate your leadership on distracted driving and your 
efforts to engage your colleagues on this important issue--the public 
looks to legislators and policymakers to set the standards for 
acceptable behavior and passing strong laws sends a message that 
distracted driving is not acceptable. The National Safety Council 
supports your efforts. Additionally, NSC works with businesses to 
eliminate the use of mobile devices behind the wheel. Some of our 
member companies have instituted complete cell phone bans--hand-held 
AND hands-free--and we encourage all businesses to evaluate such an 
option.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                          Deborah A.P. Hersman
    Question. Mr. Clarke noted in his testimony, that he sees drivers 
becoming ``more like airline pilots'', and keeping an eye on the fleet 
and managing various aspects of the trucking experience. While I'm 
pleased to see that he and other truck manufacturing companies see 
truck drivers staying in their jobs in a slightly different role, I do 
want to address the larger issue of employment in this workforce. New 
Hampshire is home to over 27,000 people who work in the trucking 
industry. What kinds of job training and re-training should be 
available to these workers? What is the role of industry in helping us 
alleviate these challenges?
    Answer. The National Safety Council is committed to eliminating 
preventable deaths at work, in homes and communities and on the road. 
Unfortunately, the transportation sector is one of the deadliest 
occupations. Motor vehicle crashes are also the leading cause of ALL 
workplace deaths. It is important to recognize that moving these jobs 
from the cab of a truck to a control room could would result in greater 
safety on-the-job for these professionals.
    Thinking about the driving task, I do not believe that truck 
drivers will be forced out of their jobs for the foreseeable future. 
Commercial interstate driving along long stretches of controlled-access 
highways may be the first sector to see level 4 or 5 trucks, but we 
must recognize that some real-time monitoring will be required--whether 
in cab or from a remote location. The monitoring, much like controlling 
air traffic or operating a drone, will require qualified and trained 
professionals. Additionally, when an automated vehicle exits highly 
controlled environments to navigate city streets and make deliveries, 
it is likely that drivers will be necessary even on basic routes for 
the near term. Additionally, the driver plays other important roles, 
like verifying the safety of the vehicle before a trip, monitoring 
changing conditions and safely securing a load--these functions cannot 
be done by a machine today.
    As the trucking industry evolves, some new jobs will be created to 
help monitor fleet operations and ensure proper vehicle maintenance. 
These jobs and perhaps others that we cannot conceive of today, will 
likely require a higher level of technical skills. In order to ensure a 
smooth transition for these workers, Congress, states and industry 
should ensure technical training is widely available, with a special 
emphasis on reaching existing truck drivers. State and local programs 
already exist that may be good models to consider. Finally, our junior 
colleges and technical schools could play an important role in 
providing STEM education and targeted training needed to fill these new 
roles. Creating high-paying, rewarding and safe jobs is something 
everyone can get behind.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                              Chris Spear
    Question. Workforce issues are important to the truck drivers, who 
keep our economy moving, and to the companies that rely on their 
skilled labor to deliver goods. What steps should Congress take to 
address the impacts that automated technologies will have on the 
trucking industry?
    Answer. Thank you for your question, Senator Nelson. It is 
important to remember that one of the main impacts automated technology 
will have on the trucking industry and its drivers is the reduction of 
crashes. These technologies are also expected to bring benefits to the 
trucking industry in productivity, efficiency, and driver health and 
wellness. Congress should encourage the development of this technology 
and establish a clear leadership role for the Federal Government in 
automated truck policy which, where necessary, exercises Federal 
preemption to ensure that there is no conflict between Federal and 
state regulations. It is critically important to provide certainty to 
the developers of automated truck technology that there will not be a 
disparate set of state laws, now or in the future, that unnecessarily 
impedes the ability of a company to test and operate vehicles with 
their technology across state lines and in interstate commerce. This 
will allow more on-road data to be collected more quickly, which will 
lead to improved system design and better information for making both 
regulatory and business decisions, including gaining a better 
understanding of how automated technologies will affect the role of the 
driver in real-world applications. Expanding the number and duration of 
exemptions that NHTSA is authorized to allow from current standards 
that prevent new safety technology from being put on the road will also 
help in this regard. Congress could also direct FMCSA to review Federal 
Motor Carrier Safety Regulations and see what might be changed to 
account for the new driving environment with automated technology where 
the driver may be in the seat but not operating the controls. A better 
understanding of how these technologies may benefit the public along 
with consideration of how regulations can be changed to take advantage 
of the capabilities that this new technology provides will lead to 
better policy decisions and the development of a regulatory framework 
that help to realize these benefits. Perhaps there can be changes made 
in hours of service that would improve productivity without reducing 
safety? How should speeds be managed with connected and automated 
technology? These are questions that could be answered as we gather 
data from real-world testing and operation of vehicles with automated 
technology.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                              Chris Spear
    Human Trafficking. I introduced the Combatting Human Trafficking in 
Commercial Vehicles Act with Chairman Thune to give truckers more tools 
to recognize and report human trafficking which passed the Senate on 
September 14. This bill increases coordination of human trafficking 
prevention efforts within the Department of Transportation, gives the 
Federal Motor Carrier Safety Administration new authority to work with 
drivers on education and outreach efforts, and promotes commercial 
driver's license training. Truckers are on the front lines in the 
battle against human trafficking and we must support them.
    Question. Mr. Spear, what steps has the American Trucking 
Associations and its members taken to help drivers combat human 
trafficking?
    Answer. Thank you for the question Senator Klobuchar, and for your 
efforts to bring greater attention to the horrific crime of human 
trafficking. Let me begin by acknowledging your legislative initiative, 
the Combatting Human Trafficking in Vehicles Act. I believe that your 
bill, once enacted, will take an important step forward in improving 
the Federal coordination of anti-human trafficking efforts, as well as 
amplifying the outreach, education and reporting efforts against human 
trafficking. It will be a vital tool in efforts to combat this 
horrendous crime, a fight that we are all in together. The trucking 
industry, legislators, law enforcement and the general public, must 
work hand in glove to bring an end to human trafficking.
    ATA and its members have long worked with the industry and our 
drivers to combat human trafficking. Our drivers are the eyes and ears 
of the Nation's highways, and are on the front lines of this fight, 
identifying, reporting and prevent human trafficking. ATA serves on the 
board of Truckers Against Trafficking, supporting their efforts on 
education, information sharing, and amplifying resources to fight human 
trafficking. Additionally, ATA's America's Road Team Captains, made up 
of a small group of professional truck drivers who share superior 
driving skills, remarkable safety records and a strong desire to spread 
the word about safety on the highway, travel the country educating the 
general public on important trucking safety issues, and also the 
realities of human trafficking and how to report it effectively.
    Many of ATA's members are also actively involved in the Department 
of Homeland Security's Blue Campaign. Furthermore, numerous ATA 
members, as well as our federation of 50 state trucking associations, 
have made tremendous efforts to increase driver education and training 
on how to identify and prevent human trafficking. And finally, in 
recognizing the need for greater collaboration between the trucking 
industry and law enforcement, ATA intends to convene a summit of 
interested parties on November 30th to discuss issues including human 
trafficking, and how we can work more closely together to prevent this 
terrible crime. These are just some of the efforts ATA and the trucking 
industry are taking to combat human trafficking, and we look forward to 
continuing to work closely with you and your colleagues, law 
enforcement and the good people of our Nation to bring an end to human 
trafficking.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                              Chris Spear
    Question. Mr. Clarke noted in his testimony, that he sees drivers 
becoming ``more like airline pilots'', and keeping an eye on the fleet 
and managing various aspects of the trucking experience. While I'm 
pleased to see that he and other truck manufacturing companies see 
truck drivers staying in their jobs in a slightly different role, I do 
want to address the larger issue of employment in this workforce. New 
Hampshire is home to over 27,000 people who work in the trucking 
industry. What kinds of job training and re-training should be 
available to these workers? What is the role of industry in helping us 
alleviate these challenges?
    Answer. Thank you for your question, Senator Hassan. Because of the 
complexity and diversity of the trucking industry, we expect the driver 
will retain an important role in trucking for a long time to come, with 
automated truck technology applied to improve safety and productivity. 
In fact, the trucking industry is currently facing a shortage of 
drivers, particularly for long-distance drivers, around 50,000. If 
these trends continue, the shortage could hit over 150,000 in a decade, 
with projections are that we'll need to hire about 890,000 truck 
drivers over the next 10 years. As an industry, we are working hard to 
recruit new drivers and retain the excellent drivers we have now. 
However, we do not dismiss the importance of considering the potential 
impact on the workforce and the need to develop programs that will help 
prepare workers with the skills needed for the jobs of the future. We 
believe that the application of automated technology in trucking will 
center on solutions in which there remains a role for drivers, rather 
than a driverless approach. In addition to monitoring the automated 
driving systems and manually driving in the cityscape and at loading 
docks, drivers will retain their current responsibilities for securing 
the cargo, particularly hazardous cargo, as well as for customer 
interaction with the shipper and receiver. Trucking companies will 
train their employees to operate equipment with the new technology and 
likely promote the availability of the advanced technology on their 
trucks to attract new and younger workers to the industry. The American 
Transportation Research Institute, the not-for-profit research arm of 
the trucking industry, recently released a report on how autonomous 
technologies will impact the trucking industry. That assessment found 
that highly automated trucks will likely draw new, younger drivers into 
the trucking industry by better meeting the job expectations of 
millennial workers. Additionally, these new technologies are expected 
to make drivers safer and more productive, making truck driving a more 
attractive career choice, and attracting new people to our industry. 
Affected stakeholders from industry, labor and government should 
embrace this coming innovation and work together to prepare the 
workforce to operate with the new technology. This issue is not unique 
to the trucking industry, but applies to drivers of other commercial 
and non-commercial vehicles as well as other industries where new 
technologies are being introduced that will change the roles and duties 
of the workforce. By giving the trucking industry access to the same 
preemptions that the autos receive in the Senate Commerce AV START Act 
we can address these concerns now and develop the kind of training and 
retraining programs that insure that safe vehicle operators remain 
behind the steering wheel of all commercial vehicles.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                                Ken Hall
    Question. Workforce issues are important to the truck drivers, who 
keep our economy moving, and to the companies that rely on their 
skilled labor to deliver goods. What steps should Congress take to 
address the impacts that automated technologies will have on the 
trucking industry?
    Answer. Senator Nelson, the first step Congress should take is to 
study this technology in greater detail. No two pieces of automation 
technology are exactly the same, so we should not assume that their 
impacts on workers will be the same either. Congress should explore in 
depth what type of technology will be deployed first, and then create 
policies to address the threats each one poses.
    In our estimation, downward pressure on wages and the erosion of 
basic working conditions and safety may be the most significant impact 
drivers feel from this technology. Anything that undercuts the quality 
of a truck driver's profession should be a core component of what 
Congress Studies. Any policy prescriptions stemming from that 
examination must ensure this profession remains a good, middle-class 
Sustaining job.
    Throughout this process, Congress must also keep in mind that the 
biggest threat to workers from Self-driving vehicles may not be job 
losses. Drivers who are never in danger of being laid off may have as 
much to fear from this technology as anyone. They could face lower 
wages, a reduction in benefits, fundamental changes to their work 
Schedules, or a longer work day, If a driver is only performing half of 
the driving duties he or she once was, or those duties have changed 
companies may try to change the Current wage rates. Companies may also 
immediately decide to reclassify drivers as ``operators' or ``monitors' 
to avoid paying them on a driver's pay-scale.
    When examining all the impacts this technology will have on 
workers, we should also look past traditional paycheck issues and 
examine the other ways it will impact a driver's workday. The health 
and Safety of Workers is a key component of this technology that has 
largely been ignored. A driver in the cab of an automated truck will 
have LiDAR, Sonar, and radar sent through their bodies in massive 
quantities. That exposure could last for days on end, and from far more 
heavy duty sensors than what will be found in automated passenger cars. 
What steps is industry taking to examine the physical effects the 
technology may have on the human body? Being able to get through the 
workday safely is a core issue facing the driving workforce, so these 
types of issues should be treated as ``workforce issues''.
    We will work actively with the Committee to identify other issues 
that will impact workers. From worker privacy concerns, to the need for 
expanded driver training on new vehicles, to worker liability in the 
case of a crash, there is a long list of topics that must be examined. 
Each one poses its own challenge to the driving workforce, and each 
must be scrutinized in detail so that we can create policies to address 
them before, not after, this technology is rolled out.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                                Ken Hall
    Question. Mr. Clarke noted in his testimony, that he sees drivers 
becoming ``more like airline pilots'', and keeping an eye on the fleet 
and managing various aspects of the trucking experience. While I'm 
pleased to see that he and other truck manufacturing companies see 
truck drivers staying in their jobs in a slightly different role, I do 
want to address the larger issue of employment in this workforce. New 
Hampshire is home to over 27,000 people who work in the trucking 
industry. What kinds of job training and re-training should be 
available to these workers? What is the role of industry in helping us 
alleviate these challenges?
    Answer. Senator Hassan, while I'm also pleased to hear manufactures 
say there will be a continued role for a driver, they can be of 
immediate help by explaining what exactly that new role will be. They 
allude to these other responsibilities a driver will have when in the 
truck, without ever going into any detail.
    The examples they give, like fleet management or dispatching, are 
not particularly realistic. Drivers in big fleets don't tend to have 
much familiarity with that side of the business, and assigning these 
jobs to a driver wouldn't fit into the structure of most large 
companies. If those are indeed the new job functions that a driver will 
be performing, industry must make crystal clear what the new 
expectations of their employees are and provide in depth training. They 
must also convey to Congress and Safety regulators how a driver would 
be able to actively monitor the truck's self-driving technology while 
also performing those new job tasks. Airline pilots are constantly 
monitoring autopilot technology even when a plane is ``flying itself''. 
We need to make sure that a driver is able to do the same. They can't 
be overloaded with these new responsibilities in a way that could 
compromise the safety of the vehicle's operation.
    What's more, if those manufactures are wrong, and drivers are not 
needed in the future, there are massive hurdles that you should be 
conscious of when it comes to retraining people in this profession. The 
nature of a truck driver's job usually has them out on the road all 
day, or for multiple days on end. That makes retraining difficult. 
There aren't usually a significant number of drivers in one centralized 
location throughout the day who can be pulled into a classroom or other 
workshop setting for instruction.
    To address this, employees must be given days or weeks off, with 
pay, to complete any comprehensive retraining. As I'm sure you would 
agree, we cannot accept a situation where millions of drivers are 
expected to be retrained on their own dime, or after they've already 
been kicked to the curb. It will likely be incumbent on Congress to 
compel companies to share in this sacrifice and look out for your 
constituents. Our experience shows that companies are unlikely to do 
this voluntarily without being compelled to do so.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
